No. _______

d
IN THE

Supreme Court of the United States
HEIDI C. LILLEY, KIA SINCLAIR, and GINGER M. PIERRO,
—v.—

THE STATE

OF

Petitioners,

NEW HAMPSHIRE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF NEW HAMPSHIRE

PETITION FOR A WRIT OF CERTIORARI

ERIC ALAN ISAACSON
Counsel of Record
LAW OFFICE OF
ERIC ALAN ISAACSON
6580 Avenida Mirola
La Jolla, California 92037
(858) 263-9581
ericalanisaacson@icloud.com
DAN HYNES
LIBERTY LEGAL SERVICES PLLC
212 Coolidge Avenue
Manchester, New Hampshire 03101
(603) 583-4444
Counsel for Petitioners

i
QUESTIONS PRESENTED
Three women active in the Free the Nipple
Movement were convicted of violating a Laconia, N.H.
Ordinance prohibiting public exposure of “the female
breast with less than a fully opaque covering of any
part of the nipple.” Laconia, N.H., Code of Ordinances
ch. 180, art. I, §§180-2(3), 180-4. The Supreme Court
of New Hampshire affirmed their convictions in a
published opinion rejecting state and federal Equal
Protection Clause defenses. Contrary to federal
appellate decisions, New Hampshire’s high court held
an ordinance punishing only females for exposure of
their areolas does not classify on the basis of gender.
Alternatively, New Hampshire’s high court held the
Ordinance would survive intermediate scrutiny
anyway—a holding directly at odds with a recent
Tenth Circuit decision, which in turn conflicts with
decisions of the Seventh and Eighth Circuits.
The questions presented are:
1. Does an ordinance expressly punishing only
women, but not men, for identical conduct—being
topless in public—classify on the basis of gender?
2. Does an ordinance criminalizing exposure of “the
female breast,” under which only women are
prosecuted for public exposure of their areolas, violate
the Fourteenth Amendment’s Equal Protection
Clause?

ii
PARTIES TO THE PROCEEDINGS
Petitioners Heidi C. Lilley, Kia Sinclair, and Ginger
M. Pierro were defendants before the trial court, and
appellants before the Supreme Court of New
Hampshire.
Respondent the State of New Hampshire
prosecuted the matter before the trial court, and was
appellee before the Supreme Court of New
Hampshire.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..........................................i
TABLE OF CONTENTS..............................................iii
TABLE OF AUTHORITIES........................................iv
REPORTS OF THE OPINIONS BELOW....................1
JURISDICTION............................................................1
CONSTITUTIONAL PROVISION
AND STATUTE INVOLVED....................................2
STATEMENT OF THE CASE......................................2
REASONS GRANTING THE WRIT..........................11
I. State High Courts and the Federal
Appellate Circuits are in Conflict on
Whether Ordinances Expressly Punishing
Women, But Not Men, for Being Topless in
Public Classify on the Basis of Gender..................14
II. State High Courts and the Federal
Appellate Circuits Are in Conflict on
Whether Statutes Punishing Women
Alone for Exposure of their Breasts
Can Survive Heightened Scrutiny.........................18
III. The Decision Below is Wrong
on the Merits...........................................................21
CONCLUSION............................................................28

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX TO THE PETITION...............................1a
Appendix A — Decision of the Supreme Court
of New Hampshire (Feb. 8, 2019)....................1a
Appendix B — Trial-court decision denying
motion to dismiss (Nov. 20, 2016).................52a
Appendix C — Citation, findings & sentencing
for Kia Sinclair
(May 31, 2016 / Feb. 7, 2017).........................64a
Appendix D — Citation, findings & sentencing
for Heidi C. Lilley
(May 31, 2016 / Feb. 7, 2017).........................66a
Appendix E — Citation, findings & sentencing
for Ginger M. Pierro
(May 28, 2016 / Feb. 7, 2017).........................68a
Appendix F — Constitutional and statutory
provisions........................................................70a
U.S. Const., Amend. XIV, §1, cl. 2.................70a
N.H. RSA 132:10-d.........................................70a
Laconia, N.H., Code of Ordinances,
ch. 180, article I, §§180-1 to 180-6..............71a
Appendix G — Motion to dismiss (excerpts)...........75a
Appendix H — Transcript of hearing
on motion to dismiss (Oct. 14, 2016).............88a

v
TABLE OF AUTHORITIES
Page
Cases
City of Albuquerque v. Sachs,
92 P.3d 24 (N.M. Ct. App. 2004)...............................8
Buzzetti v. City of New York,
140 F.3d 134 (2d Cir. 1998)...............8, 10, 16, 17, 22
Craft v. Hodel,
683 F.Supp. 289 (D.Mass. 1988).................10, 16, 18
People v. David,
152 Misc. 2d 66, 585 N.Y.S.2d 149
(N.Y. County Ct. 1991)......................................16, 20
Doran v. Salem Inn, Inc.,
422 U.S. 922 (1975)...................................................1
Eckl v. Davis,
51 Cal. App. 3d 831, 124 Cal. Rptr. 685
(Cal. Ct. App. 1975)...................................................8
Erzoznik v. City of Jacksonville,
422 U.S. 205 (1975)...................................................1
Free the Nipple—Fort Collins v.
City of Fort Collins,
916 F.3d 792 (10th Cir. 2019).............9, 11-13, 17-25
Free the Nipple—Fort Collins v.
City of Fort Collins, 237 F.Supp. 3d
1126 (D. Colo. 2017),aff’d, 916 F.3d 792
(10th Cir. 2019)....................................................9, 10

vi
TABLE OF AUTHORITIES—Continued
Page
Free the Nipple-Springfield Residents
Promoting Equality v. City of Springfield,
923 F.3d 508 (8th Cir. 2019).............13-14, 20-21, 23
Gonya v. Comm’r, N.H. Ins. Dept.,
153 N.H. 521 (2006)...................................................8
Hang On, Inc. v. City of Arlington,
65 F.3d 1248 (5th Cir. 1995).............................17, 22
Heckler v. Mathews,
465 U.S. 728 (1984).................................................28
City of Jackson v. Lakeland Lounge,
688 So.2d 742 (Miss. 1996).....................................16
J&B Soc. Club No. 1, Inc. v. City of Mobile,
966 F.Supp. 1131 (S.D. Ala. 1996)....................10, 18
J.E.B. v. Alabama ex rel. T. B.,
511 U.S. 127 (1994).............12, 15, 18, 19, 22, 25, 26
John P. King Mfg. Co. v. City Council
of Augusta, 277 U.S. 100 (1928)............................1-2
Kirchberg v. Feenstra,
450 U.S. 455 (1981)...........................................15, 23
State of New Hampshire v. Lilley,
__N.H.__, 204 A.3d 198 (N.H. 2019).........................1
Mississippi University for Women v. Hogan,
458 U.S. 718 (1982)...............................22, 23, 26, 28

vii
TABLE OF AUTHORITIES—Continued
Page
Nevada Dept. of Human Resources v. Hibbs,
538 U.S. 721 (2003).................................................19
New Orleans v. Dukes,
427 U.S. 297 (1976)...................................................1
Obergefell v. Hodges,
135 S.Ct. 2584 (2015)..............................................26
Schlesinger v. Ballard,
419 U.S. 498 (1975).................................................26
City of Seattle v. Buchanan,
90 Wash.2d 584, 584 P.2d 918
(Wash. 1978)..................................................8, 17, 22
Sessions v. Morales-Santana,
137 S.Ct. 1678 (2017).......................15, 19, 22-26, 28
People v. Santorelli,
80 N.Y.2d 875, 600 N.E.2d 232,
587 N.Y.S.2d 601 (N.Y. 1992).................................20
SDJ, Inc. v. Houston,
837 F.2d 1268 (5th Cir. 1988).................................23
Tagami v. City of Chicago,
875 F.3d 375 (7th Cir. 2017).............10-13, 16-23, 28
Tolbert v. City of Memphis,
568 F.Supp. 1285 (W.D. Tenn. 1983)......................23

viii
TABLE OF AUTHORITIES—Continued
Page
City of Tucson v. Wolfe,
185 Ariz. 563, 917 P.2d 706
(Ariz. Ct. App. 1995)..........................................16, 23
United States v. Biocic,
928 F.2d 112 (4th Cir. 1991).........................8, 10, 25
United States v. Morrison,
529 U.S. 598 (2000)...................................................6
United States v. Virginia,
518 U.S. 515 (1996).................7, 8, 12, 15, 19, 22, 23
State v. Vogt,
341 N.J. Super. 407, 775 A.2d 551
(App. Div. 2001)...................................................6, 17
Ways v. City of Lincoln,
331 F.3d 596 (8th Cir. 2003).....10, 13, 18, 20, 23, 25

Constitional Provisions, Statutes, and
Ordinances
U.S. Const., Amend. XIV, §1, cl.2...........................2, 14
28 U.S.C. §1257.............................................................2
28 U.S.C. §1257(a).........................................................1
N.H. RSA 132:10-d......................................................29

ix
TABLE OF AUTHORITIES—Continued
Page
Laconia, N.H.,
Code of Ordinances ch. 180, art. I
§180-1 through 180-6,...............................................2
§180-1.........................................................................2
§180-2.............................................................2, 3, 7, 8
§180-2(3).........................................................i, 2, 3, 4
§180-4..................................................i, 2, 3, 4, 5, 7, 8
§184-5..................................................................2, 3-4

Secondary Authorities, Articles, and Tracts
Lisa Krissoff Boehm & Steven Hunt Corey,
America’s Urban History (New York &
London: Routledge, 2015).......................................27
Nick Coltrain,
Fort Collins Won’t Pursue Ban on Public
Toplessness to U.S. Supreme Court, The
Coloradoan, May 21, 2019..........................21-22
The Day-Breaking, If Not the Sun-Rising of the
Gospell with the Indians in New-England
(originally London: Richard Cotes for Fulk
Clifton, 1647), reprinted with original spellings
in 4 Collections of the Massachusetts Historical
Society: Tracts Relating to the Attempts to
Convert to Christianity the Indians of New
England 1, 20 (Cambridge, Mass.:
Charles Folsom, 1834).............................................27

x
TABLE OF AUTHORITIES—Continued
Page
The Eliot Tracts
(Michael P. Clark, ed.; Westport, CT &
London: Praeger, 2003)...........................................27
Laws of the Praying Town Indians,
in Documents of Native American Political
Development: 1500s to 1933, at 39 (David E.
Wilkins, ed.; Oxford & New York: Oxford
University Press, 2009)...........................................27
Elura Nanos,
Two Federal Courts are Feuding Over
Legalities of Toplessness in “Free the Nipple”
Cases, LAW & CRIME, May 7, 2019..........................14
The “Praying Towns,”
Nipmuc Indian Association of Connecticut,
Historical Series, No. 2 (2d ed. 1995),
http://www.nativetech.org/Nipmuc/praytown.html
..................................................................................26
Debra Cassens Weiss, 8th and 10th Circuits Split
Over Female Topless Ban, ABA JOURNAL
May 8, 2019........................................................14-15

REPORTS OF THE OPINIONS BELOW
The Supreme Court of New Hampshire’s opinion is
reported as New Hampshire v. Lilley, __N.H.__, 204
A.3d 198 (N.H. 2019), and is reproduced in the
Appendix hereto at Pet.App. 1a-51a.
The decision of New Hampshire’s Fourth Circuit
Court-Laconia District Division, denying Petitioners’
motion to dismiss the charges against them is not
published, but is reproduced in the Appendix hereto
at Pet.App. 52a-63a.
JURISDICTION
The Supreme Court of New Hampshire’s decision
was entered on February 8, 2019. No petition for
rehearing was filed. On April 19, 2019, Justice
Stephen Breyer granted Petitioners’ application for
an extension to July 8, 2019, to file this Petition for a
Writ of Certiorari. See Lilley v. New Hampshire, No.
18A1074 (April 19, 2019).
This Court has jurisdiction under 28 U.S.C.
§1257(a) to review the decision of New Hampshire’s
highest court in a case drawing Laconia’s publicindecency ordinance—which is a “state statute” for
jurisdictional purposes—into question on the ground
of its being repugnant to the Constitution of the
United States. See City of New Orleans v. Dukes, 427
U.S. 297, 301 (1976) (for jurisdictional purposes “[a]
municipal ordinance is a ‘State statute’”); Doran v.
Salem Inn, Inc., 422 U.S. 922, 927 n.2 (1975) (for
jurisdictional purposes “local ordinances are treated
as state statutes”); Erzoznik v. City of Jacksonville,
422 U.S. 205, 207 & n.3 (1975) (“A local ordinance is
deemed a state statute for purposes of invoking this
Court’s jurisdiction under 28 U.S.C. §1257.”); John P.

2
King Mfg. Co. v. City Council of Augusta, 277 U.S.
100, 102-14 (1928).
CONSTITUTIONAL PROVISION AND
STATUTE INVOLVED
The Fourteenth Amendment to the Constitution of
the United States, Section 1, clause 2, provides that
no state may “deny to any person within its
jurisdiction the equal protection of the laws”:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property,
without due process of law; nor deny to any
person within its jurisdiction the equal
protection of the laws.
U.S. Const., Amend. XIV, §1, cl.2.
Laconia, N.H., Code of Ordinances ch. 180, article I,
§§180-1 through 180-6, is set forth in full in the
Appendix to this Petition. Pet.App. 71a-74a. Section
180-2 provides that “it shall be unlawful for any
person to knowingly or intentionally, in a public
place: ... (3) Appear in a state of nudity.” Section 1804 defines “nudity” to include “the showing of the
female breast with less than a fully opaque covering
of any part of the nipple.” Section 180-5 provides that
“[a]ny person who violates this article shall be fined
$250 for the first offense, $500 for the second offense
and $1,000 for the third and each successive offense.”
See Pet.App. 71a-74a.
STATEMENT OF THE CASE
Petitioners Heidi C. Lilley, Kia Sinclair, and Ginger
M. Pierro are members of the Free the Nipple
movement, who publicly oppose the sexualized

3
objectification of women that is reinforced by
discriminatory laws punishing women but not men
for being topless in public. They were arrested and
prosecuted as women for doing what any man may
lawfully do in Laconia, New Hampshire, under an
Ordinance that by its terms expressly classifies on the
basis of gender. For being both topless and female in
public, each was convicted of violating an ordinance
criminalizing the public exposure of her “female
breast.” Laconia, N.H., Code of Ordinances ch. 180,
art. I, §§180-2(3), 180-4 (1998); see Pet.App. 64a-69a.
Sustaining their convictions over Petitioners’
objections that the Ordinance denies them equal
protection of the laws in violation of both state and
federal constitutions, the Supreme Court of New
Hampshire held that an ordinance criminalizing
being topless and female does not classify on the basis
of gender, and that even if it did so classify, the
Ordinance would survive “intermediate scrutiny”
anyway. See Pet.App. 11a-12a, 14a n.3.
_______________
Laconia, New Hampshire specifically defines the
offense of “public indecency” to include any public
exposure of “the female breast,” thereby criminalizing
women but not men for being topless in public.
Laconia, N.H., Code of Ordinances ch. 180, art. I,
§§180-2(3), 180-4 (1998); see Pet.App. 71a-73a.
Section 180-2(3), makes it “unlawful for any person to
knowingly or intentionally, in a public place ...
[a]ppear in a state of nudity.” But §184-4 then defines
“nudity” to include “the showing of the female breast,”
but not the male breast, “with less than a fully
opaque covering of any part of the nipple.” Laconia,
“Any person who violates this article shall be fined
$250 for the first offense, $500 for the second offense

4
and $1,000 for the third and each successive offense.”
Id. §180-5; see Pet.App. 73a.
Petitioner Ginger M. Pierro was arrested by
Laconia police for being topless and female in public
on May 28, 2016, while she was doing yoga at Weirs
Beach in Endicott Park. Pet.App. 99a-101a, 68a-69a.
Three days later, on May 31, 2016, Petitioners Heidi
Lilley and Kia Sinclair each went to Weirs Beach in
Endicott Park to publicly protest Pierro’s arrest.
Pet.App. 94a-96a (Sinclair), 107a-108a (Lilley). They
too were arrested, charged, and prosecuted as women
for being topless and female in public. Each was
charged with the crime of exposing her “female breast
...with less than a fully opaque covering of any part of
the nipple.” Laconia, N.H., Code of Ordinances ch.
180, art. I, §§180-2(3), 180-4 (1998); see Pet.App. 64a67a.
Petitioners jointly moved to dismiss the charges
against them arguing, inter alia, that the Ordinance
violates the state and federal constitutions’ Equal
Protection Clauses, because it classifies on the basis
of gender, applying unequally to men and women by
criminalizing women alone for the public exposure of
their areolas. Pet.App. 75a, 80a.
The trial court conducted an evidentiary hearing on
Petitioners’ motion to dismiss. Pet.App. 88a-169a.
Petitioners Lilley and Sinclair testified at the October
15, 2016, hearing that they are active in the Free the
Nipple movement, which opposes the sexualized
objectification of women’s breasts promoted by
discriminatory laws punishing women but not men
for public exposure of their breasts or nipples.
Pet.App. 92a-93a (Sinclair), 105a-107a, 111a (Lilley).
Sinclair testified that she was among those who
started the movement in New Hampshire having

5
realized, as a new mother, “that there was a very big
stigma on breastfeeding.” Pet.App. 92a-93a. She
explained that she believed that women’s breasts, and
especially
their
nipples,
have
been
“hypersexualize[d]” and “consider[ed] pornographic
and taboo,” with laws like Laconia’s public-indecency
Ordinance reinforcing a stigma that “contributes to
the low breastfeeding rates that the United States
has compared to the rest of the world.” Pet.App. 93a.
Lilley testified that she is a feminist who joined the
movement because she “believe[s] in the equality of
the male and female.” Pet.App. 105a. She has
testified before a committee of the state legislature,
Pet.App. 105a-106a, and before the Laconia City
Council,
Pet.App.
107a-108a,
opposing
the
criminalization of women’s breasts.
Sinclair and Lilley testified that they exposed their
breasts at Weirs Beach on May 31 in public protest
against Laconia’s Ordinance and Pierro’s arrest two
days before. Pet.App. 94a-96a (Sinclair), 107a-108a
(Lilley). Lilley explained to the arresting officer why
she was protesting. Pet.App. 108a.
The State called Sandra Smith, a beachgoer who
testified that on seeing Sinclair “with no shirt on ... I
knew it wasn’t proper ... And I just called the police
because I don’t think it was right. And the police
responded.” Pet.App. 133a. Asked if her objection was
“based on religious belief?” Smith averred: “Yes, it is.”
Pet.App. 137a.
The trial judge denied Petitioners’ motion to
dismiss the charges against them, ruling that
although it specifically criminalizes exposure of “the
female breast,” §180-4, the
subject ordinance creates no violation of the
Equal Protection clause as it treats all females

6
equally. There is, albeit, an omission of males to
the ordinance; however, the ordinance on its face
creates no classification as to the female body.
Pet.App. 58a. The trial judge accordingly ruled that
“the ordinance satisfies both the deferral [he meant
federal] and state tests for equal protection.” Pet.App.
58a-59a (citing United States v. Morrison, 529 U.S.
598, 620 (2000), and State v. Vogt, 341 N.J. Super.
407, 417-18, 775 A.2d 551, 557 (N.J. Super. 2001)).
The trial judge also rejected Petitioners’ contentions that Lilley and Sinclair’s public protest was
protected by the state and federal constitutions’ freespeech clauses, Pet App. 59a-63a, explaining that
“[t]he ordinance does not attack the content of the
message and thereby restrict the expressions of the
Defendants.” Pet.App. 61a.
Following a bench trial on February 7, 2017, the
trial court found all three women guilty as charged
and fined each of them $100, with the fines
suspended on condition of “good behavior” for one
year. Pet.App. 64a-65a (Sinclair), 66a-67a (Lilley,
68a-69a (Pierro).
Petitioners timely appealed from the judgment, but
the Supreme Court of New Hampshire affirmed their
convictions, with two of five justices dissenting in
part. The majority opinion confirms that Petitioners
timely and properly raised the federal questions
presented by this Petition. Pet.App. 2a-4a. As the
majority opinion recites:
The defendants jointly moved to dismiss the
charges against them. They argued that the
ordinance violates the guarantee of equal
protection ... under the State and Federal
Constitutions. ... Following a hearing, the court

7
denied the defendants’ motion. The court
subsequently found the defendants guilty of
violating the ordinance. This appeal followed.
On appeal, the defendants argue that the trial
court erred by denying their motion to dismiss
because the ordinance: (1) violates their right to
equal protection under the State and Federal
Constitutions ....
Pet.App. 4a.
The New Hampshire Supreme Court’s majority
opinion then proceeded to reject Petitioners’ Equal
Protection Clause argument’s central foundational
contention:
They argue that “the ordinance makes a
gender-based classification on its face.” We
construe their claim to be a facial challenge to
the portion of the ordinance that prohibits “the
showing of the female breast with less than a
fully opaque covering of any part of the nipple” in
a public place. See Laconia, N.H., Code of
Ordinances ch. 180, art. I, §§180-2, 180-4.
Pet.App. 6a.
The majority opinion acknowledged: “Under federal
equal protection law, pursuant to the Fourteenth
Amendment, a classification based on gender triggers
intermediate scrutiny.” Pet.App. 7a (citing United
States v. Virginia, 518 U.S. 515, 532-33 (1996)).
Under the Constitution of the State of New
Hampshire, moreover, a classification based on
gender would trigger even higher “strict scrutiny,”
requiring a “compelling justification.” Pet.App. 7a-8a.
The majority opinion concluded, however, that an
ordinance specifically punishing exposure of “the

8
female breast” does not classify on the basis of
gender:
We conclude that the Laconia ordinance does
not classify on the basis of gender. The ordinance
prohibits both men and women from being nude
in a public place. See Laconia, N.H., Code of
Ordinances ch.180, art. 1, §§ 180-2, 180-4. “[T]he
ordinance here does not prevent exposure by one
sex only.” [Seattle v.] Buchanan, 584 P.2d [918]
at 922 [(Wash. 1978)]. That the ordinance defines
nudity to include exposure of the female but not
male breast does not mean that it classifies
based upon a suspect class. See id.; Gonya [v.
Comm’r, N.H. Ins. Dept.], 153 N.H. [521] at 532
(2006)]. “Unlike the situation with respect to
men, nudity in the case of women is commonly
understood to include the uncovering of the
breasts.” Eckl [v. Davis], 124 Cal. Rptr. [685] at
696 [(Cal. Ct. App. 1975)]. The ordinance merely
reflects the fact that men and women are not
fungible with respect to the traditional
understanding of what constitutes nudity. See
id.; [City of Albuquerque v.] Sachs, 92 P.3d [24]
at 29 [(N.M. Ct. App. 2004)]; see also [United
States v.] Biocic, 928 F.2d [112] at 115-16 [(4th
Cir. 1991)] (noting that female breasts have
traditionally been regarded by society as an
erogenous zone); Buzzetti [v. New York], 140
F.3d [134] at 143 [(2d Cir. 1998)] (noting that,
unlike the male breast, “public exposure of the
female breast is rare under the conventions of
our society, and almost invariably conveys sexual
overtones”); cf. Virginia, 518 U.S. at 533 [(1996)]
(“The two sexes are not fungible; a community
made up exclusively of one sex is different from a

9
community composed of both.” (quotation and
brackets omitted)).
Pet.App. 11a-12a.
Writing that “[c]ourts in other jurisdictions have
generally upheld laws that prohibit women but not
men from exposing their breasts against equal
protection challenges,” the court’s majority noted that
a federal district court had concluded otherwise in
Free the Nipple—Fort Collins v. City of Fort Collins,
Colorado, 237 F.Supp. 3d 1126, 1133 (D. Colo. 2017).
Pet.App. 8a. In a footnote, the majority opinion added
that “we are aware of no court with precedent-setting
authority that has held such an ordinance
unconstitutional. But cf. Free the Nipple Fort Collins,
237 F.Supp. 3d at 1133.”1
Rejecting the dissenting justices’ view that
Laconia’s Ordinance against exposure of “the female
breast” obviously classifies on the basis of gender, the
majority opinion explained that “nudity is simply
different for men than for women,” and that “based on
the unique way in which men and women differ with
respect to nudity, we conclude that the ordinance does
not afford different treatment for men and women.”
Pet.App. 16a. The three-justice majority opinion
chided the two dissenting justices for “assum[ing]
that, because the ordinance does not allow men and
women to engage in precisely the same mode of dress,
it must contain a gender-based classification.
Respectfully, we find this approach deceptively
simplistic.” Pet.App. 17a. “For the reasons already
Pet.App. 10a n.2. The Tenth Circuit has, however, since
affirmed the Fort Collins district court opinion. See Free the
Nipple—Fort Collins v. City of Fort Collins, 916 F.3d 792 (10th
Cir. 2019); see infra at 17, 19.
1

10
discussed, we find no gender-based classification in
the ordinance.” Pet.App. 17a.
Having thus rejected contentions that Laconia’s
Ordinance could have violated their equal-protection
rights under its state constitution by classifying on
the basis of gender, the Supreme Court of New
Hampshire majority disposed of Petitioners’ federal
Equal Protection arguments with a footnote stating:
“We reach the same result under the Federal
Constitution as we do under the State Constitution.”
Pet.App. 14a n.3.
Perhaps recognizing that this Court would likely
question its holding that the Laconia Ordinance is
gender-neutral, majority opinion added:
Federal courts applying federal equal protection
analysis have near-uniformly upheld ordinances
similar to Laconia’s even when subjecting them
to intermediate scrutiny. See Tagami [v. City of
Chicago], 875 F.3d [375] at 379-80 [(7th Cir.
2017)]; Ways [v. City of Lincoln], 331 F.3d [596]
at 599-600 [(8th Cir. 2003)]; Buzzetti [v. City of
New York], 140 F.3d [134] at 144 [(2d Cir. 1998)];
[United States v.] Biocic, 928 F.2d [112] at 11516 [(4th Cir. 1991)]; J&B Soc. Club No. 1, [Inc. v.
City of Mobile], 966 F.Supp. [1131] at 1139-40
[(S.D. Ala. 1996)]; Craft [v. Hodel], 683 F.Supp.
[289] at 299-301 [(D.Mass. 1988)]. But see Free
the Nipple Fort Collins, 237 F.Supp. 3d at 1133.
Pet.App. 14a n.3.
The New Hampshire Supreme Court filed its
decision on February 8, 2019. Pet.App. 1a. Petitioners
sought, and Justice Breyer granted on April 19, 2019,
an extension to July 8, 2019, for Petitioners to file

11
this Petition for a Writ of Certiorari. Lilley v. New
Hampshire, No. 18A1074 (April 19, 2019).
REASONS FOR GRANTING THE WRIT
This case presents fundamental constitutional
equal-protection questions, on which federal appellate
circuits and state high courts are in clear and wellentrenched conflict—both on whether a publicindecency ordinance expressly applying different
standards to men and women classifies on the basis of
gender, and on whether such a classification survives
the heightened scrutiny that this Court’s post-1971
decisions mandate for gender-based classifications.
Faced in this case with an Ordinance that on its
face differentiates between men and women by
expressly punishing public exposure of “the female
breast,” the Supreme Court of New Hampshire held
that the Ordinance “does not classify on the basis of
gender.” Pet.App. 11a-12a, 17a. It then held in a
conclusory footnote and string cite of federal lowercourt decisions that the Ordinance survives federal
intermediate scrutiny anyway, though without
troubling itself how or why. Pet.App. 14a n.3.
The majority opinion’s holding that Laconia’s
public-indecency law “does not classify on the basis of
gender,” Pet.App. 11a-12a, conflicts not only with the
Ordinance’s plain text, but also with decisions of the
Seventh and Tenth Circuits holding that similar
regulations obviously do classify on the basis of
gender. Compare Pet.App. 11a-12a (“the Laconia
ordinance does not classify on the basis of gender”),
with Tagami v. Chicago, 875 F.3d 375, 380 (7th Cir.
2017) (“On its face, the ordinance plainly does impose
different rules for women and men. It prohibits public
exposure of ‘the breast at or below the upper edge of
the areola thereof of any female person.’”) and with

12
Free the Nipple—Fort Collins v. City of Fort Collins,
916 F.3d 792 (10th Cir. 2019) (“a public-nudity
ordinance that prescribes one rule for women,
requiring them to cover their breasts below the
areola, and a different rule for men, allowing them to
go topless as they please ... creates a gender
classification on its face”).
The conflict on this point, among federal appellate
circuit courts and state high courts, is both well
developed and entrenched, since the holdings of the
Seventh Circuit in Tagami and the Tenth Circuit in
Fort Collins themselves conflict with decisions of the
Supreme Court of Washington and the Fifth Circuit
which—like the Supreme Court of New Hampshire in
this case—hold that laws punishing only women for
exposure of their breasts do not classify or
discriminate on the basis of gender. Infra 14-18.
The second question on which state high courts and
federal appellate circuits are in conflict is whether
such a classification survives the heightened
“intermediate” scrutiny demanded by this Court’s
currently controlling Equal Protection Clause
decisions. With two conclusory sentences and a string
cite of federal lower-court decisions, New Hampshire’s
Supreme Court holds that Laconia’s Ordinance
survives intermediate scrutiny. Pet.App. 14a n.3. But
beyond the bare string cite, it offers no analysis for its
holding, never acknowledging that this Court’s “case
law evolving since 1971 ‘reveal[s] a strong
presumption that gender classifications are invalid,’”
United States v. Virginia, 518 U.S. 515, 532 (1996)
(quoting J.E.B. v. Alabama ex rel. T. B., 511 U.S. 127,
152 (1994) (Kennedy, J., concurring)).
The federal appellate circuit courts have irreconcilably split on whether ordinances like Laconia’s are

13
constitutional. The New Hampshire Supreme Court’s
decision in this case directly conflicts with the Tenth
Circuit’s Fort Collins decision a week later, which
holds that a similar public-nudity ordinance’s “gender
disparity violates the Equal Protection Clause.” Fort
Collins, 916 F.3d at 806. The Tenth Circuit, moreover,
allows that its own holding conflicts with “a sizeable
majority of other courts,” id. at 800, including both
the New Hampshire Supreme Court’s decision in this
case, see id. at 804 & n.8 (citing this case), and the
Seventh Circuit’s decision in Tagami, 875 F.3d at
379-80. The Tenth Circuit boldly declares: “None of
these decisions binds us, though; nor does their sheer
volume sway our analysis.” Fort Collins, 916 F.3d at
804. For the Tenth Circuit chooses instead to follow
this Court’s precedents applying the Equal Protection
clause: “As we interpret the arc of the Court’s equalprotection jurisprudence, ours is the constitutionally
sound result.” Id. at 805.
The Eighth Circuit swiftly deepened the resulting
conflict by rejecting the Tenth Circuit’s Fort Collins
decision. See Free the Nipple-Springfield Residents
Promoting Equality v. City of Springfield, Missouri,
923 F.3d 508, 510-12 (8th Cir. 2019) (“Springfield”).
The Eighth Circuit’s Springfield decision adheres to
its own prior holding in Ways v. Lincoln, 331 F.3d 596
(8th Cir. 2003), that states may enforce publicindecency statutes outlawing conduct by women that
is wholly lawful when engaged in by men. See
Springfield, 923 F.3d at 510-11 (following Ways).
Legal news media have duly noted the clear conflict.
See, e.g., Debra Cassens Weiss, 8th and 10th Circuits
Split Over Female Topless Ban, ABA JOURNAL May 8,

14
20192; Elura Nanos, Two Federal Courts are Feuding
Over Legalities of Toplessness in “Free the Nipple”
Cases, LAW & CRIME, May 7, 2019.3 This Court should
grant the writ of certiorari in order to resolve this
recent but already well-entrenched conflict. Infra 1821.
This Court’s attention is particularly warranted as
the New Hampshire Supreme Court, Seventh Circuit,
Eighth Circuit, and numerous other courts holding
that states are free to enforce laws punishing only
women for being topless in public, all are wrong on
the merits. The Tenth Circuit’s boldness in
forthrightly rejecting the great weight of authority
sustaining gender-biased public indecency laws is
entirely justified. Gender classifications grounded in
obsolescent norms that sexually objectify and shame
women cannot survive this Court’s heightened
scrutiny. Infra 21-28.
I.

State High Courts and the Federal
Appellate Circuits are in Conflict on
Whether Ordinances Expressly Punishing
Women, But Not Men, for Being Topless in
Public Classify on the Basis of Gender

The Fourteenth Amendment’s Equal Protection
Clause provides: “No State shall ... deny to any person
within its jurisdiction the equal protection of the
laws.” U.S. Const. amend. XIV, §1. Though some
earlier decisions readily sustained gender-based
classifications grounded in traditional attitudes about
2 Online: http://www.abajournal.com/news/article/8th-circuitupholds-female-topless-ban-10th-circuit-ruled-the-other-way

Online: https://lawandcrime.com/high-profile/two-federalcourts-are-feuding-over-legalities-of-toplessness-in-free-thenipple-cases/
3

15
proper gender roles for men and women, “[t]oday,
laws of this kind are subject to review under the
heightened scrutiny that now attends ‘all genderbased classifications.’” Sessions v. Morales-Santana,
137 S.Ct. 1678, 1689 (2017) (quoting J.E.B., 511 U.S.
at 136) (emphasis added). This Court’s post-1971
decisions “reveal[] a strong presumption that gender
classifications are invalid.” Virginia, 518 U.S. at 532
(quoting J.E.B., 511 U.S. at 152 (Kennedy, J.,
concurring)). “Successful defense of legislation that
differentiates on the basis of gender, we have
reiterated, requires an ‘exceedingly persuasive
justification.’” Morales-Santana, 137 S.Ct. at 1690
(quoting Virginia, 518 U.S. at 531 (internal quotation
marks omitted) (quoting Kirchberg v. Feenstra, 450
U.S. 455, 461 (1981) (internal quotation marks
omitted)); accord J.E.B., 511 U.S. at 136.
The decision below acknowledges: “Under federal
equal protection law, pursuant to the Fourteenth
Amendment, a classification based on gender triggers
intermediate scrutiny.” Pet.App. 7a (citing Virginia,
518 U.S. at 532-33). Yet it holds that an ordinance,
expressly punishing women but not men for engaging
in identical conduct, “does not classify on the basis of
gender.” Pet.App. 11a-12a. Although this holding
appears initially in a portion of the majority opinion
sustaining the Ordinance against an equal-protection
challenge under New Hampshire’s state constitution,
the Court concludes in a footnote: “We reach the same
result under the Federal Constitution as we do under
the State Constitution.”4

4 Pet.App. 14a n.3. Likely recognizing the vulnerability of its
holding that the Ordinance does not classify on the basis of
gender, the majority adds that “[f]ederal courts applying federal
equal protection analysis have near-uniformly upheld ordinances

16
The majority opinion’s holding that Laconia’s
Ordinance does not classify on the basis of gender
places it in direct conflict with federal appellate
precedents
that
the
decision
below
itself
acknowledges have “explicitly held that laws which
prohibit women but not men from exposing their
breasts are gender-based and trigger intermediate
scrutiny.” Pet.App. 9a. The majority opinion cites for
example the Seventh Circuit’s decision in Tagami, see
Pet.App. 9a, which considered a similar ordinance
and held: “On its face, the ordinance plainly does
impose different rules for women and men. It
prohibits public exposure of ‘the breast at or below
the upper edge of the areola thereof of any female
person.’” Tagami, 875 F.3d at 380 (citation omitted).
Many federal decisions hold similarly.5 So do many
state-court decisions.6
similar to Laconia’s even when subjecting them to intermediate
scrutiny.” Pet.App. 14a n.3. This, however, presents a second
question on which the federal appellate circuits irreconcilably
conflict. See infra 18-21.
See, e.g., Buzzetti v. New York, 140 F.3d 134, 141-42 (2d Cir.
1998) (a zoning ordinance for adult-entertainment establishments is subject to intermediate scrutiny because it does
“classify female toplessness differently from the exhibition of the
male chest”); Craft v. Hodel, 683 F.Supp. 289, 299 (D. Mass.
1988) (“The Regulation does, of course, distinguish between
males and females and accords a ‘freedom’ to males that it
denies to females.”).
5

6 See, e.g., City of Jackson v. Lakeland Lounge, 688 So.2d 742,
752 (Miss. 1996) (“‘female breasts are a justifiable basis for a
gender-based classification’”) (citation omitted); City of Tucson v.
Wolfe, 185 Ariz. 563, 564, 917 P.2d 706, 707 (Ct. App. 1995)
(“Because this ordinance creates a different standard of conduct
for each gender, to withstand constitutional challenge the city
must show (1) that the ordinance serves an important
governmental objective and (2) that the gender-based

17
One week after the New Hampshire Supreme
Court issued its opinion, moreover, the Tenth Circuit
held in Fort Collins that “a public-nudity ordinance
that prescribes one rule for women, requiring them to
cover their breasts below the areola, and a different
rule for men, allowing them to go topless as they
please ... creates a gender classification on its face.”
Id. at 800. The Tenth Circuit “concluded that this
gender disparity violates the Equal Protection
Clause.” Id. at 806.
Yet Tagami and Fort Collins themselves conflict
with decisions of the Supreme Court of Washington
and the Fifth Circuit which—like the Supreme Court
of New Hampshire in this case—hold that ordinances
punishing only women for exposure of their breasts do
not classify or discriminate on the basis of gender. See
City of Seattle v. Buchanan, 90 Wash.2d 584, 592-93,
584 P.2d 918, 921 (Wash. 1978) (holding that a law
punishing exposure of females’ breasts “does not
classify or discriminate on the basis of sex”); Hang
On, Inc. v. Arlington, 65 F.3d 1248, 1256-57 (5th Cir.
1995) (an ordinance requiring women, but not men, to
cover their areolas, obviously “was not motivated by
gender animus”).
Thus, the conflict on this point, among federal
appellate circuit courts and state high courts, is both
well-developed and entrenched, warranting this
classification is substantially related to the achievement of that
objective.”); State v. Vogt, 341 N.J. Super. 407, 417, 775 A.2d
551, 557 (App. Div. 2001) (ordinance requiring women but not
men to cover their breasts presents a “gender-based distinction”
subject to intermediate scrutiny); People v. David, 152 Misc. 2d
66, 68, 585 N.Y.S.2d 149, 151 (N.Y. County Ct. 1991) (New York
statute prohibiting public exposure of female breasts held an
unconstitutional “gender based classification”).

18
Court’s review to determine whether or not publicindecency laws criminalizing exposure of the female
breast or areola classify on the basis of gender,
making them subject to the heightened scrutiny that
“attends ‘all gender-based classifications.’” MoralesSantana, 137 S.Ct. at 1689 (quoting J.E.B., 511 U.S.
at 136).
II.

State High Courts and the Federal
Appellate Circuits Are in Conflict on
Whether Statutes Punishing Women Alone
for Exposure of their Breasts Can Survive
Heightened Scrutiny

This case presents a further question, on which the
federal appellate circuits and state high courts are in
conflict: Whether an ordinance punishing women, but
not men, for the public exposure of their breasts or
nipples, survives the heightened scrutiny to which
this Court subjects laws that classify on the basis of
gender. The New Hampshire Supreme Court’s
majority opinion follows a string cite of federal
decisions that it says have “near-uniformly upheld
ordinances similar to Laconia’s even when subjecting
them to intermediate scrutiny.”7 But this places the
decision below in direct conflict with the Tenth
Circuit’s Fort Collins decision, which by instead
following “the arc of the Court’s equal-protection
jurisprudence,” itself conflicts irreconcilably with the
law of several other circuits on this point. Fort
Collins, 916 F.3d at 805.

Pet.App. 14a n.3 (favorably citing Tagami, 875 F.3d at 37980; Ways, 331 F.3d at 599-600; Buzzetti, 140 F.3d at 144; Biocic,
928 F.2d at 115-16; J&B Social Club No. 1, 966 F.Supp. at 113940; Craft, 683 F.Supp. at 299-301).
7

19
Over a dissent by Judge Hartz, the Fort Collins
majority sustains a preliminary injunction barring
enforcement of a City of Fort Collins public-indecency
ordinance “‘to the extent that it prohibits women, but
not men, from knowingly exposing their breasts in
public.’” Id. at 795 (citation omitted). The Fort Collins
majority opinion holds that “this gender disparity
violates the Equal Protection Clause.” Id. at 806. And
though past practice was otherwise, “[t]oday,
heightened scrutiny ‘attends “all gender-based
classifications.”’” Id. at 800 (quoting MoralesSantana, 137 S.Ct. at 1689 (quoting J.E.B., 511 U.S.
at 136))).
The Fort Collins majority firmly rejects contentions
“that, ‘in light of differences between male and female
breasts,’ prohibiting only female toplessness is
substantially related to an important governmental
object, as a sizable majority of other courts have
found.” Fort Collins, 916 F.3d at 800. It faithfully
follows this Court’s decisions holding that “laws
grounded in stereotypes about the way women are
serve no important government interest.” Id. at 803
(citing Morales-Santana, 137 S.Ct. at 1692-93 and
Virginia, 518 U.S. at 550). “To the contrary,
legislatively reinforced stereotypes tend to ‘create[] a
self-fulfilling cycle of discrimination.’” Id. (quoting
Nevada Dept. of Human Resources v. Hibbs, 538 U.S.
721, 736 (2003)).
Citing both the decision below in this case and the
Seventh Circuit’s in Tagami as examples of the many
contrary precedents sustaining such laws, the Tenth
Circuit acknowledges: “We recognize that ours is the
minority viewpoint. Most other courts, including a
recent (split) Seventh Circuit panel, have rejected
equal-protection challenges to female-only toplessness
bans.” Fort Collins, 916 F.3d at 805. “None of these

20
decisions binds us, though; nor does their sheer
volume sway our analysis.” Id. Bound instead by this
Court’s equal-protection precedents, the Tenth Circuit
sustains a preliminary injunction, holding that “the
City’s public-nudity ordinance inflicts irreparable
harm by violating the Plaintiff’s right to equal
protection under the law.” Id. at 805-06. Such an
ordinance “deprives [women] of a constitutional right,
while the City has no interest in keeping an unconstitutional law on the books.” Id. at 806.
State-court opinions reaching the same conclusion
as the Tenth Circuit in Fort Collins can be found in
People v. Santorelli, 80 N.Y.2d 875, 877-83, 587
N.Y.S.2d 601, 600 N.E.2d 232, 877-83 (1992) (Titone,
J., joined by Simons, J., concurring), and People v.
David, 152 Misc. 2d 66, 67-68, 585 N.Y.S.2d 149, 151
(N.Y. County Ct. 1991) (holding a “state statute which
prohibits a female person from appearing at a public
place with her breasts unclothed violates the equal
protection clauses of the U.S. and N.Y.S.
Constitutions”).
Nonetheless, the Tenth Circuit’s decision in Fort
Collins directly conflicts with federal appellate
decisions, which it explicitly rejects, and the Eighth
Circuit has aggravated that conflict by refusing to
follow Fort Collins, emphasizing in Springfield that a
“majority of courts considering equal protection
challenges have upheld similar laws prohibiting
women, but not men, from exposing their breasts.”
Springfield, 923 F.3d at 509 (8th Cir. 2019). The
Springfield panel would not budge from prior Eighth
Circuit precedent, which “upheld an ordinance
prohibiting ‘the showing of the female breast with less
than a fully opaque covering on any part of the areola
and nipple’ against an equal protection challenge.” Id.
at 510 (quoting Ways, 331 F.3d at 599).

21
Thus, state and federal courts are in clear and
irreconcilable conflict on whether a public-nudity
ordinance requiring women, but not men, to cover
their breasts can survive the strong presumption of
invalidity mandated by this Court’s Equal Protection
Clause precedents. The conflict is entrenched,
moreover, with the Tenth Circuit’s Fort Collins
decision citing and rejecting both the majority opinion
in this case and the decisions of several other circuits,
see Fort Collins, 916 F.3d at 805 & n.8, while the
Eighth Circuit’s Springfield opinion acknowledges but
refuses to follow Fort Collins. See Springfield, 923
F.3d at 510.
This Court’s review clearly is needed to resolve this
relatively recent but already deeply entrenched
conflict.
III.

The Decision Below is Wrong on the
Merits

The need for this Court’s review in this case is
particularly urgent as the Tenth Circuit’s Fort Collins
decision comports with this Court’s equal-protection
precedents, while the New Hampshire Supreme
Court’s decision below, and the many other decisions
sustaining such statutes (including the Seventh
Circuit’s in Tagami and the Eighth Circuit’s in
Springfield), clearly do not. When the Fort Collins
City Council voted on May 21, 2019, to forego seeking
this Court’s review of the Tenth Circuit’s Fort Collins
decision, Councilwoman Emily Gorgal explained: “It’s
really an equality issue for sex and gender, and
(ending the ban) is the right thing to do.”8
8 Nick Coltrain, Fort Collins Won’t Pursue Ban on Public
Toplessness to U.S. Supreme Court, THE COLORADOAN, May 21,
2019
(quoting
Councilwoman
Emily
Gorgal)

22
Though the New Hampshire Supreme Court’s
majority opinion denies it, ordinances outlawing
exposure of “the female breast” plainly classify on the
basis of gender. Several federal appellate decisions
quite correctly hold that they do. See Fort Collins,
916, F.3d at 792; Tagami, 875 F.3d at 380; Buzzetti,
140 F.3d 141-42. The Supreme Court of New
Hampshire, the Supreme Court of Washington, and
Fifth Circuit, are plainly mistaken in holding
otherwise. See Pet.App. 11a-12a; Buchanan, 584 P.2d
at 922; Hang On, 65 F.3d at 1256-57.
The Tenth Circuit’s Fort Collins decision, moreover,
faithfully hews to this Court’s precedents by holding
that “this gender disparity violates the Equal
Protection Clause.” Fort Collins, 916 F.3d at 806.
Whatever their status in the past, “[t]oday, laws of
this kind are subject to review under the heightened
scrutiny that now attends ‘all gender-based
classifications.’” Morales-Santana, 137 S.Ct. at 1689
(quoting J.E.B., 511 U.S. at 136). “The defender of
legislation that differentiates on the basis of gender
must show ‘at least that the [challenged]
classification
serves
important
governmental
objectives and that the discriminatory means
employed are substantially related to the
achievement of those objectives.’” Id. (quoting
Virginia, 518 U.S. at 533 (quoting Mississippi
University for Women v. Hogan, 458 U.S. 718, 724
(1982))).
Thus, this Court’s “case law evolving since 1971
‘reveal[s] a strong presumption that gender
classifications are invalid.’” Virginia, 518 U.S. at 532
(quoting J.E.B.., 511 U.S. at 152 (Kennedy, J.,
https://www.coloradoan.com/story/news/2019/05/21/free-nipplevictory-over-fort-collins-wont-go-u-s-supreme-court/3764097002/

23
concurring)). Litigants “seeking to uphold a statute
that classifies individuals on the basis of their gender
must carry the burden of showing an ‘exceedingly
persuasive justification’ for the classification.” Hogan,
458 U.S. at 725 (quoting Kirchberg, 450 U.S. at 461).
Fort Collins correctly applies these principles to
hold that an ordinance criminalizing exposure of the
female breast is presumptively invalid, while the
Supreme Court of New Hampshire’s majority opinion
below neither recognizes the mandated “strong
presumption” that the Laconia Ordinance is invalid,
Virginia, 518 U.S. at 532, nor puts the State to its
“burden of showing an ‘exceedingly persuasive
justification’” to overcome the strong presumption of
invalidity. Hogan, 458 U.S. at 461. Most decisions,
sustaining such ordinances against federal equalprotection challenges—including the Eighth Circuit’s
decisions in Springfield and Ways and the Seventh
Circuit majority in Tagami—likewise fail to mention
this Court’s “strong presumption” of invalidity or the
proponents’ burden of presenting an “exceedingly
persuasive justification.”9 In Tagami, for example,
only Judge Rovner’s dissenting opinion acknowledges
that the Chicago ordinance’s “differential treatment
must be grounded in an ‘exceedingly persuasive
justification.’” Tagami, 875 F.3d at 382-83 (Rovner,
Cir. J., dissenting) (quoting Morales-Santana, 137
S.Ct. at 1690 (2017) (quoting Virginia, 518 U.S. at
524).
See Springfield, 923 F.3d at 510-12; Ways, 331 F.3d at 599600; Tagami, 875 F.3d at 379-80; see also, e.g., SDJ, Inc. v. City
of Houston, 837 F.2d 1268, 1279-80 (5th Cir. 1988); Tolbert v.
city of Memphis, 568 F.Supp. 1285, 1290 (W.D. Tenn. 1983); City
of Tucson v. Wolfe, 185 Ariz. 563, 564, 917 P.2d 706, 707 (Ct.
App. 1995).
9

24
The Fort Collins majority correctly concludes that
statutes punishing women, but not men, for being
topless in public cannot meet this standard. Fort
Collins, 916 F.3d at 798-807. As a matter of fact,
Judge Hartz’s dissenting opinion in Fort Collins
concedes that this is so—inducing him instead to
reject this Court’s controlling standard and call for
rational-basis review, so that discriminatory laws
might survive. See Fort Collins, 916 F.3d at 808-09,
811-12, 814 (Hartz, Cir. J., dissenting). Because
public-indecency ordinances punishing women but not
men for exposure of their breasts or areolas cannot
survive this Court’s heightened scrutiny for gender
classifications, Judge Hartz urges in dissent that “the
rationales supporting heightened scrutiny of gender
discrimination have no purchase in the context of
indecency laws,” and that “[t]he proper standard of
review is the rational basis standard generally
applied to economic and social regulation.” Id. at 809
(Hartz, Cir. J., dissenting). If, “[u]nder heightened
scrutiny, a distinction between the genders can be
justified only by ‘exceedingly persuasive evidence,’” as
this Court holds, “it is hard to see how any such law
could be upheld.” Id. at 813-14 (Hartz, Cir. J.,
dissenting) (quoting Morales-Santana, 137 S.Ct. at
1690).
Nonetheless, Judge Hartz continues, “a number of
courts, almost all that have considered the issue, have
upheld against equal-protection challenges various
indecency laws prohibiting women from exposing
their breasts on the ground that they survive
heightened scrutiny.” Id. at 814 (Hartz, Cir. J.,
dissenting). Yet, like the decision below in this case,
they do not really apply this Court’s controlling equalprotection standard for gender classifications:
“Because of the difficulty of obtaining proof of the

25
effects of indecency, I question whether the evidence
supporting the laws provides ‘an exceedingly
persuasive justification’ for them.” Id. at 814 (Hartz,
Cir. J., dissenting). Rejecting this Court’s generally
controlling equal-protection standard “because the
Fort Collins ordinance should be subjected only to
rational-basis review,” Judge Hartz would have
sustained the Fort Collins ordinance. Id. at 814
(Hartz, Cir. J., dissenting).
Yet this Court’s decisions unequivocally hold that
“heightened scrutiny ... now attends ‘all gender-based
classifications.’” Morales-Santana, 137 S.Ct. 1689
(quoting J.E.B., 511 U.S. at 136 (emphasis added).
Judge Hartz is correct in recognizing discriminatory
ordinances like Laconia’s cannot meet that test.
The Laconia Ordinance’s invalidity is made all the
clearer by the Supreme Court of New Hampshire’s
reliance on its prefatory finding, that “‘[t]he conduct
prohibited ... is deemed to be contrary to the societal
interest in order and morality.’” Pet.App. 13a (quoting
Laconia, N.H., Code of Ordinances ch. 180, art. I,
§180-1). Some federal courts, it notes, “have found
these to be important or substantial interests under
intermediate scrutiny, let alone legitimate ones under
rational basis review.” Pet.App. 13a. A divided
Seventh Circuit panel held in Tagami, for example,
that “promoting traditional moral norms and public
order” is “important enough to survive [intermediate]
scrutiny.” 875 F.3d at 379; accord, e.g., Biocic, 928
F.2d at 115-16.
Yet this Court holds otherwise—that long-standing
gendered norms of morality no longer can sustain
laws that classify on the basis of gender. Rather, this
Court holds, “the classification must substantially
serve an important governmental interest today, for

26
‘in interpreting the [e]qual [p]rotection [guarantee],
[we have] recognized that new insights and societal
understandings can reveal unjustified inequality ...
that once passed unnoticed and unchallenged.’”
Morales-Santana, 137 S.Ct. at 1690 (Court’s brackets;
emphasis added) (quoting Obergefell v. Hodges, 135
S.Ct. 2584, 2603 (2015)). “Care must be taken in
ascertaining whether the statutory objective itself
reflects archaic and stereotypic notions.” Hogan, 458
U.S. at 725. Statutes ostensibly based on “reasonable
considerations” may actually (and impermissibly)
reflect “archaic and overbroad generalizations about
gender.” J.E.B., 511 U.S. at 135 (quoting Schlesinger
v. Ballard, 419 U.S. 498, 508 (1975)).
Laconia’s Ordinance regulating women’s dress by
proscribing exposure of their breasts clearly is
grounded in such archaic, overbroad, and obsolescent
notions about gender. New England’s earliest local
ordinances punishing women for going topless date to
the mid-1600s, when Puritans imposed their
gendered norms of proper dress on the Christianized
indigenous population of “praying Indians.” In the
“Praying Towns” of Massachusetts and Connecticut
Christianized Nipmuc Indians were expected to
“renounce their native language, ceremonies, beliefs,
traditional dress and customs.”10 Ordinances
established for these communities set fines for
violating the Puritans’ gendered norms, including:
5. If any woman shall not have her haire tied
up, but hang loose, or be cut as mens haire, she
shall pay five shillings.

The “Praying Towns,” Nipmuc Indian Association of
Connecticut, Historical Series, No. 2 (2d ed. 1995),
http://www.nativetech.org/Nipmuc/praytown.html
10

27
6. If any woman shall goe with naked breasts,
they shall pay two shillings.
7. All men that shall weare long locks, shall
pay five shillings.11
Whatever their status in past centuries, such
gendered norms of dress cannot survive the
heightened scrutiny to which this Court now subjects
all laws classifying on the basis of gender. Today
there is nothing obscene, immoral, or disruptive about
female breasts and nipples—as should be clear from
the fact that even in the State of New Hampshire,
women are free to expose their breasts when
breastfeeding infants in public: “Breast-feeding a
child does not constitute an act of indecent exposure
and to restrict or limit the right of a mother to breastfeed her child is discriminatory.” N.H. RSA 132:10-d
provides. Whether they are lactating or not, women’s
breasts no longer can sensibly be deemed lewd or
indecent or obscene. No important governmental
interest exists today that compels their compulsory
concealment.

The Day-Breaking, If Not the Sun-Rising of the Gospell with
the Indians in New-England (originally London: Richard Cotes
for Fulk Clifton, 1647), reprinted with original spellings in 4
Collections of the Massachusetts Historical Society: Tracts
Relating to the Attempts to Convert to Christianity the Indians of
New England 1, 20 (Cambridge, Mass.: Charles Folsom, 1834);
and in The Eliot Tracts 79, 98 (Michael P. Clark, ed.; Westport,
Connecticut & London: Praeger, 2003); see Laws of the Praying
Town Indians, in Documents of Native American Political
Development: 1500s to 1933, at 39 (David E. Wilkins, ed.; Oxford
& New York: Oxford University Press, 2009) (excerpted with
modernized spellings); Lisa Krissoff Boehm & Steven Hunt
Corey, America’s Urban History 34 (New York & London:
Routledge, 2015) (same).
11

28
Applying this Court’s precedents, classifications no
longer can be defended on the basis of their
“provenance in traditional notions of the way women
and men are.” Morales-Santana, 137 S.Ct. at 1694.
For as this Court has “repeatedly emphasized,
discrimination itself ... perpetuat[es] “archaic and
stereotypic notions”’ incompatible with the equal
treatment guaranteed by the Constitution.” MoralesSantana, 137 S.Ct. at 1698 (quoting Heckler v.
Mathews, 465 U.S. 728, 739 (1984) (quoting Hogan,
458 U.S. at 725)). Citing Morales-Santana, Judge
Rovner’s Tagami dissent soundly concludes that
“[a]ny invocation of tradition and moral values in
support of a law that facially discriminates among
classes of people calls for a healthy dose of skepticism
on our part, as historical norms are as likely to reflect
longstanding biases as they are reasonable
distinctions.” Tagami, 875 F.3d at 383 (Rovner, Cir.
J., dissenting).
The decision below is wrong, and this Court’s
review is needed to correct it.
CONCLUSION
This Court’s review is needed to resolve deeply
entrenched conflicts between and among the federal
circuits and state high courts on the validity, under
this Court’s current Equal Protection Clause
precedents, of public-indecency ordinances that
criminalize being topless and female based on
outdated norms.
DATED: July 8, 2019

Respectfully submitted,
LAW OFFICE OF
ERIC ALAN ISAACSON

29
ERIC ALAN ISAACSON
(Counsel of Record)
ericalanisaacson@icloud.com
6580 Avenida Mirola
La Jolla, CA 92037-6231
Telephone: (858)263-9581
LIBERTY LEGAL SERVICES PLLC
DAN HYNES
212 Coolidge Avenue
Manchester, NH 03101
Telephone: (603) 583-4444
Counsel for Petitioners

APPENDIX

APPENDIX A
THE SUPREME COURT OF NEW HAMPSHIRE
____________________________________
4th Circuit Court-Laconia District Division
No. 2017-0116
THE STATE OF NEW HAMPSHIRE
v.
HEIDI C. LILLEY
THE STATE OF NEW HAMPSHIRE
v.
KIA SINCLAIR
THE STATE OF NEW HAMPSHIRE
v.
GINGER M. PIERRO
Argued: February 1, 2018
Opinion Issued: February 8, 2019
Gordon J. MacDonald, attorney general (Susan P.
McGinnis, senior assistant attorney general, on the
brief and orally), for the State.
Liberty Legal Services, of Manchester (Dan Hynes
on the brief and orally), for the defendants.
American Civil Liberties Union of New Hampshire,
of Concord (Gilles R. Bissonnette on the brief), as
amicus curiae.

2a
HANTZ MARCONI, J. The defendants, Heidi
Lilley, Kia Sinclair, and Ginger Pierro, appeal a
ruling of the Circuit Court (Carroll, J.) that they
violated a City of Laconia ordinance prohibiting them
from appearing in a state of nudity in a public place.
See Laconia, N.H., Code of Ordinances ch. 180, art. I,
§180-2 (1998). We affirm.
I.

Background

The following facts are drawn from the trial court’s
order on the defendants’ motion to dismiss or are
otherwise supported by the record. On May 28, 2016,
Pierro went to Endicott Park Beach in Laconia. At the
hearing on the defendants’ motion to dismiss, Pierro
testified that she “was topless” and was there “to
enjoy the beach.” She agreed with defense counsel
that she was “performing yoga on the beach.” She
stated that she “was violently harassed” by “[s]everal
citizens,” but that “out of everybody on the beach,
there were only actually a handful that were upset.”
Sergeant Black of the Laconia Police Department
testified that, on that same day, he and Officer
Callanan responded to the beach because the
department had “received several calls about a female
... doing nude yoga.” Callanan testified that they
approached a woman, later identified as Pierro, who
was “not wearing any shirt and her breasts, as well as
her nipples, were both exposed.” Callanan stated that
she “made attempts to speak to” Pierro, but that
Pierro “continued to do her yoga poses.” She explained
that “after about a minute or so, [Pierro] looked up
and acknowledged that we were, in fact, trying to
speak to her.” She testified that they “explained to
[Pierro] that the reason [they] were making contact
with her was in reference to a Laconia City

3a
Ordinance, since her nipples were exposed on the
beach in a public place.” Callanan stated that they
asked Pierro “multiple times to cover up, to put her
bathing suit top back on, or put her shirt back on,”
but that Pierro “refused.”
Callanan testified that Pierro was arrested for
violating Laconia City Ordinance §180-2 (the
ordinance), which states, in relevant part, that “it
shall be unlawful for any person to knowingly or
intentionally, in a public place: ... [a]ppear in a state
of nudity.” “Nudity” is defined as “[t]he showing of the
human male or female genitals, pubic area or
buttocks with less than a fully opaque covering, or the
showing of the female breast with less than a fully
opaque covering of any part of the nipple.” Laconia,
N.H., Code of Ordinances ch. 180, art. I, §180-4
(1998).
In 2015, Sinclair became involved in the “Free the
Nipple” movement. Sinclair testified that she was one
of the people who “started” the movement in New
Hampshire after having her son and realizing “that
there was a very big stigma on breastfeeding.” She
explained that she believed that breasts, specifically
nipples, are “hypersexualize[d]” and “consider[ed]
pornographic and taboo,” which she stated results “in
that stigma” and “contributes to the low breastfeeding
rates that the United States has compared to the rest
of the world.” Sinclair told Lilley about the
movement, which Lilley then joined. Lilley testified
that she is “a feminist” and joined the movement
because she “believe[s] in the equality of the male and
female.”
On May 31, 2016, Sinclair and Lilley went topless
to Weirs Beach in Laconia. While at the beach, they

4a
were arrested for violating the ordinance. Sinclair
testified that she “purposely engaged in civil
disobedience knowing that the City of Laconia has an
ordinance against the exposure of the female nipple
and areola.” She stated that she was “protesting
[Pierro’s] case where she had been arrested a few
days prior.” Lilley testified that she was also
protesting Pierro’s arrest and that she “announced to
the arresting police officer that [she] was acting in a
protest and that [she] did not believe that [she] could
be arrested for protesting.” She further agreed with
the prosecutor that, on that day, she “chose to take it
upon [herself] to violate the ordinance to give
attention to [her] cause.”
The defendants jointly moved to dismiss the
charges against them. They argued that the
ordinance violates the guarantee of equal protection
and their right to free speech under the State and
Federal Constitutions. They further contended that
the City of Laconia lacked the authority to enact the
ordinance and that the ordinance was preempted by
RSA 645:1 (2016). Finally, the defendants maintained
that the ordinance violates RSA chapter 354-A. See
RSA ch. 354-A (2009 & Supp. 2017) (amended 2018).
The State objected. Following a hearing, the court
denied
the
defendants’
motion.
The
court
subsequently found the defendants guilty of violating
the ordinance. This appeal followed.
On appeal, the defendants argue that the trial
court erred by denying their motion to dismiss
because the ordinance: (1) violates their right to equal
protection under the State and Federal Constitutions;
(2) violates their rights to free speech and expression
under the State and Federal Constitutions; (3) does
not fall within the regulatory authority granted to the

5a
City of Laconia by the legislature; (4) is preempted by
RSA 645:1; and (5) violates RSA chapter 354-A. We
will address each of the defendants’ arguments in
turn.
II.

Equal Protection

The defendants first argue that the ordinance
violates their right to equal protection under Part I,
Article 2 of the New Hampshire Constitution and the
Fourteenth Amendment to the United States
Constitution. See N.H. CONST. pt. I, art. 2; U.S.
CONST. amend. XIV. We review the constitutionality
of local ordinances de novo. McKenzie v. Town of
Eaton Zoning Bd. of Adjustment, 154 N.H. 773, 777
(2007). We first address the defendants’ arguments
under the State Constitution and cite federal opinions
for guidance only. State v. Ball, 124 N.H. 226, 231-33
(1983).
We begin by addressing the scope of the defendants’
challenge to the ordinance. An appellant may
challenge the constitutionality of a statute or an
ordinance1 by asserting a facial challenge, an asapplied challenge, or both. See State v. Hollenbeck,
164 N.H. 154, 158 (2012). A facial challenge is a headon attack of a legislative judgment, an assertion that
the challenged statute violates the Constitution in all,
or virtually all, of its applications. Id. To prevail on a
facial challenge, the challenger must establish that no
set of circumstances exist under which the challenged
statute or ordinance would be valid. Id. On the other
hand, an as-applied challenge concedes that the
1 No party asserts that, for the purposes of considering their
constitutional arguments, it makes any difference that we are
dealing with an ordinance rather than a statute.

6a
statute may be constitutional in many of its applications, but contends that it is not so under the
particular circumstances of the case. Id.
Here, the defendants do not concede that the
relevant portion of the ordinance is constitutional in
any circumstance. They argue that “the ordinance
makes a gender-based classification on its face.” We
construe their claim to be a facial challenge to the
portion of the ordinance that prohibits “the showing
of the female breast with less than a fully opaque
covering of any part of the nipple” in a public place.
See Laconia, N.H., Code of Ordinances ch. 180, art. I,
§§180-2, 180-4. Thus, the defendants must
demonstrate that there is no set of circumstances
under which this ordinance might be valid. See
Hollenbeck, 164 N.H. at 158.
Next, we must determine the appropriate standard
of review to apply to the ordinance. In re Sandra H.,
150 N.H. 634, 637 (2004). We do this by examining
the purpose and scope of the State-created
classification and the individual rights affected. Id.
Classifications based upon suspect classes are subject
to strict scrutiny: the government must show that the
legislation is necessary to achieve a compelling
government interest and is narrowly tailored. Cmty.
Res. for Justice v. City of Manchester, 154 N.H. 748,
759 (2007). Classifications which affect a fundamental
right may be subject to strict scrutiny depending on
the nature of the right and the manner in which it is
affected. See Estate of Cargill v. City of Rochester,
119 N.H. 661, 667 (1979); see also Bleiler v. Chief,
Dover Police Dep’t, 155 N.H. 693, 697-98 (2007);
Lamarche v. McCarthy, 158 N.H. 197, 204 (2008).
Below strict scrutiny is intermediate scrutiny, which
is triggered when the challenged classification

7a
involves important substantive rights, Sandra H., 150
N.H. at 637-38, and which requires the government to
show that the challenged legislation is substantially
related to an important government interest. Cmty.
Res., 154 N.H. at 762. Finally, absent a classification
based upon suspect classes, affecting fundamental
rights, or involving important substantive rights, the
constitutional standard of review is that of
rationality. Sandra H., 150 N.H. at 638; cf. Gonya v.
Comm’r, N.H. Ins. Dept., 153 N.H. 521, 532-33 (2006).
Our rational basis test requires that legislation be
rationally related to a legitimate government interest.
Boulders at Strafford v. Town of Strafford, 153 N.H.
633, 639 (2006). Under this test, the party
challenging the statute or ordinance must show that
whatever classification is promulgated is arbitrary or
without some reasonable justification. Id. at 640.
The defendants argue that the ordinance
discriminates on the basis of gender and/or sex; thus,
strict scrutiny is the appropriate standard of review.
The State counters that the ordinance only
distinguishes between men and women on the basis of
their different physical characteristics; thus, the
rational basis test applies.
Under federal equal protection law, pursuant to the
Fourteenth Amendment, a classification based on
gender triggers intermediate scrutiny. United States
v. Virginia, 518 U.S. 515, 532-33 (1996). Part I,
Article 2 of the New Hampshire Constitution states,
however, “Equality of rights under the law shall not
be denied or abridged by this state on account of race,
creed, color, sex or national origin.” N.H. CONST. pt.
I, art. 2. Thus, under the New Hampshire
Constitution, gender is a suspect class and
classifications based thereon trigger strict scrutiny.

8a
See Cheshire Medical Center v. Holbrook, 140 N.H.
187, 189 (1995); see also LeClair v. LeClair, 137 N.H.
213, 222 (1993) (“We apply the strict scrutiny test ...
when the classification involves a suspect class based
on race, creed, color, gender, national origin, or
legitimacy....” (quotation omitted)) (superseded by
statute on other grounds). In Holbrook, we applied
strict scrutiny to the common law doctrine of
necessaries, which made husbands legally liable for
essential goods or services provided to their wives by
third parties. Holbrook, 140 N.H. at 189-90. We
concluded that there was no compelling justification
for the gender bias embodied in the traditional
necessaries doctrine. Id. at 189. However, Holbrook
did not address the type of legislation that is at issue
here: a proscription that imposes requirements on
both men and women, but applies to women
somewhat differently. Thus, Holbrook, the only case
in which we have applied strict scrutiny to a genderbased classification, does not necessarily establish
that the Laconia ordinance triggers strict scrutiny.
Courts in other jurisdictions have generally upheld
laws that prohibit women but not men from exposing
their breasts against equal protection challenges. See
generally Kimberly J. Winbush, Annotation,
Regulation of Exposure of Female, but not Male,
Breasts, 67 A.L.R.5th 431 (1999) (collecting cases).
But see Free the Nipple Fort Collins v. City of Fort
Collins, Colorado, 237 F. Supp. 3d 1126, 1133 (D.
Colo. 2017) (concluding that equal protection
challenge to ordinance prohibiting women but not
men from exposing their breasts was likely to succeed
on the merits). In so doing, however, they have often
left unclear the applicable standard of review. See
Tolbert v. City of Memphis, Tenn., 568 F. Supp. 1285,

9a
1290 (W.D. Tenn. 1983); City of Jackson v. Lakeland
Lounge, 688 So. 2d 742, 751-52 (Miss. 1996); State v.
Turner, 382 N.W.2d 252, 255-56 (Minn. Ct. App.
1986); Free the Nipple–Springfield Residents
Promoting Equality v. City of Springfield, Missouri,
No. 15-3467-CV-S-BP, 2017 WL 6815041, at *2-3
(W.D. Mo. Oct. 4, 2017). Some courts have assumed
without deciding that such laws are gender-based and
thus trigger intermediate scrutiny under the Federal
Constitution, and then upheld them on the grounds
that the heightened requirements of intermediate
scrutiny were satisfied. See Ways v. City of Lincoln,
331 F.3d 596, 600 (8th Cir. 2003); United States v.
Biocic, 928 F.2d 112, 115 (4th Cir. 1991); J & B Soc.
Club No. 1, Inc. v. City of Mobile, 966 F. Supp. 1131,
1139 (S.D. Ala. 1996). Others have explicitly held that
laws which prohibit women but not men from
exposing their breasts are gender-based and trigger
intermediate scrutiny either under federal equal
protection law or an analogous state constitutional
provision. See Tagami v. City of Chicago, 875 F.3d
375, 380 (7th Cir. 2017), cert. denied, 138 S. Ct. 1577
(2018) (Federal Constitution); Buzzetti v. City of New
York, 140 F.3d 134, 141-42 (2d Cir. 1998) (Federal
Constitution); Craft v. Hodel, 683 F. Supp. 289, 299
(D. Mass. 1988) (Federal Constitution); City of Tucson
v. Wolfe, 917 P.2d 706, 707 (Ariz. Ct. App. 1995)
(state constitution); Dydyn v. Department of Liquor
Control, 531 A.2d 170, 175 (Conn. App. Ct. 1987)
(state constitution). Still others appear to have
concluded that such laws do not trigger any form of
heightened constitutional review. See Schleuter v.
City of Fort Worth, 947 S.W.2d 920, 925-26 (Tex. App.
1997) (state constitution); City of Seattle v.
Buchanan, 584 P.2d 918, 920-22 (Wash. 1978) (en
banc) (state constitution); Eckl v. Davis, 124 Cal.

10a
Rptr. 685, 695-96 (Ct. App. 1975); see also Hang On,
Inc. v. City of Arlington, 65 F.3d 1248, 1256-57 (5th
Cir. 1995).
Among states, like New Hampshire, that define
gender as a suspect class under their respective state
constitutions, we are aware of none that apply strict
scrutiny to ordinances similar to Laconia’s.2 See
Buchanan, 584 P.2d at 921; City of Albuquerque v.
Sachs, 92 P.3d 24, 27, 29 (N.M. Ct. App. 2004).
Compare Williams v. City of Fort Worth, 782 S.W.2d
290, 296 (Tex. App. 1989) (recognizing that sex is a
suspect class under Texas Constitution), with
Schleuter, 947 S.W.2d at 925-26 (applying no
heightened scrutiny to ordinance that restricted
locations of businesses featuring female topless
dancers).
In Buchanan, for example, the Washington
Supreme Court held that an ordinance which
prohibited both men and women from being nude in
public, but defined nudity for women to include
exposure of the breast, “d[id] not ... impose unequal
responsibilities on women” because the ordinance
“applie[d] alike to men and women, requiring both to
cover those parts of their bodies which are intimately
associated with the procreation function.” Buchanan,
584 P.2d at 921. The court noted, “It is true that [the
ordinance] requires the draping of more parts of the
female body than of the male, but only because there
are more parts of the female body intimately
associated with the procreative function. The fact that
2 Relatedly, we are aware of no court with precedent-setting
authority that has held such an ordinance unconstitutional. But
cf. Free the Nipple Fort Collins, 237 F. Supp. 3d at 1133.

11a
the ordinance takes account of this fact does not
render it discriminatory.” Id. at 922. Thus the
ordinance did not “classify ... on the basis of sex.” Id.
at 921.
The Eckl court reasoned similarly:
Nature, not the legislative body, created the
distinction between that portion of a woman’s
body and that of a man’s torso. Unlike the
situation with respect to men, nudity in the case
of women is commonly understood to include the
uncovering of the breasts. Consequently, in
proscribing nudity on the part of women it was
necessary to include express reference to that
area of the body. The classification is reasonable,
not arbitrary, and rests upon a ground of
difference having a fair and substantial relation
to the object of the legislation, so that all persons
similarly circumstanced are treated alike.
Eckl, 124 Cal. Rptr. at 696.
While Washington and California appear to
address these considerations in the threshold analysis
of the applicable standard of review, other courts that
apply intermediate scrutiny to these types of laws
have upheld them based on similar reasoning. See,
e.g., Craft, 683 F. Supp. at 300 (quoting Eckl); see
also Michael M. v. Sonoma County Superior Court,
450 U.S. 464, 468-69 (1981) (plurality opinion)
(“[T]his court has consistently upheld statutes where
the gender classification ... realistically reflects the
fact that the sexes are not similarly situated in
certain circumstances.”).
We conclude that the Laconia ordinance does not
classify on the basis of gender. The ordinance

12a
prohibits both men and women from being nude in a
public place. See Laconia, N.H., Code of Ordinances
ch.180, art. 1, §§180-2, 180-4. “[T]he ordinance here
does not prevent exposure by one sex only.”
Buchanan, 584 P.2d at 922. That the ordinance
defines nudity to include exposure of the female but
not male breast does not mean that it classifies based
upon a suspect class. See id.; Gonya, 153 N.H. at 532.
“Unlike the situation with respect to men, nudity in
the case of women is commonly understood to include
the uncovering of the breasts.” Eckl, 124 Cal. Rptr. at
696. The ordinance merely reflects the fact that men
and women are not fungible with respect to the
traditional understanding of what constitutes nudity.
See id.; Sachs, 92 P.3d at 29; see also Biocic, 928 F.2d
at 115-16 (noting that female breasts have
traditionally been regarded by society as an
erogenous zone); Buzzetti, 140 F.3d at 143 (noting
that, unlike the male breast, “public exposure of the
female breast is rare under the conventions of our
society, and almost invariably conveys sexual
overtones”); cf. Virginia, 518 U.S. at 533 (“The two
sexes are not fungible; a community made up
exclusively of one sex is different from a community
composed of both.” (quotation and brackets omitted)).
Nor do we find that the ordinance affects a
fundamental right. See Eckl, 124 Cal. Rptr. at 695.
Although freedom of speech is a fundamental right,
see McGraw v. Exeter Region Coop. Sch. Dist., 145
N.H. 709, 713 (2001), “[b]eing in a state of nudity is
not an inherently expressive condition,” Erie v. Pap’s
A.M., 529 U.S. 277, 289 (2000). Even assuming
without deciding that the defendants’ nudity in this
case was expressive, not every restriction of a right
classified as fundamental incurs strict scrutiny.

13a
Bleiler, 155 N.H. at 697-98. For limitations upon a
fundamental right to be subject to strict scrutiny,
there must be an actual deprivation of the right.
Lamarche, 158 N.H. at 204; see also Estate of Cargill,
119 N.H. at 667. For the reasons discussed in Part III,
infra, there was no such deprivation here. Similarly,
intermediate scrutiny does not apply because the
ordinance does not involve an important substantive
right. Cf. LeClair, 137 N.H. at 222-23. Hence, rational
basis is the appropriate standard of review for this
ordinance.
Applying the standard, we have little trouble
concluding that the defendants have not carried the
heavy burden of mounting a successful facial attack
to an ordinance analyzed only for rationality. The
stated purpose of the ordinance is to uphold and
support “public health, public safety, morals and
public order.” Laconia, N.H., Code of Ordinances ch.
180, art. I, §180-1 (1998). Under the terms of the
ordinance, “[t]he conduct prohibited ... is deemed to be
contrary to the societal interest in order and
morality.” Id. Federal courts have found these to be
important or substantial interests under intermediate
scrutiny, let alone legitimate ones under rational
basis review. See Tagami, 875 F.3d at 379-80 (finding
the purposes of “promoting traditional moral norms
and public order” to be “important enough to survive
[intermediate] scrutiny”); Biocic, 928 F.2d at 115-16
(finding “important” the “government interest ... [in]
protecting the moral sensibilities of that substantial
segment of society that still does not want to be
exposed” to parts of the body “that traditionally in
this society have been regarded as erogenous zones”);
Craft, 683 F. Supp. at 299-300 (finding a sufficient
state interest in “protect[ing] the public from

14a
invasions of its sensibilities”); see also Barnes v. Glen
Theatre, Inc., 501 U.S. 560, 569 (1991). We likewise
conclude that they are legitimate government
interests. “The traditional police power of the States
is defined as the authority to provide for the public
health, safety, and morals.” Barnes, 501 U.S. at 569.
Furthermore, the ordinance is rationally related to
advancing those interests. See id. at 571-72; Craft,
683 F. Supp. at 300-01. For these reasons, we hold
that the ordinance does not violate Part I, Article 2 of
the New Hampshire Constitution.3
The dissent faults us for seeking guidance from
other courts in ascertaining whether Laconia’s
ordinance classifies based on gender. However, as
demonstrated by the lack of any meaningful
discussion of our precedent in the dissent, we have
little in the way of help from our own cases in
answering this question. Although we applied strict
scrutiny to a gender-based classification in Holbrook,
see Holbrook, 140 N.H. at 189-90, as already
discussed, the law at issue in Holbrook did not impose
requirements on both men and women. The dissent
identifies no other instance, nor are we aware of any,
in which we have concluded that a law challenged on
equal protection grounds contained a gender-based
classification and therefore was subject to strict
3 We reach the same result under the Federal Constitution as
we do under the State Constitution. Federal courts applying
federal equal protection analysis have near-uniformly upheld
ordinances similar to Laconia’s even when subjecting them to
intermediate scrutiny. See Tagami, 875 F.3d at 379-80; Ways,
331 F.3d at 599-600; Buzzetti, 140 F.3d at 144; Biocic, 928 F.2d
at 115-16; J & B Soc. Club No. 1, 966 F. Supp. at 1139-40; Craft,
683 F. Supp. at 299-301. But see Free the Nipple Fort Collins,
237 F. Supp. 3d at 1133.

15a
scrutiny. But cf. In re Certain Scholarship Funds, 133
N.H. 227, 231 (1990) (concluding that the “State’s
participation in the administration of” certain
scholarships established by trust but expressly
limited to one gender “cannot even withstand the
lowest level of judicial scrutiny,” and thus declining to
“determine what level of review should be employed
in cases of gender ... discrimination” under Part I,
Article 2). Thus, our prior cases are not helpful in
analyzing whether Laconia’s ordinance is genderbased. In other words, to the extent the dissent
contends that our precedent requires us to determine
the standard of review in equal protection challenges
by examining the purpose and scope of the Statecreated classification, we agree. The primary issue on
which this case turns, however, is what that
examination reveals when applied to the unique facts
of this case.
We agree with the dissent, of course, that this court
has a duty “to make an independent determination of
the protections afforded in the New Hampshire
Constitution.” Ball, 124 N.H. at 231. However, where
our previous cases have not had occasion to answer
the question presented here, we fail to see how we
depart from that duty by checking our work against
other courts, many of them in states with equal
protection provisions similar to our own. See TEX.
CONST. art. 1, §3a (“Equality under the law shall not
be denied or abridged because of sex, race, color,
creed, or national origin.”); Schleuter, 947 S.W.2d at
925-26; WA. CONST. art. 31, §1 (“Equality of rights
and responsibility under the law shall not be denied
or abridged on account of sex.”); Buchanan, 584 P.2d
at 920-22; N.M. CONST. art. 2, §18 (“Equality of
rights under law shall not be denied on account of the

16a
sex of any person.”); Sachs, 92 P.3d at 29. Indeed, the
dissent itself relies on out-of-jurisdiction cases to
support its contention that the Laconia ordinance
contains a gender-based classification. To the extent
the dissent simply finds those cases more persuasive,
that is all the more reason for us, in fulfilling our
obligation to independently interpret Part I, Article 2,
to consider the full range of how courts have tackled
this difficult question, lest we simply pick and choose
from amongst courts whose holdings align with our
own personal ideologies.
The dissent also contends that there is “no
principled reason why” our approach to analyzing
Laconia’s ordinance “would not apply with equal force
to other laws” that afford differing treatment to
people of different races, religions, colors, or national
origins. We disagree. The facts of this case, including
the particular way in which men and women differ
with respect to the traditional understanding of
nudity, are unique. Indeed, the dissent does not even
attempt to deny that nudity is simply different for
men than for women. At the same time, it is
undeniably true that classifications based on
immutable characteristics have “long [been]
recognized as in most circumstances irrelevant,”
Adarand Constructors, Inc. v. Pena, 515 U.S. 200, 227
(1995) (quotation omitted), and therefore are
generally improper bases for differing treatment
under the law. However, based on the unique way in
which men and women differ with respect to nudity,
we conclude that the ordinance does not afford
different treatment for men and women based on
gender. As for the dissent’s assertion that, given our
approach to analyzing Laconia’s ordinance, we would
not apply strict scrutiny in a case that concerned laws

17a
imposing more onerous retirement benefit requirements for women than for men, it suffices to say that
any such case would be controlled by our analysis in
Holbrook. See Holbrook, 140 N.H. at 189-90.
At various points throughout its opinion, the
dissent lumps the ordinance, and our analysis of it,
together
with
“pervasive
and
perverse
discrimination,”
“romantic
paternalism,”
“unexamined stereotypes,” and “archaic prejudice.”
The resort to such hyperbole reveals the flawed
nature of its reasoning. It assumes that, because the
ordinance does not allow men and women to engage
in precisely the same mode of dress, it must contain a
gender-based classification. Respectfully, we find this
approach deceptively simplistic. For strict scrutiny to
apply, it is not enough that men and women
be
treated differently: they must be treated differently
based upon a gender-based classification. See
Buchanan, 584 P.2d at 921-22. For the reasons
already discussed, we find no gender-based
classification in the ordinance. It is telling that the
dissent has identified no case, nor are we aware of
any, in which a court sitting in a jurisdiction with an
Equal Rights Amendment analogous to our own has
applied strict scrutiny to an ordinance like Laconia’s.
Neither can we ignore that no court with precedentsetting authority has held such an ordinance
unconstitutional.
Nor should the siren call of “equal rights” lead us to
forget our constitutional role. In the absence of a
suspect classification or a fundamental right, courts
will not second guess legislative bodies as to the
wisdom of a specific law. Winnisquam Reg. Sch. Dist.
v. Levine, 152 N.H. 537, 539 (2005). That the
ordinance may or may not “reflect sociological insight,

18a
or shifting social standards” is not determinative for
our purposes. Buchanan, 584 P.2d at 921 (quotation
omitted). “Our obligation” is to interpret and apply
the law, “not to mandate our own moral code.”
Planned Parenthood of Southeastern PA v. Casey,
505 U.S. 833, 850 (1992). “We are told that concepts
of morality and propriety are changing”; if so, then “it
can reasonably be expected that public demand will
soon make it imperative that this portion of the
ordinance be repealed.” Buchanan, 584 P.2d at 92021. The people of Laconia may make such a decision,
but this court will not make it for them.
III.

Freedom of Speech

The defendants next argue that the ordinance
violates their rights to freedom of speech and
expression under Part I, Article 22 of the New
Hampshire Constitution and the First Amendment to
the United States Constitution. They contend that,
“[b]y appearing topless in public, [the defendants]
engaged in speech and expression ... to demonstrate
to others [their] political viewpoint and message that
the female nipple is not a sexual object.” They further
maintain that, by doing so, they sought “to bring
attention to gender equality and how the female
nipple is treated different[ly] than the male nipple,”
“to continue the advancement of women’s rights[,]
and to have the conduct of being topless be accepted
and normalized.”
We first address the defendants’ claims under the
State Constitution, and rely on federal law only to aid
in our analysis. Ball, 124 N.H. at 231-33. Once again,
our review of this constitutional question is de novo.
McKenzie, 154 N.H. at 777.

19a
Part I, Article 22 of the New Hampshire Constitution provides: “Free speech and liberty of the press
are essential to the security of freedom in a state:
They ought, therefore, to be inviolably preserved.”
N.H. CONST. pt. I, art. 22. Similarly, the First
Amendment prevents the passage of laws “abridging
the freedom of speech.” U.S. CONST. amend. I. It
applies to the states through the Fourteenth
Amendment to the United States Constitution. Lovell
v. Griffin, 303 U.S. 444, 450 (1938).
When assessing whether government restrictions
impermissibly infringe on free speech, we must first
address whether the speech or conduct at issue is
protected by the State Constitution. State v. Bailey,
166 N.H. 537, 540-41 (2014). The State and Federal
Constitutions contain robust guarantees of free
speech, but they do not offer absolute protection to all
speech under all circumstances and in all places.
State v. Biondolillo, 164 N.H. 370, 373 (2012). We do
not accept “the view that an apparently limitless
variety of conduct can be labeled ‘speech’ whenever
the person engaging in the conduct intends thereby to
express an idea”; however, “we acknowledge that
conduct may be sufficiently imbued with elements of
communication to fall within the scope of
constitutional protections.” Bailey, 166 N.H. at 541
(quotation, brackets, and ellipsis omitted); see State
v. Comley, 130 N.H. 688, 691 (1988) (noting that
although statute did not specifically regulate speech,
its application “may have such an effect where a
prosecution under the statute concerns conduct
encompassing expressive activity”).
The State contends that the defendants’ conduct
did not constitute protected speech. Although “[b]eing
in a state of nudity is not an inherently expressive

20a
condition,” Pap’s A.M., 529 U.S. at 289, under the
circumstances of this case we will assume, without
deciding, that the defendants engaged in constitutionally protected expressive conduct. See Clark v.
Community for Creative Non-Violence, 468 U.S. 288,
293 (1984) (assuming, but not deciding, that
overnight sleeping in connection with demonstration
was constitutionally protected expressive conduct);
Craft, 683 F. Supp. at 292 (assuming dubitante that
plaintiffs’ shirt-free appearances at Cape Cod
National Seashore constituted “expressive conduct
protected to some extent by the First Amendment”
(quotation omitted)); see also Bailey, 166 N.H. at 541.
We must, therefore, determine whether the ordinance
violates their right to free speech.
“It is well settled that the government need not
permit all forms of speech on property that it owns
and controls.” Bailey, 166 N.H. at 541 (quotation,
brackets, and ellipsis omitted). “The standards by
which limitations on speech must be evaluated differ
depending on the character of the property.” Id. at
542 (quotation and brackets omitted). Government
property generally falls into three categories—
traditional public forums, designated public forums,
and limited public forums. Id. “A traditional public
forum is government property which by long tradition
or by government fiat has been devoted to assembly
and debate.” Id. (quotation omitted). In such forums,
the government may impose reasonable time, place,
and manner restrictions. Doyle v. Comm’r, N.H. Dep’t
of Resources & Economic Dev., 163 N.H. 215, 221
(2012). If a restriction is content-based, it must be
narrowly tailored to serve a compelling government
interest. Id.; Reed v. Town of Gilbert, Ariz., 135 S. Ct.
2218, 2226 (2015) (“Content-based laws—those that

21a
target speech based on its communicative content—
are presumptively unconstitutional and may be
justified only if the government proves that they are
narrowly tailored to serve compelling state
interests.”). If a restriction is content-neutral, it must
satisfy a slightly less stringent test—it must be
narrowly tailored to serve a significant government
interest. Doyle, 163 N.H. at 221; see Biondolillo, 164
N.H. at 373 (noting that federal precedent employs
the same standard to assess constitutionality of
restrictions on the time, place, and manner of
expressive activities taking place in a public forum);
see also Clark, 468 U.S. at 293.
The defendants suggest, and the State does not
dispute, that the beaches at which the defendants
were arrested constitute traditional public forums.
Thus, for purposes of this appeal, we also will
assume, without deciding, that the respective beaches
constitute traditional public forums. Nonetheless, the
defendants argue that “[t]ime, place, and manner
analysis is not appropriate” because the ordinance
regulates speech based upon its content and
viewpoint. They contend, therefore, that we must
subject the ordinance to strict scrutiny review. We
disagree.
“Government regulation of speech is content based
if a law applies to particular speech because of the
topic discussed or the idea or message expressed.”
Reed, 135 S. Ct. at 2227; see also Biondolillo, 164
N.H. at 374. On the other hand, a law is a contentneutral speech regulation if it is “justified without
reference to the content of the regulated speech.” City
of Renton v. Playtime Theatres, Inc., 475 U.S. 41, 48
(1986) (quotation and emphasis omitted).

22a
We agree with the trial court that the ordinance is
not content-based. The ordinance is, on its face, a
general prohibition on public nudity. See Pap’s A.M.,
529 U.S. at 290 (concluding that ordinance banning
public nudity was not related to the suppression of
expression). As the United States District Court for
the District of Massachusetts ruled regarding a
National Park Service regulation prohibiting public
nudity at the seashore, the ordinance is “plainly not
based upon either the content or subject matter of
speech.” Craft, 683 F. Supp. at 293 (quotations
omitted). There is nothing in the text of the ordinance
itself that suggests “that one group’s viewpoint is to
be preferred at the expense of others.” Id. (quotation
omitted). It does not target nudity meant to advance
women’s rights or desexualize the female nipple.
Rather, it prohibits all nudity, regardless of whether
the nudity is accompanied by expressive activity. See
Pap’s A.M., 529 U.S. at 290. In that sense, the
ordinance merely regulates the manner in which
activities may be carried out in that they cannot be
carried out in the nude. We, therefore, conclude that
the ordinance is content-neutral.
As we stated, if a restriction is content-neutral, it
must be narrowly tailored to serve a significant
government interest. Doyle, 163 N.H. at 221. Contentneutral restrictions must also leave open ample
alternative channels for communication. Id. On
appeal, the defendants do not challenge the trial
court’s rulings that the ordinance meets these
requirements. Rather, their only argument is that the
ordinance is content-based and viewpoint discriminatory and, thus, should be subject to strict scrutiny
review. Because we necessarily reject that argument
by concluding that the ordinance is content-neutral,

23a
and the defendants have not otherwise demonstrated
that the trial court’s rulings were erroneous, we need
not conduct a further constitutional analysis.
Finally, the defendants pose various scenarios in
their brief regarding circumstances under which, they
argue, the ordinance would be unlikely to be applied.
For example, they state that “presumably Laconia
would not be enforcing the ordinance against prepubescent females” and that it is “questionable if the
City would be enforcing the ordinance against a
female who had a double mastectomy who essentially
lacks any breast tissue even if their nipples were
exposed.” Beyond these bare assertions, however,
they do not develop a legal argument. Because a mere
laundry list of complaints regarding adverse rulings
by the trial court, without developed legal argument,
is insufficient to warrant judicial review, we decline
to respond to these assertions.4 See State v. Ayer,
154 N.H. 500, 513 (2006) (declining to address
defendant’s due process argument as he had not
explained how his rights were violated and had only
argued in “conclusory terms”).
Accordingly, for these reasons, we cannot say that
the trial court erred by determining that the
ordinance does not violate the defendants’ rights to
free speech and expression under the State
4 RSA 132:10-d (2015) provides: “Breast-feeding a child does
not constitute an act of indecent exposure and to restrict or limit
the right of a mother to breast-feed her child is discriminatory.”
Although noting that the ordinance does not make any exception
for breast-feeding, the defendants specifically acknowledge that
“they are not seeking to invalidate the ordinance for its failure to
exempt breastfeeding.” We therefore have no occasion to address
this issue.

24a
Constitution. As the Federal Constitution affords the
defendants no greater protection than the State
Constitution under the circumstances presented here,
see Tagami, 875 F.3d at 379 (citing Barnes, 501 U.S.
at 568-69), we also find no violation of the Federal
Constitution.
IV.

Authorization to Enact the Ordinance

The defendants next argue that the ordinance is
invalid because the City of Laconia did not have the
statutory authority to enact the ordinance. We find
this argument unpersuasive.
“[W]hile general statutes must be enacted by the
legislature, it is plain the power to make local
regulations, having the force of law in limited
localities, may be committed to other bodies
representing the people in their local divisions, or to
the people of those districts themselves.” State v.
Grant, 107 N.H. 1, 3 (1966) (quotation omitted). “Our
whole system of local government in cities, villages,
counties and towns, depends upon that distinction.
The practice has existed from the foundation of the
state, and has always been considered a prominent
feature in the American system of government.” Id.
(quotation omitted). Indeed, as a subdivision of the
state, the City of Laconia may exercise such powers
as are expressly or impliedly granted to it by the
legislature. See Dover News, Inc. v. City of Dover, 117
N.H. 1066, 1068 (1977).
Although there exists no express authority for a
city to enact an ordinance prohibiting females from
exposing their nipples, RSA 47:17, VII (2012) grants
the city the power “[t]o regulate all streets and public
ways, wharves, docks, and squares, and the use
thereof.” Further, RSA 47:17, XIII (2012) grants the

25a
city the power “to regulate the times and places of
bathing and swimming in the canals, rivers and other
waters of the city, and the clothing to be worn by
bathers and swimmers.” In addition, RSA 47:17, XV
(2012) gives the city the power to “make any other
bylaws and regulations which may seem for the wellbeing of the city” so long as “no bylaw or ordinance” is
“repugnant to the constitution or laws of the state.”
Moreover, the governmental authority known as
the police power is an inherent attribute of state
sovereignty. Piper v. Meredith, 110 N.H. 291, 294
(1970). The police power is broad and “includes such
varied interests as public health, safety, morals,
comfort, the protection of prosperity, and the general
welfare.” Id. (quotation omitted). The express and
implied powers granted to towns by the legislature
must be interpreted and construed in light of the
police powers of the state which grants them. Id. at
295.
We have held that towns are empowered under the
authority granted by RSA 31:39 (Supp. 2017) to make
bylaws for a variety of purposes which generally fall
into the category of health, welfare, and public safety.
See id. Specifically, RSA 31:39, I(a) empowers towns
to make bylaws for “[t]he care, protection,
preservation and use of the public cemeteries, parks,
commons, libraries and other public institutions of
the town.”
We believe that these statutory provisions
authorize the city to enact the ordinance. See Dover
News, Inc., 117 N.H. at 1068. As we explained, the
stated purpose of the ordinance is to uphold and
support “public health, public safety, morals and
public order.” Laconia, N.H., Code of Ordinances ch.

26a
180, art. 1, §180-1. We agree with the State that the
ordinance’s prohibition on public nudity is
substantially related to this purpose. See Grant, 107
N.H. at 3. Furthermore, we have found that the
ordinance does not violate the defendants’
constitutional rights to equal protection or freedom of
speech under the State and Federal Constitutions. As
such, it does not unduly restrict the defendants’
fundamental rights. Accordingly, we agree with the
trial court that the City had the authority to enact the
ordinance.
V.

Preemption

The defendants next contend that the ordinance is
preempted by RSA 645:1, I (2016). It is well settled
that towns cannot regulate a field that has been
preempted by the State. Town of Rye Bd. of
Selectmen v. Town of Rye Zoning Bd. of Adjustment,
155 N.H. 622, 624 (2007). The preemption doctrine
flows from the principle that municipal legislation is
invalid if it is repugnant to, or inconsistent with, state
law. Id. State law expressly preempts local law when
there is an actual conflict between state and local
regulation. Id. at 624-25. An actual conflict exists
when a municipal ordinance or regulation permits
that which a state statute prohibits, or vice versa. Id.
at 625. Moreover, even when a local ordinance does
not expressly conflict with a state statute, it will be
preempted when it frustrates the statute’s purpose.
Forster v. Town of Henniker, 167 N.H. 745, 756
(2015). Because preemption “is essentially a matter of
statutory interpretation and construction,” whether a
state statute preempts local regulation is a question
of law, which we review de novo. Id. (quotation
omitted).

27a
RSA 645:1, I, provides that “[a] person is guilty of a
misdemeanor if such person fornicates, exposes his or
her genitals, or performs any other act of gross
lewdness under circumstances which he or she should
know will likely cause affront or alarm.” The
defendants do not—and could not—argue that this
statute specifically authorizes the public display of
breasts by females. On the contrary, although we
need not decide the issue, this statute at least
arguably can be read to prohibit such conduct as an
act of gross lewdness. See, e.g., Com. v. Quinn, 789
N.E.2d 138, 146 (Mass. 2003). Nor can it be said that
this statute represents the kind of comprehensive
regulatory scheme that is indicative of legislative
intent to occupy the field of regulation of public safety
and morals. See Prolerized New England Co. v. City
of Manchester, 166 N.H. 617, 623 (2014). Therefore,
there is simply no basis for a claim that the ordinance
either expressly conflicts with RSA 645:1, I, or that it
frustrates the purpose of the statute.
The defendants point to an unsuccessful effort by
legislators to enact legislation that would have
specifically prohibited the public exposure of female
breasts, see 2016 HB 1525-FN, arguing that the
failure of that measure demonstrates legislative
intent not to prohibit such conduct. As we have noted,
however, “[w]e can discern no clear meaning from the
legislature’s failure to enact the proposed
amendment.” Dover News, Inc., 117 N.H. at 1069; see
also Appeal of House Legislative Facilities Subcom.,
141 N.H. 443, 449 (1996) (rejecting as misguided
argument that failure of proposed amendment to
Public Employee Labor Relations Act that would have
expressly excluded legislative and judicial employees
from its coverage demonstrated legislative intent that

28a
such employees be covered, and observing that “the
amendment’s failure could as easily have resulted
from the belief that those employees were not covered
by the Act in the first place”).
For these reasons, we find that the ordinance is not
preempted by RSA 645:1, I.
VI.

RSA Chapter 354-A

Finally, the defendants argue that the trial court
erred by denying their motion to dismiss because the
ordinance violates RSA chapter 354-A. Relying upon
RSA 354-A:16 and :17, the defendants contend that
by “mak[ing] it illegal to be a topless female in public
while allowing a male to be topless in public,” the
ordinance discriminates by “exclud[ing] someone from
being on public property based solely on that person’s
sex/gender.”
This argument requires us to engage in statutory
interpretation. We are the final arbiters of the legislature’s intent as expressed in the words of the
statute considered as a whole. EEOC v. Fred Fuller
Oil Co., 168 N.H. 606, 608 (2016). “We first examine
the language of the statute, and, when possible, we
ascribe the plain and ordinary meanings to the words
used.” Eldridge v. Rolling Green at Whip-Poor-Will
Condo. Owners’ Association, 168 N.H. 87, 90 (2015)
(quotation omitted).
RSA chapter 354-A, known as the “Law Against
Discrimination,” prohibits, as relevant here, unlawful
discrimination based upon sex in places of public
accommodation as provided therein. See RSA 354-A:1
(title and purposes of chapter), :16-:17 (public accommodation). RSA 354-A:16 provides, in pertinent part,
that “[t]he opportunity for every individual to have

29a
equal access to places of public accommodation
without discrimination because of age, sex, race,
creed, color, marital status, physical or mental
disability or national origin is hereby recognized and
declared to be a civil right.” RSA 354-A:17 states:
It shall be an unlawful discriminatory practice
for any person, being the owner, lessee,
proprietor, manager, superintendent, agent or
employee of any place of public accommodation,
because of the ... sex ... of any person, directly or
indirectly, to refuse, withhold from or deny to
such person any of the accommodations,
advantages, facilities or privileges thereof; or,
directly or indirectly, to publish, circulate, issue,
display, post or mail any written or printed
communication, notice or advertisement to the
effect that any of the accommodations,
advantages, facilities and privileges of any such
place shall be refused, withheld from or denied to
any person on account of ... sex ... ; or that the
patronage or custom thereat of any person
belonging to or purporting to be of any particular
... sex ... is unwelcome, objectionable or
acceptable, desired or solicited.
In advancing their statutory argument, the
defendants do little more than rehash their
constitutional equal protection argument that, by
prohibiting the exposure of the female, but not the
male, breast, the ordinance discriminates on the basis
of sex. For the reasons already discussed, we do not
find that the ordinance constitutes unlawful
discrimination in violation of RSA 354-A:16 or :17.
Rather, we agree with the trial court that the
ordinance merely prohibits those who access public
places from doing so in the nude, and makes a

30a
permissible distinction between the areas of the body
that must be covered by each gender.5 See Sachs, 92
P.3d at 29 (holding that, in addition to not violating
the New Mexico Constitution, the ordinance at issue
in that case did not contravene the New Mexico
Human Rights Act).
Affirmed.
LYNN, C.J., and DONOVAN, J., concurred;
BASSETT, J., with whom HICKS, J., joined,
concurred in part and dissented in part.
BASSETT, J., with whom HICKS, J., joins, concurring in part and dissenting in part. We agree with our
colleagues in most respects: Laconia’s ordinance does
not violate the defendants’ rights to freedom of speech
and expression; it falls within the regulatory
authority of the City of Laconia; it is not preempted
by statute; and it does not violate RSA chapter 354-A.
However, we part company with the majority when it
rejects the defendants’ equal protection claim. We
5 The defendants cite cases from several jurisdictions that
hold that various forms of preferences given to women, such as
car wash discounts and discounted drink prices for women at a
bar or racetrack, violated the respective jurisdiction’s antidiscrimination laws or ordinances. See Koire v. Metro Car Wash,
707 P.2d 195, 204 (Cal. 1985); City of Clearwater v. Studebaker’s
D. Cl., 51 So. 2d 1106, 1108-09 (Fla. Dist. Ct. App. 1987); Ladd v.
Iowa West Racing Ass’n., 438 N.W.2d 600, 602 (Iowa 1989);
Peppin v. Woodside Delicatessen, 506 A.2d 263, 267 (Md. Ct.
Spec. App. 1986); Com., Pa. Liquor Control Bd. v. Dobrinoff, 471
A.2d 941, 943 (Pa. Commw. Ct. 1984). These cases are readily
distinguishable from the case at bar because, unlike in this case,
they did not involve a distinction based upon the common
understanding of what constitutes nudity.

31a
strongly disagree that rational basis is the lens
through which the defendants’ equal protection
challenge should be analyzed. Laconia’s ordinance
facially classifies on the basis of gender: if a woman
and a man wear the exact same clothing on the beach,
on Laconia’s main street, or in a backyard “visible to
the public,” the woman is engaging in unlawful
behavior—but the man is not. Laconia, N.H., Code of
Ordinances ch. 180, art. I, §§180-2, 180-4 (1998). This
is a gender-based classification. Accordingly, the court
must apply strict scrutiny. See In re Sandra H., 150
N.H. 634, 637 (2004) (“Classifications based upon
suspect classes or affecting a fundamental right are
subject to the most exacting scrutiny....” (quotation
omitted)); Cheshire Medical Center v. Holbrook, 140
N.H. 187, 189 (1995) (“Our constitution guarantees
that ‘equality of rights ... shall not be denied or
abridged by this state on account of ... sex.’ N.H.
CONST. pt. I, art. 2. In order to withstand scrutiny
under this provision, a common law rule that
distributes benefits or burdens on the basis of gender
must be necessary to serve a compelling State
interest.”); LeClair v. LeClair, 137 N.H. 213, 222
(1993) (“We apply the strict scrutiny test, in which
the government must show a compelling State
interest in order for its actions to be valid, when the
classification involves a suspect class based on race,
creed, color, gender, national origin, or legitimacy ....”
(quotation omitted) (superseded by statute on other
grounds). Were this court to subject Laconia’s
ordinance to this exacting standard, given that the
government failed to present sufficient evidence in
the trial court to satisfy its burden of proof, we would
be compelled to find the ordinance unconstitutional.

32a
Laconia’s ordinance makes it “unlawful for any
person to knowingly or intentionally, in a public
place: ... [a]ppear in a state of nudity.” Laconia, N.H.,
Code of Ordinances ch. 180, art. I, §180-2. Laconia
defines “public place” to include “[a]ny public street,
... beach, or other property or public institution of the
City”; “[a]ny outdoor location, whether publically or
privately owned, which is visible to the public at the
time the prohibited conduct occurs”; and “[a]ny area
within any ... place of public accommodation or other
private property which is generally frequented by the
public.” Laconia, N.H., Code of Ordinances ch. 180,
art. I §180-4. It defines nudity as “the showing of the
human male or female genitals, pubic area or
buttocks with less than a fully opaque covering, or the
showing of the female breast with less than a fully
opaque covering of any part of the nipple.” Id. The
defendants argue that the latter portion of the
ordinance violates their constitutional rights to equal
protection because, even though both men and women
have nipples, the ordinance does not treat men and
women equally.
“In considering an equal protection challenge under
our State Constitution, we must first determine the
correct standard of review by examining the purpose
and scope of the State-created classification and the
individual rights affected.” Cmty. Res. for Justice v.
City of Manchester, 154 N.H. 748, 758 (2007)
(quotation and brackets omitted). The significance of
the threshold determination as to the proper standard
of review cannot be overstated. Classifications based
upon suspect classes or that affect fundamental rights
are subject to strict scrutiny: the government must
prove that the legislation is “necessary to serve a
compelling State interest,” Holbrook, 140 N.H. at 189,

33a
and that it is “narrowly tailored to meet that end,”
Cmty. Res., 154 N.H. at 759 (quotation omitted).
Below strict scrutiny is intermediate scrutiny, which
is triggered when the challenged classification
involves important substantive rights, Sandra H., 150
N.H. at 637-38, and which requires the government to
show that the challenged legislation is substantially
related to an important government interest. Cmty.
Res., 154 N.H. at 762. Under either strict or
intermediate scrutiny, the government bears the
burden of proof, and “may not rely upon justifications
that are hypothesized or invented post hoc in
response to litigation, nor upon overbroad
generalizations.” Id. (quotations omitted); see also
Fisher v. University of Texas at Austin, 570 U.S. 297,
310-12 (2013). On the other end of the spectrum, if
legislation does not classify based on a suspect class,
affect fundamental rights, or involve important
substantive rights, the constitutional standard of
review is rational basis. Sandra H., 150 N.H. at 638.
“The rational basis test under the State Constitution
requires that legislation be only rationally related to
a legitimate government interest.” Boulders at
Strafford v. Town of Strafford, 153 N.H. 633, 641
(2006). The rational basis test puts the burden of
proof on the party challenging the legislation and
“contains no inquiry into whether legislation unduly
restricts individual rights.” Id. at 641-42.
The majority acknowledges—as it must—that
under the New Hampshire Constitution, genderbased classifications trigger strict scrutiny. Yet the
majority declines to apply strict scrutiny in this case,
reasoning that, because “men and women are not
fungible with respect to the traditional understanding
of what constitutes nudity,” the Laconia ordinance

34a
does not classify on the basis of gender. The
conclusion that the ordinance does not classify on the
basis of gender, and therefore can be analyzed by
applying the rational basis test, does not find support
in the plain language of the ordinance, the New
Hampshire Constitution, or our precedent.
That the ordinance classifies on the basis of gender
is self-evident. The ordinance defines “nudity”
differently for females and males. By the plain text of
the ordinance, a person who appears in a public place
showing “the female breast with less than a fully
opaque covering of any part of the nipple” violates the
ordinance; a male who appears in the same public
place without such a covering does not. Laconia, N.H.,
Code of Ordinances ch. 180, art. I, §§180-2, 180-4
(emphasis added). The challenged portion of the
ordinance creates a public dress code which only one
gender can violate. This is a gender-based classification.
Indeed, the Seventh Circuit Court of Appeals
recently held that a public nudity ordinance that
defines nudity differently for men and women
classifies on the basis of gender. Tagami v. City of
Chicago, 875 F.3d 375, 379-80 (7th Cir. 2017), cert.
denied, 138 S. Ct. 1577 (2018). In Tagami, a woman
who had been found guilty of violating a public-nudity
ordinance that criminalized public display of “the
breast at or below the upper edge of the areola thereof
of any female person” if “not covered by an opaque
covering,” sued the City alleging that the ordinance
discriminates on the basis of sex in violation of the
Federal Constitution. Id. at 377 (quotation omitted).
The City asserted that the ordinance did not classify
on the basis of sex because it “treats men and women
alike by equally prohibiting the public exposure of the

35a
male and female body parts that are conventionally
considered to be intimate, erogenous, and private.” Id.
at 379-80. The City contended that “the list of
intimate body parts is longer for women than men,
but that’s wholly attributable to the basic
physiological differences between the sexes.” Id. at
380. The Seventh Circuit summarily dismissed the
City’s contention, stating that the City’s argument
was “a justification for this classification rather than
an argument that no sex-based classification is at
work here at all.” Id. The court concluded that, “[o]n
its face, the ordinance plainly does impose different
rules for women and men,” and then proceeded to
analyze the ordinance under the heightened scrutiny
required by the Federal Constitution for gender-based
classifications. Id.
The Seventh Circuit is not an outlier. Many courts
have held that ordinances such as Laconia’s do, in
fact, classify on the basis of gender. See, e.g., Craft v.
Hodel, 683 F. Supp. 289, 299 (D. Mass. 1988)
(concluding that, under the Federal Constitution, a
regulation prohibiting display of female but not male
breasts “does, of course, distinguish between males
and females” and thus was “subject to scrutiny under
the Equal Protection Clause” (quotation omitted));
City of Tucson v. Wolfe, 917 P.2d 706, 707 (Ariz. Ct.
App. 1995) (applying heightened scrutiny “[b]ecause
this ordinance creates a different standard of conduct
for each gender”); Dydyn v. Department of Liquor
Control, 531 A.2d 170, 175 (Conn. App. Ct. 1987) (“We
are not persuaded, however, by the argument that the
regulation does not classify on the basis of sex. When
a statute or regulation distinguishes between male
and female anatomy, we hold that [the level of
scrutiny required for gender-based classifications]

36a
must be applied.”). But see Eckl v. Davis, 124 Cal.
Rptr. 685, 695-96 (Ct. App. 1975) (holding that the
ordinance did not classify based on sex because
“nudity in the case of women is commonly understood
to include the uncovering of the breast”); City of
Seattle v. Buchanan, 584 P.2d 918, 920-22 (Wash.
1978) (en banc) (same).
We agree with the reasoning of the Seventh Circuit.
Public nudity ordinances such as the ordinances in
Chicago and Laconia—i.e., those that use explicit,
gendered language to make it unlawful for a female to
engage in certain behavior, while the same behavior
is lawful for a male—clearly classify by gender. The
majority asserts that such reasoning is “flawed” and
“deceptively simple.” We fail to see the flaw or deception in our simple reasoning: when a law uses the
word “female” to classify between those who can
violate the ordinance — females — and those who
cannot — males — it contains a gender-based
classification. We freely acknowledge that the
question of whether basic physiological differences
between the sexes justify disparate treatment of men
and women is a more nuanced and complicated
question. But classification and justification present
different questions. Respectfully, we find the
reasoning of the majority—which obscures the simple
threshold question—needlessly convoluted and
artificially complex.
Indeed, a court upends the safeguards of equal
protection if it reasons that, because a law is
premised upon physiological or anatomical differences
between the sexes, the law does not classify by gender
and therefore it need not be analyzed under strict
scrutiny. For example, because women have a longer
life expectancy than men, by the majority’s reasoning,

37a
a hypothetical law that mandates that women work
four years longer than men in order to qualify for a
pension, or prevents women from retiring until age 70
as opposed to age 66 for men, or reduces a woman’s
social security benefits if she retires at the same age
as a man, does not classify on the basis of gender.
Such a law would be constitutional so long as it was
“rationally related to a legitimate government
interest.” Boulders, 153 N.H. at 641. Analyzing
whether a law comports with equal protection does
not require that the court be blind to basic
physiological or anatomical differences. In some
cases, applying the constitutionally required level of
scrutiny, this court might conclude that such
differences justify disparate treatment under the law.
However, a court subverts the basic guarantee of
equal protection if it concludes that, because men and
women have physiological or anatomical differences, a
law that classifies on the basis of those differences
does not trigger strict scrutiny.
The New Hampshire Constitution states: “Equality
of rights under the law shall not be denied or
abridged by this state on account of race, creed, color,
sex or national origin.” N.H. CONST. pt. I, art. 2. This
guarantee became part of our State Constitution in
1974 after the people of New Hampshire passed the
Equal Rights Amendment by an overwhelming
margin. There is no counterpart to New Hampshire’s
Equal Rights Amendment in the United States
Constitution. Accordingly, we, like courts in other
states whose citizens have adopted an Equal Rights
Amendment, do not “equate our [Equal Rights
Amendment] with the equal protection clause of the
federal constitution” as doing so “would negate its
meaning given that our state adopted an [Equal

38a
Rights Amendment] while the federal government
failed to do so.” Doe v. Maher, 515 A.2d 134, 160-61
(Conn. Super. Ct. 1986). We “find inescapable the
conclusion that [our Equal Rights Amendment] was
intended to supplement and expand the guaranties
of the equal protection provision ... and requires us to
hold that a classification based on sex is a ‘suspect
classification’ which, to be held valid, must withstand
‘strict judicial scrutiny.’” People v. Ellis, 311 N.E.2d
98, 101 (Ill. 1974). “Any other view would mean the
people intended to accomplish no change in the
existing
constitutional
law
governing
sex
discrimination” when they enacted the amendment.
Darrin v. Gould, 540 P.2d 882, 889 (Wash. 1975) (en
banc). Our amended Constitution, and subsequent
precedent, now require the State to bear a heavy
burden when it seeks to treat people differently under
the law “on account of race, creed, color, sex or
national origin.” N.H. CONST. pt. I, art. 2; see, e.g.,
Sandra H., 150 N.H. at 637; Holbrook, 140 N.H. at
189; LeClair, 137 N.H. at 222. As we have previously
observed:
Part I, article 2 of the New Hampshire
Constitution forbids the State to discriminate on
the basis of ... gender. The New Hampshire
voters, in ratifying this amendment, have firmly
established public policy that demands equal
protection for all, regardless of ... gender.
In re Certain Scholarship Funds, 133 N.H. 227, 232
(1990).
The majority’s conclusion that a lesser standard
applies turns the clock back to the era before the
adoption of the Equal Rights Amendment—a bygone
era when women were the victims of pervasive

39a
discrimination and this court rejected challenges to
laws that treated men and women differently. Indeed,
the New Hampshire Supreme Court held more than
sixty years ago—but within the lifetimes of judges
now sitting on this court—that a regulation which
banned women from playing golf on a municipal
course during certain hours did not violate the New
Hampshire Constitution’s equal protection guarantee.
See Allen v. Manchester, 99 N.H. 388, 390-92 (1955).
We reasoned that because it was not “plainly
mistaken or arbitrary” that “women golfers, on the
average, progress about the course more slowly than
men,” and separating slow groups from fast groups
might improve “the safety of players, and of women
and children golfers in particular,” the law did not
create an “invalid classification.” Id. at 391-92.
“Women were separately classified with children, not
because of sex, but because of a manner of playing
golf thought to be characteristic of them as a group.”
Id. at 392. The majority’s position in this case—that
strict scrutiny is not required here because women
are thought to be different from men with regard to
nudity—harkens back to that bygone era.
The majority misconstrues the equal protection
guarantee when it reasons that our precedent “does
not necessarily establish that the Laconia ordinance
triggers strict scrutiny” because it “does not address
the type of legislation that is at issue here: a
proscription that imposes requirements on both men
and women, but applies to women somewhat
differently.” The threshold inquiry as to the proper
level of review is not whether the law classifies by
gender in all respects: it is whether the law classifies
by gender in any respect. As the United States
Supreme Court has explained: “Whenever the

40a
government treats any person unequally because of [a
suspect classification], that person has suffered an
injury that falls squarely within the language and
spirit of the Constitution’s guarantee of equal
protection.” Adarand Constructors, Inc. v. Pena, 515
U.S. 200, 229-30 (1995). It is precisely because
Laconia’s ordinance “applies to women somewhat
differently” that we must apply strict scrutiny.
The majority reasons that a lesser standard is
applicable here in part because “[c]ourts in other
jurisdictions have generally upheld laws that prohibit
women but not men from exposing their breasts,” but
have “often left unclear the applicable standard of
review.” It observes that no court has held that an
ordinance like Laconia’s triggers strict scrutiny, and
that no appellate court has held such an ordinance
unconstitutional. However, “[t]he New Hampshire
Constitution is the fundamental charter of our State.”
State v. Ball, 124 N.H. 226, 231 (1983). “Our constitution will often afford greater protection against the
action of the State than does the Federal
Constitution.” State v. Settle, 122 N.H. 214, 217
(1982). Therefore, “this court has a responsibility to
make an independent determination of the
protections afforded under the New Hampshire
Constitution.” Ball, 124 N.H. at 231. “If we ignore this
duty, we fail to live up to our oath to defend our
constitution ....” Id.
We recognize that courts in other jurisdictions,
applying less exacting levels of scrutiny, have upheld
the constitutionality of ordinances similar to
Laconia’s. See, e.g., Tagami, 875 F.3d at 380. But see
Free the Nipple Fort Collins v. City of Fort Collins,
Colorado, 237 F. Supp. 3d 1126, 1130, 1133 (D. Colo.
2017) (concluding that equal protection challenge to

41a
ordinance prohibiting women but not men from
exposing their breasts was likely to succeed on the
merits when analyzed under intermediate scrutiny,
as required by the Federal Constitution, because the
ordinance “is based on an impermissible gender
stereotype that results in a form of gender-based
discrimination”). However the Federal Constitution,
and the majority of other state constitutions,
materially differ from New Hampshire’s Constitution
because they do not explicitly provide that equal
rights under the law shall not be denied because of
sex. See Leslie W. Gladstone, Cong. Research Serv.,
RS20217, Equal Rights Amendments: State
Provisions (2004) (discussing and listing state Equal
Rights Amendments). In those jurisdictions, genderbased classifications never trigger strict scrutiny
review. See, e.g., Tagami, 875 F.3d at 380 (Federal
Constitution); Wolfe, 917 P.2d at 707 (state
constitution). By contrast, in New Hampshire,
gender-based classifications always trigger strict
scrutiny review. Therefore, to the extent that the
majority relies upon the outcome of cases decided
through application of less rigorous standards to
determine the issue central to this case—whether
Laconia’s ordinance contains a gender-based
classification—it shrinks from the court’s duty to
ensure that “Equality of rights under the law shall
not be denied or abridged by this state on account of
race, creed, color, sex or national origin.” N.H.
CONST. pt. I, art. 2.
For the reasons discussed above, we conclude that
Laconia’s ordinance classifies on the basis of gender.
We recognize that a handful of courts, including two
sitting in states that have adopted equal rights
provisions similar to Part I, Article 2, have concluded

42a
that ordinances like Laconia’s do not classify on the
basis of gender. See Eckl, 124 Cal. Rptr. at 696;
Buchanan, 584 P.2d at 920-22. However, the
reasoning employed by these courts is unsound and
cannot withstand scrutiny.
In Eckl, the California Court of Appeal reasoned
that a public nudity ordinance that defined nudity
differently for men and women did not contain a
gender-based classification because “[n]ature, not the
legislative body, created the distinction between that
portion of the woman’s body and that of a man’s
torso,” Eckl, 124 Cal. Rptr. at 696; see also Buchanan,
584 P.2d at 920 (“[C]ommon knowledge tells us ...
that there is a real difference between the sexes with
respect to breasts ....”). However, the fact that
“nature” has created distinctions between men and
women does not lessen the level of scrutiny demanded
by our constitution. Our precedent is clear: in order to
“determine the correct standard of review,” the court
must “examin[e] the purpose and scope of the Statecreated classification and the individual rights
affected.” Cmty. Res., 154 N.H. at 758 (quotations and
brackets omitted). The critical threshold determination as to the proper standard of review should
not—and does not—include a judicial inquiry into
whether “nature” or “the legislative body” created
distinctions among those classified.
Indeed, “natural” distinctions between people—
including differences in skin color, gender, and
country of origin—have historically served as
justifications
for
pervasive
and
perverse
discrimination. That is precisely why the constitution
requires us to subject legislation that distinguishes
between people on the basis of such differences to
heightened scrutiny. The “basic concept of our system

43a
[is] that legal burdens should bear some relationship
to individual responsibility.” Frontiero v. Richardson,
411 U.S. 677, 686 (1973) (plurality opinion) (quotation
omitted). Gender, skin color, and country of origin are
“immutable facts that bear no relation to ability,
disadvantage, moral culpability, or any other
characteristics of constitutionally permissible interest
to government.” Fullilove v. Klutznick, 448 U.S. 448,
525 (1980) (Stewart, J., dissenting); see also
Frontiero, 411 U.S. at 686. Accordingly, when a
legislative body enacts a law that distributes benefits
or burdens on the basis of any of these immutable
characteristics, that legislation triggers strict
scrutiny review. See Holbrook, 140 N.H. at 189. The
Equal Rights Amendment was intended as a shield to
protect people from disparate treatment under the
law on the basis
of “natural” or immutable
characteristics. But here the majority concludes that
because “nature, not the legislative body,” has
distinguished between men and women, Laconia’s
ordinance does not classify on the basis of gender. In
so doing, the majority turns a constitutional shield
into a sword: it wields “immutable characteristics” as
a weapon to attack the very protections that the
Equal Rights Amendment was intended to guarantee.
Perhaps recognizing this truth, the majority,
quoting Buchanan and Eckl, attempts to further
justify its conclusion by asserting that the ordinance
“merely reflects the fact that men and women are not
fungible with respect to the traditional understanding
of what constitutes nudity.” Buchanan, 584 P.2d at
920-22 (“It is true that [the ordinance] requires the
draping of more parts of the female body than of the
male, but only because there are more parts of the
female body intimately associated with the

44a
procreative function. The fact that the ordinance
takes account of this fact does not render it
discriminatory.”); Eckl, 124 Cal. Rptr. at 696 (“Unlike
the situation with respect to men, nudity in the case
of women is commonly understood to include the
uncovering of the breasts. Consequently, in
proscribing nudity on the part of women it was
necessary to include express reference to that area of
the body.”). However, “traditional” or “common” moral
understandings do not determine constitutional
guarantees.
“[O]ur Nation has had a long and unfortunate
history of sex discrimination.” Frontiero, 411 U.S. at
684. “Traditionally, such discrimination was rationalized by an attitude of ‘romantic paternalism’ which, in
practical effect, put women, not on a pedestal, but in a
cage.” Id. The law no longer accepts stereotypical
notions about women’s abilities, interests, and proper
place in the public sphere as justifications to treat
men and women differently under the law with
regard to their ability to serve on juries, see J.E.B. v.
Alabama ex rel. T.B., 511 U.S. 127, 130-31 (1994),
administer estates, see Reed v. Reed, 404 U.S. 71, 76
(1971), or learn as military cadets, see United States
v. Virginia, 518 U.S. 515, 557-58 (1996). A court
would no longer say, as a Supreme Court Justice did
over 100 years ago, that a woman did not have a right
to practice law because “the civil law, as well as
nature herself, has always recognized a wide
difference in the respective spheres and destinies of
man and woman.... This is the law of the Creator....
[T]he rules of civil society must be adapted to the
general constitution of things....” Bradwell v. The
State, 83 U.S. 130, 141-42 (1872) (Bradley, J.,
concurring). We revisit that bygone era, and thwart

45a
the very protections the Equal Rights Amendment
was enacted to provide, if we allow stereotypical
notions about women’s bodies to alter our analysis of
the straightforward question of whether Laconia’s
ordinance classifies on the basis of gender. This is
precisely why the New Hampshire Constitution
requires that legislation which discriminates on the
basis of a suspect classification be subject to strict
scrutiny.
The law has often been used to perpetuate
discrimination based on “public sensibilities” or
“common understandings” about individuals on the
basis
of
immutable
characteristics—however
misinformed or ill-motivated those understandings
might be. “One of the most important purposes to be
served by the Equal Protection Clause is to ensure
that ‘public sensibilities’ grounded in prejudice and
unexamined stereotypes do not become enshrined as
part of the official policy of government.” People v.
Santorelli, 600 N.E.2d 232, 236 (N.Y. 1992) (Titone,
J., concurring). “Thus, where ‘public sensibilities’
constitute the justification for a gender-based
classification, the fundamental question is whether
the particular ‘sensibility’ to be protected is, in fact, a
reflection of archaic prejudice or a manifestation of a
legitimate government objective.” Id. When the
majority takes judicial notice of a common moral
understanding about an immutable physical characteristic, and allows it to alter and lessen a constitutional guarantee, it erodes the protections the
Equal Rights Amendment was enacted to provide. We
see no principled reason why the majority’s approach
would not apply with equal force to other laws that
treat people differently “on account of race, creed,
color, sex or national origin.” N.H. CONST. pt. I, art.

46a
2. This is a significant change to New Hampshire’s
equal protection guarantee that gives us great pause.
As the United States Supreme Court has observed:
The point of carefully examining the interest
asserted by the government in support of a
[suspect] classification, and the evidence offered
to show that the classification is needed, is
precisely to distinguish legitimate from
illegitimate uses of [immutable characteristics]
in governmental decisionmaking.... [The fact
that] some cases may be difficult to classify [is]
all the more reason, in our view, to examine
[suspect] classifications carefully.... By requiring
strict scrutiny of [suspect] classifications, we
require courts to make sure that a governmental
classification based on [a suspect class] ... is
legitimate, before permitting unequal treatment
... to proceed.
Adarand, 515 U.S. at 228 (quotation omitted).
We now analyze Laconia’s ordinance under the
applicable standard of review, strict scrutiny, to
determine whether the State adduced sufficient
evidence to meet its exacting burden. We have no
choice but to conclude that it did not. During the
hearing on the petitioners’ motion to dismiss, the
State argued that equal protection is not strictly
applicable to this case, and that “the burden is on the
petitioner to show that [the ordinance] is
unconstitutional.... It’s not on the State.” In light of
the State’s position that the ordinance does not
trigger strict scrutiny, it is not surprising that the
State failed to introduce sufficient evidence to support
a finding that the ordinance is “necessary to serve a
compelling State interest,” Holbrook, 140 N.H. at 189,

47a
or that it is “narrowly tailored to meet that end.”
Cmty. Res., 154 N.H. at 759 (quotation omitted).
The ordinance’s stated purpose is to uphold and
support “public health, public safety, morals and
public order.” Laconia, N.H., Code of Ordinances ch.
180, art. I, §180-1 (1998). In the trial court, the City
asserted that because the defendants were topless,
they caused a “disturbance” which “has the potential
for violence.” The City also asserted that, because
people think of “female breasts in a sexualized
manner,” topless women may present other
beachgoers with “a mental health issue.” Turning to
the ordinance’s other stated purposes, “morals and
public order,” the City argued to the trial court that
women who do not cover their nipples act contrary to
“the City’s character” and “morals as determined by
the city council.”
However we, like the United States Supreme
Court, “have never held that moral disapproval,
without any other asserted state interest, is a
sufficient rationale under the Equal Protection
Clause to justify a law that discriminates among
groups of persons.” Lawrence v. Texas, 539 U.S. 558,
582 (2003) (O’Connor, J., concurring in the judgment).
Indeed, the State has not cited—nor are we aware
of—any case that holds that a government’s interest
in morality rises to the level of a compelling
government interest. “[T]he fact that the governing
majority in a State has traditionally viewed a
particular practice as immoral is not a sufficient
reason for upholding a law prohibiting the practice.”
Id. at 577 (quotation omitted) (majority opinion).
Accordingly, we do not conclude that the State has
met its burden of proving that the government’s
interests in morals and public order are, in fact,

48a
compelling. “Our obligation is to define the liberty of
all, not to mandate our own moral code.” Planned
Parenthood of Southern PA v. Casey, 505 U.S. 833,
850 (1992).
Even if we assume that the government’s asserted
interests are compelling, a review of the evidence
presented to the trial court establishes that the State
has not met its burden to prove that the ordinance is
necessary and narrowly tailored. See Holbrook, 140
N.H. at 189; Cmty. Res., 154 N.H. at 759. “Although
narrow tailoring does not require exhaustion of every
conceivable [gender]-neutral alternative, ... [t]he
reviewing court must ultimately be satisfied that no
workable [gender]-neutral alternatives” would suffice.
Fisher, 570 U.S. at 312 (quotation, citation, and
brackets omitted). Here, there is no evidence that the
City
of
Laconia
considered
gender-neutral
alternatives and the State has made no argument and
presented no evidence as to why gender-neutral
alternatives would not suffice. At oral argument the
State asserted that the ordinance was “fairly
narrowly tailored” because a woman need only “wear
pasties” including “pasties that look like nipples.”
However, it failed to explain why the ordinance was
necessary in the first place or why a less restrictive
ordinance, perhaps one more narrow in time or place,
would be insufficient. By the ordinance’s plain
language, it is perfectly lawful for a post-pubescent
female to wear pasties with tassels walking down
Laconia’s Main Street, even though a four-year-old
girl playing on the beach wearing only shorts, or an
adult woman sunbathing without a top in her own
back yard, engages in unlawful behavior if her
nipples are “visible to the public.” Laconia, N.H., Code
of Ordinances ch. 180, art. I, §180-4. Without

49a
evidence that gender-neutral or less restrictive
alternatives would be unworkable, we cannot
conclude that the State has met its burden to prove
that Laconia’s ordinance is necessary and narrowly
tailored to accomplish the government’s asserted
interests.
In sum, applying the strict scrutiny standard
required by Part I, Article 2, we conclude that the
State has not carried its burden to prove that its
asserted interests are compelling and that Laconia’s
ordinance is necessary and narrowly tailored. We
reach this conclusion after objectively applying strict
scrutiny as required by our precedent and Part I,
Article 2. In so concluding, we do not mean to imply
that all legislation that classifies on the basis of
gender would not survive the strict scrutiny test, nor
that Laconia’s ordinance might not have passed
constitutional muster had the State accepted that it
bore the burden of proof; rather, we find that the
State’s proof in this case falls far short of satisfying
strict scrutiny.
Although laws that classify on the basis of gender
are subject to strict scrutiny under the New
Hampshire Constitution, it does not follow that all
such laws will be invalidated by application of that
exacting standard. “The fact that strict scrutiny
applies says nothing about the ultimate validity of
any particular law; that determination is the job of
the court applying strict scrutiny.” Johnson v.
California, 543 U.S. 499, 515 (2005) (quotation
omitted). Therefore, if the State meets its burden to
demonstrate that a law that classifies on the basis of
gender is necessary and narrowly tailored to further a
compelling government interest, this court would
find—as have others—that such a law is

50a
constitutional. See People v. Carranza, No. B240799,
2013 WL 3866506, at *7-8 (Cal. Ct. App. July 24,
2013) (concluding that a sexual battery statute which
criminalized non-consensual touching of the breast of
a female, but not of a male, did not violate the state’s
constitutional equal protection guarantee when
analyzed under strict scrutiny because “there is a
compelling government interest in protecting females
from non-consensual touching of their breasts”);
Michael M. v. Superior Court of Sonoma Cty., 601
P.2d 572, 573-74 (Cal. 1979) (en banc), aff’d, 450 U.S.
464 (1981) (applying strict scrutiny and holding that
a statute which criminalized sexual intercourse with
a minor female, but not a male, classified by sex but
did not violate equal protection because the law was
“supported not by mere social convention but by the
immutable physiological fact that it is the female
exclusively who can become pregnant,” and the State
had a “compelling ... interest in minimizing both the
number of [teen] pregnancies and their disastrous
consequences”).
Finally, the majority concludes its equal protection
analysis by stating that we as a court should not
allow any feelings we may have as judges about the
ordinance to “lead us to forget our constitutional role”
because “‘[o]ur obligation’ is to interpret and apply
the law, ‘not to mandate our own moral code.’”
(Quoting Casey, 505 U.S. at 850.) The suggestion is
that we, as judges, should interpret and apply the
constitution as it exists, not as we think it ought to
exist. On this point, we agree. However, the
constitution—as it has existed for the past 45 years—
includes an Equal Rights Amendment: “Equality of
rights under the law shall not be denied or abridged
by this state on account of race, creed, color, sex or

51a
national origin.” N.H. CONST. pt. I, art. 2. Surely the
citizens thought they were accomplishing something
important when they changed the constitution. Our
“constitutional role” is, therefore, to interpret and
apply Part I, Article 2.
In service of that role, over four decades, we have
fashioned an analytical framework which subjects
laws that distinguish on the basis of gender to the
highest level of constitutional scrutiny: strict
scrutiny. See Holbrook, 140 N.H. at 189; Sandra H.,
150 N.H. at 637; LeClair, 137 N.H. at 222. However,
perhaps mindful of the State’s obvious failure to
present evidence sufficient to meet the exacting
burden of strict scrutiny in this case, the majority
strains to conclude that an ordinance that prohibits
women—but not men—from engaging in certain
behavior does not discriminate on the basis of sex, but
is, in fact, gender-neutral. Such an approach is not in
service of our constitutional role: it is an abdication of
it. Based upon the record before us, we conclude that
Laconia’s ordinance violates Part I, Article 2 of the
New Hampshire Constitution. We respectfully
dissent.

52a
APPENDIX B
BELKNAP, SS.

4TH CIRCUIT COURTDISTRICT DIVISION
LACONIA

STATE OF NEW HAMPSHIRE
V.
HEIDI LILLEY, KIA SINCLAIR, GINGER
PIERRO
DOCKET #450-2016-CR-1603, 1623, 1879
ORDER
The parties appeared October 14, 2016, with
counsel in response to the Defendants’ Motion to
Dismiss.
At issue is Laconia, NH Ordinances Chapter 180,
s. 4 (1998). The Ordinance defines “Nudity” and
prohibits “the showing of the female breast with less
than a fully opaque covering any part of the nipple...”
where the action occurs at “any public street, way,
alley, parking area, park, common, beach or other
property or public institution of the City.”
The basis of the prohibition was intended to
exclude ‘harmful secondary effects in places and
communities where it takes place- that is, crimes of
various types and the reduction of property values
wherein recreation and tourism have high profiles’.

53a
The Defendants argue that substantive Constitutional rights prohibit the legislating sanctions for the
Defendants’ conduct. The State asserts that the
legislature has empowered local municipalities
through RSA 41 with the authority to police the
activities which the entity finds detrimental to their
communities.
“But while general statutes must be enacted
by the legislature, it is plain the power to make
local regulations, having the force of law in
limited localities may be committed to other
bodies representing the people in their local
division, or to the people of those districts
themselves. Our whole system of local
government in cities, villages, counties and
towns, depends upon that distinction. The
practice has existed from the foundation of the
state, and has always been considered a
prominent feature in the American system of
government.” Marine Corps League v. Benoit,
96 NH 423; State v. Roger, 105 NH 366”, State
v. Grant, 107 NH 1, 3 (1965).
The present associated cases are reasonably,
similar factually to several cases that involved the
township of Gilford earlier. In that matter, the Court
reviewed the Defendants’ line of claims which are
analogously aligned in the present series of cases.
The Defendants argue that “(D)efendant’s(s’)
conduct involved expression and political speech and
has artistic value”. (Motion to Dismiss).

54a
•••••••••••••••••••••••••••••••••••••••••
Facts:
•••••••••••••••••••••••••••••••••••••••••
Gina Peirro [sic] testified that she went to Weirs
Beach to enjoy the day. She was topless and her
breasts were fully exposed. She was doing Yoga on
the beach. She asserted that she was not nude.
She described being violently harassed by other
beach goers. She testified that she bothered no one.
She described one woman with a 3 year old who was
not bothered by her dress. However, she described a
‘handful’ of individuals who were upset with the
display.
She acknowledged that there was a male photographing her as she exercised. There was no
identification, as to the connection or lack thereof, of
the photographer. She acknowledged that people were
staring at her as she exercised. She indicated that
there were children as well as elderly at the beach on
that date.
The Defendant Kia Sinclair testified that she had
joined the “Free the Nipple” movement in 2015. She
expressed concern for the public’s stigmatizing and
sexualizing the female breast. She believed that the
sexualization of the female breast, as if pornographic,
led to less women breast feeding their infants.
She described herself purposely exposing herself so
as to be arrested. She indicated that she was ‘publicly
protesting Ginger’s arrest’ for exposing her breasts.
She described arriving at the beach at the Weirs,
going swimming topless and then sunbathing on her
stomach. When the officer approached her and asked

55a
her to cover herself or she would be arrested, she
asked to be arrested.
Heidi Lilley testified to being involved in the “Free
the Nipple” movement since May 2015. She indicated
that she has attempted to change the public and
government’s view of the exposure of the female
breast. She indicated that she had appeared in front
of the City’s Council, the elected body that
administers the community. She indicated that she
had testified before the legislature and, specifically, a
House Committee, reviewing proposed legislation to
authorize communities to respond the Gilford
situation upon which the Court has been [sic]
previously ruled. She indicated that the NH
Legislature declined to pass such legislation.
She described supporting the other Defendant,
particularly, Ms. Pierro. She expressed concern for
the enforcement through arrest of Ms. Pierro who was
civilly protesting.
She indicated that she was not approached by
anyone. She acknowledged that she was aware of the
city statute and aware that her actions violated the
City Ordinance. She acknowledged activating social
media in her efforts to reverse the ordinance which
had been in effect since 1998.
The State called Sgt. Black who reported receiving
a number of complaints of ‘nude yoga’ on Weirs Beach
on May 28. He was examined as to his ability to
recognize the difference between the female and male
breast.
He testified to responding to the Weirs and,
particularly, the Endicott Parking Lot. He indicated

56a
that the response did not call for emergency lights or
sirens.
He observed numerous families on the beach. He
observed a topless female performing yoga on a beach
towel and a male photographing her. He was able to
identify the female. He indicated that he assigned
Officer Callahan [sic] to assist him.
He reported his observations as to the state of
clothing worn by the Defendants as well as the
activities of the various Defendants. The officer noted
his observations as to the surrounding environment
on the date of the Defendants’ alleged activities.
Officer Callahan [sic] also testified as to her
response to the area and interaction with the
Defendants and others on the beach on that date.
Sandra Smith, who is Easter Seals chaperone of
disabled clients, and Ian Davis, a citizen enjoying the
day at the beach with his family, testified as to their
observations, concerns, and reservations as to the
Defendants’ actions that day.
•••••••••••••••••••••••••••••••••••••••••
Equal Protection:
The Defendants argue that their appearance
topless as alleged in the complaints were
“enjoyed’(enjoined) from the value of the right
afforded to males under the town(city) ordinance, but
also engaged in promoting an idea and message.”
(Defendants’ Motion to Dismiss.)
The Defendants’ [sic] argue that their prosecutions,
based upon the alleged violations of their ‘due
process/equal protection clause of the US Constitution

57a
as well as Article I and Article 2 of the NH
Constitution’, are impermissible.
Arguing the ordinance’s violation of their equal
protection expectations by ordaining a gender/sex
based regulation and, therefore, gender discrimination, the Defendants urge that the Court must
apply Strict Scrutiny standard of review, the highest
and strictest standard of review of legislation in
Judicial Review. In doing so, the Defendants would be
arguing that, if the Court finds a violation of the
Defendants’ equal protection guarantees, the Court
must require the State to establish a Compelling
Interest in the regulation.
The Court must, first, find that the ordinance
violates the right of Equal Protection, that is, that all
persons similarly situated are to be treated equally.
In the present matter, the ordinance ordains that all
women who wish to be, present in “public place”
which includes “(a)ny public street, way, alley,
parking area, park, common, beach or other property
or public institution of the City” must properly
clothed. (Emphasis added.)
The Court finds that the regulatory powers of the
city are designated in RSA 47:17, XIII, in regulating
“times and place of bathing and swimming in... the
water of the city and the clothing to be worn by
bathers and swimmers”. That authorizing legislation
is consistent with the cited, Judicial recognition of
State v. Grant and its progenies. The Court finds
that RSA 47:17, XIII is only prohibited when it is
“repugnant to the constitution and law of the state”.
Dover News, Inc. v. City of Dover, 117 NH 1066,
1069 (1977).

58a
The Defendants’ [sic] urge the Court adopt a
continuation of its Gilford ruling as the legislature
has recently declined to remedially address what was
perceived as flawed Judicial ruling. Analogously,
Dover News, Inc. cited the failure to enact “is not
legislative action in this area...” Dover, 1069.
This subject ordinance creates no violation of the
Equal Protection clause as it treats all females
equally. There is, albeit, an omission of males to the
ordinance; however, the ordinance on its face creates
no classification as to the female body. The Court
finds that the proper standard of review is
intermediate. The Court finds that the governmental
regulation is well established by case law and
legislative empowerment of municipalities.
“Protecting the public sensibilities is an
important government interest based on an
indisputable difference between the sexes.
(Which the Defendants argued was not
indisputable.) Further, the prohibition against
females baring their breasts in public, although
not offensive to everyone, as shown by the
testimony of all three witnesses in this cases,
[sic] is still seen by society, as unpalatable.
Therefore, the ordinance does not violate the
Equal Protection Clause of the Fourteenth
Amendment.
“We agree. Restrictions on exposure of the
female breast are supported by the important
governmental interest in safeguarding the
public’s moral sensibilities, and this ordinance is
substantially related to that interest. Hence, the
ordinance satisfies both the deferral [sic] and
state tests for equal protection.

59a
A gender-based distinction challenged under
the Equal Protection Clause of the United States
Constitution is gauged by the so-called “intermediate level of scrutiny: the distinction must be
justified by an important governmental interest
that is substantially accomplished by the
challenged discriminatory means. United States
v. Morrison, 529 US 598, 620 (2000)...” State of
New Jersey v. Arlene E. Vogt 775 A.2d. 551,
557 (2001)
The ordinance does not limit the use of the public
accommodation by discriminating against individual
[sic] by gender thereby restricting the access of the
public property. Franklin Lodge of Elks v. Sally
Marcoux 149 NH 581, 587 (2003). The ordinance
prohibits conduct at that public accommodation. That
regulation has been found to be validated by the
statutory authorization.
Free Speech/Expression/Artistic Expression:
“It is established, of course, that the 14th
Amendment, is made applicable to the State’s 1st
Amendment guaranteed of free speech.” [sic]
Douglas v. City of Jeannette 319 US 157, 162
(1943)
The Defendants argue that their rights to the
freedom of their expression are being violated. The
Defendants argue that their appearance topless in
public in the manner alleged constituted action of
expressions. [sic] They further argue that such action
was intended to “demonstrate to others her (their)
political viewpoint and message that the female is not
a sexual object.” (Defendant’s Motion to Dismiss).

60a
The Defendants testified that they were seeking
the normalization of the human body.
“As a general rule, in such a forum, the government
may not selectively...shield the public from some
kinds of speech on the ground that they are more
offensive than others...” “The plain, if at times,
disquieting truth is that in our pluralistic society,
constantly proliferating new and ingenious forms of
expression, ‘we are inescapably captive audiences
from [sic] many purposes.” Erznoznik v. City of
Jackson-ville, 422 US 205, 209-210 (1975). “No one
would suggest that the First Amendment permits
nudity in public places.’” Erzoznik, supra 211.
In the present cases, the Defendants’ actions are
being presented in ‘pubic [sic] areas’ as defined by the
ordinance.
The Defendants further argue that their actions are
protected as ‘artistic endeavors’ as articulated in the
Supreme Court’s protection of the musical Hair.
“(I)nvariably, the Court has been obliged to
condemn systems in which the exercise of such
authority was not bounded by precise and clear
standards. The reasoning has been, simply, that
the danger of censorship and of abridgement of
our precious First Amendment freedoms, [is] too
great where officials have unbridled discretion
over a forum’s use. Our distaste for censorship—
reflecting the natural distant [sic] of a free
people—is
deep
written
in
our
law.”
Southeastern Promotions Ltd . v. Conrad,
420 US 546, 554 (1975).
In Conrad, the production was disputing the
municipality prohibiting and/or limiting access to

61a
municipally owned locales was, in actuality, an act of
prior restraint. In the present case, the Defendants
are not being prohibited from using the public
property but in manner in which their
demonstration is actioned. [sic] “(T)he basic principles
of freedom of speech and the press, like the First
Amendment’s command, do not vary. Those
principles, as they have frequently been enunciated
by this Court, make freedom of expression the rule.”
Joseph Burstyn, Inc. v. Wilson, 343 US 495, 503
(1952)
In the present ordinance, there is no evidence that
the ordinance inhibited the effectiveness of their
ability to express their opinion—there is no
prohibition to where they might express their
opinions. Their conduct was restricted but they were
not prohibited from lobbying on the beach or with
beach goers as to their agenda. The ordinance “leaves
open ample alternative channels for communications...” Clark v. Community for Creative
Nonviolence 468 US 288, 293 (1984) cited in
McCullen v. Coakley, 12-1168, June 26, 2014.
The ordinance does not attack the content of the
message and thereby restrict the expressions of the
Defendants. The ordinance is not content based but is
conduct based which distinguishes the reach and the
prohibitions and which defines the ordinance’s
relationship between the Defendants’ Constitutional
rights and the validity to protecting public sensibilities.
The Court further anticipates, though not
articulated, the Defendants’ argument that Southeastern establishes the artistic value of the female
nipple. The argument is misplaced to Conrad as the

62a
case addresses the municipality’s decision-making
seeded [sic] in prior restraint in restricting the public
forum in which the performance is allowed and,
therefore, confines the free exercise of expression and
not the content as artistic, and therefore expressive
value.
In the present case, the prohibition of the exposure
of the female nipple is found by the Court not to
restrict impermissibly the Defendants’ free speech.
The Court finds that the ordinance is not
impermissibly restrictive.
The Defendants’ argument that there are alternative venues for those who object to the Defendants’
crusade is also without merit. The area of prohibition
is a public facility. Said locale is defined by statute,
presumptively, due to the geographically limited
nature of access to the lake. Further, the presence of
children is valid consideration for the cited ‘protection
of public sensibilities’.
Conversely, there are ample alternatives for the
Defendants to promote their views on the ordinance.
Further, not included within the Defendants’
argument per se is an implied argument that there is
violation of the Defendants’ right of association under
the First Amendment. “The plaintiffs are not, after
all, prevented from advocating the concept of nude
sunbathing (toplessness). I conclude, therefore nude
(as defined by the ordinance) sunbathing is not
constitutionally protected activity.” South Florida
Free Beaches v. City of Miami 548 F. Supp. 53, 57
(1982).” In short, while nudity in the privacy of one’s
own property and nudity in the context of artistic
expression may be protected, it seems clear that nude
sunbathing on a public beach is not a right of

63a
Constitutional dimensions.” New England Naturalist Association Inc. v. Howard Larsen, et al.,
692 F.Supp. 75, 79 (1988)
Preemption:
For reasons cited above, the Court, as indicated in
the case law cited above, finds that the subject
ordinance is neither invalidated nor repugnant by
legislative regulatory preemption in RSA 645:1. The
Court finds that the validity of the regulatory action
in the present is clearer than the former order of the
Court in Gilford.
Motion to Dismiss is denied.
Date: November 20, 2016

/s/
Judge James M. Carroll

64a
APPENDIX C

65a

66a
APPENDIX D

67a

68a
APPENDIX E

69a

70a
APPENDIX F
United States Constitution
Amendment XIV, §1, cl.2
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the
laws.

N.H. RSA 132:10-d
Breast-feeding. – Breast-feeding a child does
not constitute an act of indecent exposure and to
restrict or limit the right of a mother to breast-feed
her child is discriminatory.

71a
Laconia, N.H., Code of Ordinances ch. 180,
article I, §§180-1 to 180-6 (1998)
Chapter 180. Public Indecency
Article I. Indecent Exposure
[Adopted 11-23-1998 by Ord. No. 10.98.10]
§180-1. Purpose and findings.
This article is adopted by the City of Laconia for
the purpose of upholding and supporting public
health, public safety, morals and public order. The
conduct prohibited hereunder is deemed to be
contrary to the societal interest in order and morality.
In addition, the prohibited conduct has been widely
found and is deemed to have harmful secondary
effects in places and communities where it takes
place, including crimes of various types and reduction
of property values, not only in the immediate vicinity,
but on a community-wide basis.
§180-2. Prohibited conduct.
A. From and after the effective date of this article,
it shall be unlawful for any person to knowingly or
intentionally, in a public place:
(1) Engage in sexual intercourse;
(2) Engage in deviate sexual conduct;
(3) Appear in a state of nudity; or
(4) Fondle the person’s genitals or the genitals of
another person.
(5) Urinate, defecate or masturbate in a public
place which can be viewed by any person.
[Added 5-14-2001 by Ord. No. 01.2001.01]

72a
B. From and after the effective date of this article,
it shall be unlawful for any person to knowingly or
intentionally aid, induce or cause another person to
commit any act prohibited under Subsection A, even if
the other person:
(1) Has not been prosecuted for the offense;
(2) Has not been convicted of the offense;
(3) Has been acquitted of the offense; or
(4) Has not engaged in the prohibited conduct.
§180-3. Exemption.
A. Notwithstanding the foregoing, the conduct
prohibited hereunder shall not include conduct
permitted as part of the operation of a sexuallyoriented business pursuant to § 235-42 of the City of
Laconia Zoning Ordinance, provided that such
sexually-oriented business has been lawfully
established and possesses all necessary land use
approvals and other required permits at the time the
conduct occurs.
B. Nothing herein is intended nor shall it be
construed to alter, affect, enlarge, expand or diminish
the range of conduct permitted as part of the
operation of a sexually-oriented business that has
been lawfully established pursuant to §235-42 of the
City of Laconia Zoning Ordinance.
§180-4. Definitions.
For the purpose of this article, the following words
shall be defined as follows:
NUDITY
The showing of the human male or female
genitals, pubic area or buttocks with less than a

73a
fully opaque covering, or the showing of the
female breast with less than a fully opaque
covering of any part of the nipple.
PUBLIC PLACE
A. Any public street, way, alley, parking area,
park, common, beach or other property or public
institution of the City.
B. Any outdoor location, whether publicly or
privately owned, which is visible to the public at
the time the prohibited conduct occurs.
C. Any area within any theater, hall,
restaurant, food service establishment, shopping
mall, business, place of public accommodation or
other private property which is generally
frequented by the public.
§180-5. Violations and penalties.
Any person who violates this article shall be fined
$250 for the first offense, $500 for the second offense
and $1,000 for the third and each successive offense.
Each act of conduct prohibited under this article,
whether occurring at separate times on the same day,
or on different days, shall constitute a separate
violation.
§180-6. Intent; construal of provisions.
A. It is specifically the intention of this article to
prohibit as broad a range of the defined conduct as
may be lawfully accomplished. To that end, the
determination by a court of competent jurisdiction
that a given application of this article to certain
specific conduct is beyond the authority of the City
shall not affect the validity of other applications of the
article that may be lawfully enforced.

74a
B. To the extent that any prohibition under this
article is declared overbroad by a court of competent
jurisdiction, it is the declared intention to apply the
article in a constitutionally permissible manner.

75a
APPENDIX G
THE STATE OF NEW HAMPSHIRE
LACONIA DISTRICT COURT
STATE OF NEW HAMPSHIRE
V.
HEIDI LILLEY, KIA SINCLAIR, GINGER PIERRO
16-CR,
DEFENDANT’S MOTION TO DISMISS
NOW COMES the defendant, and requests the city
ordinance complaint be dismissed and the town
ordinance be declared unlawful/unconstitutional.
FACTS
1. Defendants1 are charged with a violation of City of
Laconia
Ordinance
180-2
Public
Indecency:
Prohibited conduct. Presumably, the charge alleges
defendant appeared in a state of nudity which under
City of Laconia Ordinance Sec. 180-4 is defined as:
“The showing of the human male or female genitals,
pubic area or buttocks with less than a fully opaque
covering, or the showing of the female breast with
less than a fully opaque covering of any part of the
nipple.”
1

Heidi Lilley, Kia Sinclair, and Ginger Pierro are all charged
with the same City ordinance and the same motion has been
filed in each case.

76a

2. Defendant was cited due to her nipple and breast
being exposed in public. There was no exposure of
genitalia and defendant at all times had an
appropriate layer of clothing in that regard. There is
no state law which prohibits adult females, or males.
from being in public with their nipples or
breasts/chest exposed.
3. Defendant belongs to/supports the “Free the
Nipple” Movement.
“Free The Nipple is a film, an equality
movement, and a mission to empower women
across the world. We stand against female
oppression and censorship, both in the United
States and around the globe. Today, in the USA
it is effectively ILLEGAL for a woman to be
topless, breastfeeding included, in 35 states. In
less tolerant places like Louisiana, an exposed
nipple can take a woman to jail for up to three
years and cost $2,500 in fines. Even in New York
City, which legalized public toplessness in 1992,
the NYPD continues to arrest women. We’re
working to change these inequalities through
film, social media, and a grassroots campaign.
THE MOVEMENT
Free The Nipple has become a “real life” equality
movement that’s sparked a national dialogue.
Famous graffiti artists, groups of dedicated
women, and influencers such as Miley Cyrus, Liv
Tyler, and Lena Dunham have shown public
support which garnered international press and
created a viral #FreeTheNipple campaign. The
issues we’re addressing are equal rights for men

77a
and women, a more balanced system of
censorship, and legal rights for all women to
breastfeed in public.
[* * *]
http://freethenipple.com/what-is-free-the-nipple/
4. The Free the Nipple movement in New Hampshire
has
received
significant
media
coverage.2
Additionally, the legislature has addressed this issue
twice in the past term. HB 1525-FN had a unanimous
recommend-dation by the committee to be inexpedient
to legislate (kill the bill), and was determined
inexpedient to legislate by the House. That bill’s text
would have amended RSA 645:I(b) Public decency to
include: Such person purposely exposes his or her
2http://www.boston.com/news/local/new-

hampshire/2015/08/23/rain-can-stop-free-the-nipple-dayhampton-beach/lR1rtxy2OhlqiKXXRplZHO/story.html
http://www.necn.com/news/new-england/Free-the-NippleMovement-Brings-Topless-Protest-to-Hampton-Beach322641592.html
http://www.seacoastonline.com/article/20150730/NEWS/15073
9852
http://www.nh1.com/news/it-s-just-boobs-60-plus-go-toplessfor-free-the-nipple-event-at-hampton-beach
http://www.unionleader.com/Free-the-Nipple-movement-getsday-in-court
http://www.huffingtonpost.com/entry/new-hampshiretopless_us_56e07c3ee4b065e2e3d485cc
http://www.seacoastonline.com/news/20160825/go-topless-dayreturns-to-hampton-beach-sunday
http://www.nh1.com/news/3-free-the-nipple-activists-arrestedover-the-weekend-for-topless-sunbathing-at-weirs-beach/

78a
anus or, if a woman, purposely exposes the areola or
nipple of her breast or breasts in a public place and in
the presence of another person with reckless
disregard for whether a reasonable person would be
offended or alarmed by such act.
SB 347 was also deemed inexpedient to legislate by
the House. That bill’s text was:
AN ACT enabling the state and municipalities to
adopt laws and ordinances regulating attire on
state and municipal property.
Be it Enacted by the Senate and House of
Representatives in General Court convened:
1 New Subparagraph; Powers and Duties of
Towns; Power to Make Bylaws. Amend RSA
31:39, I by inserting after subparagraph (p)
the following new subparagraph:
(q) Regulating the times and places of
bathing, sunbathing, and swimming in
municipal parks, beaches, pools, or other
municipal properties, and the clothing to be
worn
by
users.
Nothing
in
this
subparagraph shall authorize a town to
prohibit breastfeeding in such town
properties.
2 Powers of City Councils; Bylaws and
Ordinances; Power to Make Bylaws. Amend
RSA 47:17, XIlI to read as follows:
XIII. Vagrants, Obscene Conduct. To
restrain and punish vagrants, mendicants,
street beggars, strolling musicians, and

79a
common prostitutes, and all kinds of
immoral and obscene conduct, and to
regulate the times and places of bathing,
sunbathing, and swimming in the canals,
rivers and other waters of the city, or other
city properties, and the clothing to be worn
by [bathers and swimmers] users. Nothing
in this paragraph shall authorize a city to
prohibit
breastfeeding
in
such
city
properties.
3 New Subparagraph; Department of
Resources and Economic Development;
Rulemaking. Amend RSA 12-A:2-c, II by
inserting after subparagraph (f) the
following new subparagraph:
(g) The times and places of bathing,
sunbathing , and swimming in state water s
or in state parks, forests, or other state
recreational areas, and the clothing to be
worn
by
users.
Nothing
in
this
subparagraph shall prohibit breastfeeding in
such state recreational areas.
4 Effective Date. This act shall take effect 60
days after its passage.”
Part of the media coverage and subsequent attempt
at legislation was a result of this court’s Order
allowing Defendant’s conduct under the applicable
Gilford Beach Ordinance: Docket = 2015-CR-2801.
5. Defendant’s conduct involved expression and
political speech and has artistic value. By appearing
topless, Defendant not only enjoyed the value of the

80a
right afforded to males under the town ordinance, but
also engaged in promoting an idea and message.
ARGUMENT
I. THE TOWN ORDINANCE IS UNCONSTITUTIONAL
A: The city ordinance violates the due process/equal
protection clause of the United States Constitution as
well as Art l. and Art 2. of the N.H. Constitution.
6. Article 1. [Equality of Men; Origin and Object
of Government.] All men are born equally free and
independent; therefore, all government of right
originates from the people, is founded in consent, and
instituted for the general good.
[Art.] 2. [Natural Rights.] All men have certain
natural, essential, and inherent rights—among which
are, the enjoying and defending life and liberty;
acquiring, possessing, and protecting, property; and,
in a word, of seeking and obtaining happiness.
Equality of rights under the law shall not be denied
or abridged by this state on account of race, creed,
color, sex or national origin.”
7. The town ordinance in question applies solely to
“the showing of the female breast with less than a
fully opaque covering of any part of the nipple”
(Emphasis added). As the ordinance discriminates
based upon sex/gender, it is subject to strict scrutiny.
“In considering an equal protection challenge
under our State Constitution, “we must first
determine the appropriate standard of review:
strict scrutiny; fair and substantial relationship;

81a
or rational basis.” Boehner v. State, 122 N.H. 79,
83, 441 A.2d 1146, 1148 (1982). Equal protection
under the law does not forbid classifications, see
2 B. SCHWARTZ. RIGHTS OF THE PERSON
§471, at 496-97 (1968), but requires us to
examine the individual rights affected and the
purpose and scope of the State-created
classifications. See Allgeyer, v. Lincoln, 125 N.H.
503, 508-09 , 484 A.2d 1079, 1082-83 (1984).
We apply the strict scrutiny test, in which the
government must show a compelling State
interest in order for its actions to be valid, when
the classification involves a suspect class based
on “race, creed, color, gender, national origin, or
legitimacy,” State v. LaPorte, 134 N.H. 73, 76,
587 A.2d 1237, 1239 (1991) (quotation omitted),
or affects a fundamental right”. LeClair v.
LeClair, 1 37 NH 213, 222 - NH: Supreme Court
1993
B: The ordinance in question violates defendant’s
rights under the 1st amendment of the federal
constitution and Art 22 of the State Constitution.
8. “[Art.] 22. [Free Speech; Liberty of the Press.]
Free speech and liberty of the press are essential to
the security of freedom in a state: They ought,
therefore, to be inviolably preserved.”
9. By appearing topless in public, defendant engaged
in speech and expression deserving of constitutional
protection. Defendant was not just utilizing her right
to be topless under state law, but to demonstrate to
others her political viewpoint and message that the
female nipple is not a sexual object. Defendant’s
message further seeks to bring attention to gender

82a
equality and how the female nipple is treated
different than the male nipple both legally and for
social norms. Defendant’s message seeks to continue
the advancement of women’s rights and to have the
conduct of being topless be accepted and normalized.
Artistic endeavors involving nudity as part of their
expression such as the musical Hair have been
accorded First Amendment protection. Southeastern
Promotions, Ltd. v. Conrad, 420 U.S. 546, 550, 557558, 43 l. Ed. 2d 448, 95 S. Ct 1239 (1975).
10. This message/movement was likely recognized
given the significant media coverage as well as
through any discussions defendant may have had
with the City of Laconia and their police department.
11. The expression of the female nipple also contains
artistic value and accordingly is not considered
obscene. To be considered obscene and outside of first
amendment protections, “the Government must prove
that the work, taken as a whole, appeals to the
prurient interest, is patently offensive in light of
community standards, and lacks serious literary.
artistic, political, or scientific value.” Ashcroft, 535
U.S. at 246, 122 S.Ct. 1389 (citing Miller, 413 U.S. at
24, 93 S.Ct. 2607).
12. “The First Amendment commands, ‘Congress
shall make no law ... abridging the freedom of
speech.’” Ashcroft, 535 U.S. at 244, 122 S.Ct. 1389.
“As a general principle, the First Amendment bars
the government from dictating what we see or read or
speak or hear.” Id. at 245, 122 S.Ct. 1389. “[A] law
imposing criminal penalties on protected speech is a
stark example of speech suppression.” Id. at 244, 122
S.Ct. 1389. If a statute regulates speech based upon
its content, application of the statute is subject to

83a
strict
scrutiny.
United
States
v.
Playboy
Entertainment Group, Inc., 529 U.S. 803, 813, 120
S.Ct. 1878, 146 L.Ed.2d 865 (2000); see Sable
Communications of Cal., Inc. v. FCC, 492 U.S. 115,
126, 109 S.Ct. 2829, 106 L.Ed.2d 93 (1989). This
places the burden upon the State to prove that the
statute is “narrowly tailored to promote a compelling
[state] interest. If a less restrictive alternative would
serve the [state]’s purpose, the legislature must use
that alternative.” Playboy Entertainment Group, 529
U.S. at 813, 120 S.Ct. 1878 (citation omitted); State v.
Zidel, 940 A.2d 255 - NH: Supreme Court 2008
13. Exercising free speech and free expression are
fundamental rights. Petition of Brooks, 140 NH 813 NH: Supreme Court 1996.
C: The ordinance fails strict scrutiny and is therefore
unconstitutional
14. Strict scrutiny is the highest burden and level of
scrutiny that a law can face. This burden lies upon
the State to meet.
“Strict scrutiny is the correct standard to apply
when determining the constitutionality of a
statute that touches upon a fundamental right.
In re Sandra H., 150 N.H. 634, 638 (2004).
[* * *]
In this sense a strict scrutiny analysis under the
State Constitution is much like the “narrowly
tailored” analysis required under the Federal
Constitution. See id.; Washington v. Glucksberg,
521 U.S. 702, 721 (1997).” In the Matter of RA &
JM, 153 NH 82, 95-96 - NH: Supreme Court
2005”

84a

15. Strict scrutiny requires that legislation be
necessary to achieve a compelling governmental
interest, reasonably related to its objective, and not
unduly restrictive. Seabrook, 138 N.H. at 179.
Intermediate and strict scrutiny also contain some
type of least-restrictive-means inquiry, although the
level of “fit” between the legislation’s means and ends
differs under each test. Id. (“requirement that
regulations be neither unduly restrictive nor
unreasonable [under State strict scrutiny test] is
similar to the federal ‘narrowly tailored requirement’”); City of Dover v. Imperial Cas. & Indemn. Co.,
133 N.H. 109, 126 (1990) (Souter, J., dissenting)
(discussing over- and underinclusive nature of statute
to determine whether it was “fairly and substantially
related” to objective under intermediate scrutiny).
Boulders at Strafford v. Town of Strafford, 153 NH
633, 640-641 - NH: Supreme Court 2006
16. To satisfy strict scrutiny, the ordinance must be
the least restrictive means available. If a less
restrictive alternative would serve the [state]’s
purpose, the legislature must use that alternative.”
Playboy Entertainment Group, 529 U.S. at 813, 120
S.Ct. 1878 (citation omitted).” State v. Zidel, 940 A 2d
255 - NH: Supreme Court 2008.
The State cannot show the ordinance is necessary to
achieve a compelling State interest, is narrowly
tailored/ not unduly restrictive nor unreasonable, and
is the least restrictive means. One less restrictive
means available would be to prohibit everyone from
showing their nipple and not just females. If the State
is concerned about the harm caused by the display of
a nipple they could likely constitutionally ban the

85a
display of all nipples (this still might not be allowed
under N.H. Home rule, however).
Even under a lesser standard, one court has held the
judgment overturning the dismissal of information
charging defendants with public exposure of their
breasts was reversed because the People failed to
demonstrate that discriminatory effect of statute,
which was directed only at females, served an
important governmental interest or had a rational
basis, and because defendants’ conduct was neither
commercial nor lewd. People v. Santorelli Court of
Appeals of New York 80 N.Y.2d 875 (1992); 600
N.E.2d 232; 587 N.Y.S.2d 601; 1992 N.Y. LEXIS 1609
II. THE TOWN ORDINANCE IS UNLAWFUL AS
THE TOWN LACKS AUTHORITY FOR THE
ORDINANCE
17. The City of Laconia Ordinance 180-1 Purpose and
findings holds: “This article is adopted by the City of
Laconia for the purpose of upholding and supporting
public health, public safety, morals and public order.
The conduct prohibited hereunder is deemed to be
contrary to the societal interest in order and morality.
In addition, the prohibited conduct has been widely
found and is deemed to have harmful secondary
effects in places and communities where it takes
place, including crimes of various types and reduction
of property values, not only in the immediate vicinity,
but on a community-wide basis.” Since Laconia is
relying on this language to set out the intent of their
ordinance, it should be their burden show this
regulation actually meets the purposes and findings
under their ordinance.

86a
18. Under state law, it is legal for women to be
topless/display their nipple in public.
[* * *]
19. There is no State law criminalizing the public
display of the female nipple or breast. See “N.H. RSA
645:1 Indecent Exposure and Lewdness. –
I. A person is guilty of a misdemeanor if such person
fornicates, exposes his or her genitals, or performs
any other act of gross lewdness under circumstances
·which he or she should know will likely cause affront
or alarm.” Further, subsequent legislative attempts to
broaden this statute or to allow the towns and cities
authority to regulate this conduct have been defeated.
[* * *]
CONCLUSION
The language in the town ordinance regulating the
public display of a “female breast” is unlawful as it
treats females differently than males and is an equal
protection violation. It also violates first amendment
protections. The ordinance is outside the scope of laws
that the town is permitted to adopt. The ordinance
violates RSA 354-A.
WHEREFORE, the defendant respectfully requests
that this Court:
a: Dismiss the charge;
b: Declare City of Laconia ordinance Sec. 180-2
unlawful/unconstitutional in regard to the phrase
“female breast”.

87a
c: Issue an injunction/enjoin the town from bringing
any further complaints against females for being
topless in public
/Daniel Hynes/ __________________
Daniel Hynes
250 Commercial St. #3020
Manchester, NH 03101
(603) 674-5183
Bar ID # 17708
AFFIDAVIT
I, Daniel Hynes, do state under the pains and
penalties of perjury that the facts relied on in this
motion are true and accurate to the best of my
information and belief.
/Daniel Hynes/ __________________
Daniel Hynes

88a
APPENDIX H
STATE OF NEW HAMPSHIRE
4TH CIRCUIT COURT - DISTRICT DIVISION –
LACONIA
STATE OF NEW
HAMPSHIRE,
Complainant,

)
)
)
)
vs.
)
)
HEIDI C. LILLEY,
)
Defendant.
)
________________________)
)
STATE OF NEW
)
HAMPSHIRE,
)
Complainant,
)
)
vs.
)
)
KIA SINCLAIR,
)
Defendant.
)
________________________)
)
STATE OF NEW
)
HAMPSHIRE,
)
Complainant,
)
)
vs.
)
)
GINGER M. PIERRO,
)
Defendant.
)
________________________)

Supreme Court
Case No.
2017-0116
District Division
Case No.
450-2016-CR-01603
450-2016-CR-01623
450-2016-CR-01879
Laconia,
New Hampshire
October 14, 2016
8:27 a.m.

MOTION TO DISMISS
BEFORE THE HONORABLE JAMES M. CARROLL
JUDGE OF THE CIRCUIT COURT - DISTRICT
DIVISION

89a
APPEARANCES:
For the State:

James M. Sawyer, Esq.
LACONIA POLICE
DEPARTMENT
125 New Salem Street
Laconia, NH 03246

For the Defendant: Daniel Hynes, Esq.
2050 Commercial Street
Suite 3020
Manchester, NH 03101
[* * *]
(Proceedings commence at 8:27 a.m.)
THE COURT: All right. We ready to proceed?
MR. HYNES: Yes, Your Honor. And so we filed a
motion to dismiss. They filed an objection.
THE COURT: Yeah.
MR. HYNES: And if the Court thinks it’s in the
interest of justice, we would look to I guess address
that motion and then proceed to trial with the
testimony. Obviously carrying over, I think, that’s
the State’s position as well, but we will leave it up to
the Court.
THE COURT: Well, I’m going to reserve the
decision on the motions to dismiss. We’re going to
proceed with the evidence and in the final offering to
the Court, you can argue your motions.
MR. SAWYER: Judge, procedurally, I know we
require two evidentiary hearings.
THE COURT: What?

90a
MR. SAWYER: What I—the State would like to do
is to hear the motion and I think Attorney Hynes
would like the evidence on the motion—on the
motions to—
THE COURT: Okay.
MR. SAWYER: —and then have a ruling on that
and if it favors the State and I think the parties
would stipulate that the evidence taking at the
motion hearing would be just used at the trial. So
there will be no second hearing, evidentiary hearing.
MR. HYNES: I guess or alternatively if Your Honor
wants to reserve judgment on that, I think the State’s
concern was possibly double jeopardy issues if Your
Honor proceeded through trial and then reached a
decision on that addressing the motion, depending on
how that might play out, could preclude the State
from dealing is my understanding.
MR. SAWYER: Yes.
THE COURT: Say that one more time.
MR. SAWYER: If jeopardy attaches on the case,
then unless we—we could actually take one defendant
and do, but if jeopardy—my understanding from the
attorney general is if jeopardy attaches on a case
there, it’s very difficult for them to appeal that case.
THE COURT: Uh-huh.
MR. SAWYER: Even on a legal issue.
THE COURT: Uh-huh.
MR. SAWYER: This may be separate. I haven’t
talked to him about this specific case, but in prior
cases, that’s been their position. This may be different
because it’s more of a constitutional issue.

91a
THE COURT: Right.
MR. SAWYER: But if this was not a constitutional
type, you know, first amendment, equal protection,
they would definitely not appeal it because jeopardy’s
attached. There’d be no purpose. The issue is moot
relative to that defendant, you know, and it’s not an
overarching concern.
THE COURT: To me, it looks like a distinction
without a difference quite frankly. But if you wish to
present evidence which I don’t understand is any dis–
is dissimilar to the trial.
MR. SAWYER: It’s not going to be. It’s a really
procedural technicality—
THE COURT: Right.
MR. SAWYER: —is what it is. It’s just so jeopardy
does not attach.
THE COURT: That’s fine. You can reserve that
and we’ll proceed on the motions and it would be
defendant’s motion to dismiss. So is he going to
present evidence?
MR. HYNES: Yes, Your Honor, it would be I guess
substantially similar evidence to the trial. I guess at
that point though, we were looking to have the—I
mean I can—
THE COURT: All right. Let’s officially call this a
hearing on the motion to dismiss. So everybody’s
rights are guaranteed and protected. So all right.
So—
MR. HYNES: Yes, Your Honor.

92a
THE COURT: —it’s your motion. You proceed.
Attorney Hynes, you want to take a few minutes with
your clients?
MR. HYNES: Just so we can establish the order.
(Pause)
MR. HYNES: Your Honor, defense would call Kia
Sinclair.
THE COURT: Sure, come on up. Just be careful.
There’s sort of a ramp there and TV set and
everything.
THE BAILIFF: Come around this way. Remain
standing and raise your right hand.
KIA SINCLAIR, DEFENDANT, SWORN
THE BAILIFF: Have a seat, ma’am. State your
name and spell your last name.
THE WITNESS: Kia Sinclair, S-I-N-C-L-A-I-R.
COURT: Go ahead, Mr. Hynes.
DIRECT EXAMINATION
BY MR. HYNES:
Q And Kia, can you give us a little background
about your involvement with Free the Nipple?
A So I actually am one of the main people who
started the Free the Nipple movement here in New
Hampshire. It was last summer 2015 and basically
the reason I started it and become passionate about it
was because I had my first son in July of 2014 and I
breastfeed him. He’s two; I actually still nurse him.
And I realized that there was a very big stigma on
breastfeeding and you know women are asked to
cover up or leave, go in the bathrooms, and such.

93a
And long before I had ever heard of Free the
Nipple, I had already come to the conclusion that
because we hypersexualize breasts and specifically
the nipple of females and we censor them, we consider
them pornographic and taboo, that directly is what
results in that stigma and basically the idea is if we
say that nipples are harmful to children, it’s that
sentiment that, you know, causes that stigma and
also I think it’s a direct contribu—contributes to the
low breastfeeding rates that the United States has
compared to the rest of the world.
Q All right. Thank you. And in regards to this case,
were you arrested for appearing in Laconia with your
nipples exposed in public?
A Yes.
Q Okay. And so you don’t dispute that at all?
A No.
Q Okay. And what was your—
THE COURT: What doesn’t she dispute?
MR. HYNES: Sorry.
THE COURT: Whether or not she was arrested or
whether or not she was—didn’t have whatever you
want to say, appropriate clothing I guess.
MR. HYNES: All right.
THE COURT: What was—
THE WITNESS: I purposely engaged in civil
disobedience knowing that the City of Laconia has an
ordinance against the exposure of the female nipple
and areola.

94a
Q All right. And I’ll try to give you a little more
direct questions. And so in regard to that, you
appeared in public with your nipples exposed?
A Yes.
Q And what was your purpose or intent behind
doing so?
A On one hand, I–it’s a lifestyle choice that I
choose. I whenever I go to a beach or, you know, if it
suits me, I don’t wear a shirt and I don’t cover my
nipples. But in this specific incident, I was protesting
Ginger’s case where she had been arrested a few days
prior.
Q Okay. And is it your understanding that New
Hampshire state statute does not have any
prohibition on that conduct that you’re—
MR. SAWYER: Objection.
THE COURT: Yeah, calls for a legal.
MR. HYNES: All right.
BY MR. HYNES:
Q Have you been arrested elsewhere for this
conduct in New Hampshire?
A No.
MR. SAWYER: I’m going to object, Judge.
THE COURT: It’s not relevant.
MR. HYNES: It’s—
THE COURT: It’s not relevant whether or not
she’s got arrested.
BY MR. HYNES:

95a
Q Okay. So part of your purpose was protesting
Laconia’s ordinance?
A Yes.
Q All right.
A I’ve been to Laconia though before with my
nipples exposed and I hadn’t had any trouble.
Q All right. And did you have—did you come into
contact with anyone other than the police that day
while your nipples were exposed?
A No.
Q And where were you located?
A Weirs Beach.
Q Okay. And did anyone come up to you and
express their concern?
A No.
Q And in regards to your protest, were you—I
guess how were you—were you just there with your
nipples exposed or—
A Yeah, I was riding in the car, actually I didn’t
have a shirt on. I just has a skirt and when we got on
the beach, I immediately went swimming for a few
minutes and then when the police officers came, I was
actually laying on my stomach sunbathing.
Q Okay. And did the police have any discussion
with you?
A Sort of. I think there was a lot that was kind of
left unsaid.

96a
They just basically came right up and said we’re
here to tell you to cover up or we’re going to arrest
you.
Q All right. And what did you respond, if any, to
that?
A I said okay, I want you to arrest me.
Q All right. And on that particular day, do you
recall if you saw any men on a shirt (sic) with their
nipples exposed?
A Yes.
Q Or on the beach with their—thank you.
A Yes, I saw several. And when I was in the
cruiser, arrested, as we were driving to the station,
there was a man that was shirtless jogging down the
road.
Q All right. And do you feel you created any safety
hazard by engaging in your contact—conduct?
A No.
Q All right. Do you feel the health of the public
was endangered by your conduct?
A No.
MR. HYNES: Thank you. I don’t have any further
questions at this time.
THE COURT: Okay. Mr. Sawyer, any questions for
Ms. Sinclair?
MR. SAWYER: Just briefly.
CROSS-EXAMINATION
BY MR. SAWYER:

97a
Q Just briefly, this was on May 28th; is that
correct, that you were given the summons and—
A I believe so, yeah.
Q And you said you were topless without any
covering of your breast or nipples, correct?
A Yes.
Q You actually started your answers by talking
about how society views the female breast in a
sexualized manner.
A Yes.
Q You agree with that?
A Yes.
Q Okay. And you—but you disagree with that
premise. But you acknowledge that is an American
society specifically New Hampshire anyway that that
is—the female breast is sexualized?
A Yes, I compare it to how 80 years ago men—their
nipples were also sexualized and illegal.
Q You would agree that over the course of time,
people’s views change on different things?
A Yes. And that’s my goal is to change that
perception and it’s a slow going thing. But it won’t
happen overnight, but without any kind of victories or
being allowed to, it’ll never change.
MR. SAWYER: I have no further questions.
THE COURT: Okay. Mr. Hynes, any follow-up?
MR. HYNES: Briefly.
THE COURT: Sure.

98a
REDIRECT EXAMINATION
BY MR. HYNES:
Q Have you appeared in Laconia before with your
nipples covered but breasts otherwise exposed?
MR. SAWYER: Objection.
THE COURT: What’s the objection?
MR. SAWYER: It’s beyond the scope and I’m not
sure what it’s about.
MR. HYNES: I’m looking to address that the
statute covers specifically nipples as opposed to
female toplessness which I think are—
THE COURT: I’ll let him ask the question. What
was the question? I’m confused.
MR. HYNES: If you have appeared in Laconia with
your—without a shirt on with your nipples covered
but breasts otherwise exposed?
THE COURT: Gotcha.
THE WITNESS: Yes, I have.
BY MR. HYNES:
Q And were you arrested on that time?
A No.
MR. HYNES: Thank you. Nothing further.
THE COURT: Okay. Mr. Sawyer.
MR. SAWYER: Nothing further at this point,
Judge.
THE COURT: Okay. Thanks, Ms. Sinclair. You can
step down.

99a
THE WITNESS: Thank you.
THE COURT: Mr. Hynes.
MR. HYNES: Thank you. Your Honor, the defense
would call Ginger Pierro.
THE COURT: Okay.
BAILIFF: Just remain standing. Raise your right
hand.
GINGER PIERRO, DEFENDANT, SWORN
BAILIFF: Have a seat. For the record, state your
name and spell your last name please?
THE WITNESS: Ginger Pierro, P as in Peter, I-ER-R-O.
THE COURT: Mr. Hynes.
MR. HYNES: Thank you.
DIRECT EXAMINATION
BY MR. HYNES:
Q And Ginger, do you agree that you appeared in
Laconia with your nipples exposed on the date you
were arrested?
A Yes.
Q And what was your purpose or could you give
some background regarding that incident?
A Well, my purpose was to enjoy the beach.
Q Okay. And did you have any confrontations with
anyone at the beach that day?
A Yes.
Q And what occurred then?

100a
A I was violently harassed.
Q Okay. And was that by police or citizens or—
A Several citizens.
Q Okay. And—
A Their problem seemed to be not just—not that I
was topless, but that I was enjoying myself.
Q All right. And what do you mean by enjoying
yourself?
A I’m an athletic woman, I do yoga, these things
take a lot of work and they take space. I was asked if
I could do that in my bedroom and no, I can’t do yoga
on the beach in my bedroom.
Q All right. So you were performing yoga on the
beach that day?
A Yes.
Q All right. And besides your nipples being
exposed, did you have some form of bottoms on?
A Absolutely.
Q All right. So you weren’t completely nude at the
beach?
A No.
Q All right. And as far which I—do you identify as
female?
A Yes.
Q All right.
MR. HYNES: Thank you. Nothing further.
THE COURT: Mr. Sawyer.

101a
CROSS-EXAMINATION
BY MR. SAWYER:
Q You were performing topless yoga on the beach,
correct?
A Correct.
Q And your nipples were exposed?
A Yes.
Q And while you were doing that, you had a friend
taking photographs of you; is that correct?
A Yes.
Q And you would agree that you were a focus of
people surrounding you?
A Well, that’s their own prerogative, yes.
Q People are staring at you?
A They decided to, yes, they could stare at me.
Q Yeah, prior to—
A That they would—as they have that option to do
that to anybody else.
Q Yeah.
A I was—I believe I was providing very healthy
example of being a human.
Q And that—people were staring at you prior to
the police arriving on scene; is that fair to say?
A Yes.
Q And there were children of all ages there?
A There were.

102a
Q There—
A Including my own.
Q There were elderly people there?
A Yes.
Q And you heard Kia testify; is that—
A Now, I would like to say that not everybody was
harassing me. And in fact, the more people that did
harass me, the more support I got and people actually
came to defend me. I had one woman in particular
who had a very small child.
MR. SAWYER: I’m going to object.
THE COURT: There’s no question.
THE WITNESS: Okay, thank you.
THE COURT: Yep.
BY MR. SAWYER:
Q You heard Kia testify, right?
A Yes.
Q And would you agree with her that the society,
although you may not agree, would—views the naked
female breast including nipple in a sexualized
manner?
A I do agree with that. But what people think
should have very little to do with what actually ends
up somebody in a cage unless it’s going to hurt
somebody.
MR. SAWYER: I have no further questions.
THE COURT: Okay. Mr. Hynes.

103a
MR. HYNES: Briefly.
REDIRECT EXAMINATION
BY MR. HYNES:
Q So besides people confronting you, you said
people were defending you?
A Yes.
Q And what do you mean by that?
A I had one woman who seemed to move away
from me when I first began practicing with her threeyear-old daughter and when I was confronted by
three people who were yelling, screaming, swearing,
calling me names, she came up and said that this
woman is not bothering me at all and she’s being very
peaceful and that the swearing is very inappropriate
in front of children.
Q All right. So would you say some people there
supported your behavior?
A Absolutely. There were only out of everybody on
the beach, there were only actually a handful that
were upset and many people felt supportive as
humans for what I was doing.
Q All fight. [sic]
MR. HYNES: Thank you. Nothing further.
THE COURT: Mr. Sawyer.
RECROSS-EXAMINATION
BY MR. SAWYER:
Q So you’d agree this day at the beach turned into
kindof a disturbance?

104a
A No.
Q You don’t—you people having a heated conversation, swearing, is a disturbance?
A They were disturbing me.
MR. SAWYER: I have no further questions.
THE WITNESS: And other people on the beach.
MR. SAWYER: I have no further questions.
MR. HYNES: Nothing further.
THE COURT: Yeah.
MR. HYNES: Ginger, you can step down.
THE WITNESS: Thank you.
THE COURT: Hold on.
MR. HYNES: Oh.
THE COURT: Ms. Pierro, were people yelling at
you or—Mr. Sawyer called it conversing with you?
THE WITNESS: They were yelling at me and I was
very sweet. I maintained this tone of voice or silence.
THE COURT: Okay. Thank you. Mr. Hynes.
MR. HYNES: Thank you. Your Honor, defense
would call Heidi Lilley to testify.
THE COURT: Sure. Ms. Lilley, come forward.
BAILIFF: Turn real slow and raise your right hand.
HEIDI LILLEY, DEFENDANT, SWORN
BAILIFF: Have a seat. For the record, state your
name and spell your last name?
WITNESS: Heidi Lilley, L-I-L-L-E-Y.

105a
COURT: Mr. Hynes.
MR. HYNES: Thank you.
DIRECT EXAMINATION
BY MR. HYNES:
Q And Heidi, do you agree that you were—you
appeared in Laconia with your nipple exposed on the
day you were arrested?
A Yes.
Q All refight. [sic] And what’s your background
with Free the Nipple campaign?
A Kia invited me along for the ride with Free the
Nipple in I think May of last year, 2015. She told me
about it and it was something that I believed in. Not
so much for the same reasons that she did, but as a
feminist, I believe in the equality of the male and
female.
Q Okay. Thank you. And in regards to your
involvement with the movement, have you testified
before the legislature?
A Yes.
Q All right. And was that on this issue?
A Yes.
Q And are you aware—did you testify in front of
the house committee?
A Yes.
Q All right. Do you—was that bill really—what
was that bill about in your opinion?

106a
A That was regarding the changing of the law to
make it illegal for a woman to be—have bare breasts
in the State of New Hampshire.
Q All right. And to your understanding, was that
bill defeated?
MR. SAWYER: Objection.
THE COURT: What’s the objection?
MR. SAWYER: It’s a legal question, Judge.
THE COURT: Okay. It is a legal question.
MR. HYNES: Okay.
THE WITNESS: It is legal in the State of New
Hampshire to—
THE COURT: Ma’am. Ma’am.
MR. HYNES: That’s fine.
THE COURT: Ma’am, there’s no—
THE WITNESS: —to—
BY MR. HYNES:
MR. HYNES: I’ll ask you questions, ma’am.
THE COURT: Ma’am, there’s no question.
Q Okay. And in regards to you being involved with
Free the Nipple, have you had support through
others?
A Absolutely.
THE COURT: What was the question?
MR. HYNES: In regards to being involved with the
Free the Nipple movement, have you received
support—

107a
THE COURT: Gotcha. Gotcha.
MR. HYNES: —from others.
THE WITNESS: Absolutely.
MR. HYNES: All right.
BY MR. HYNES:
Q So it’s not everyone who disagrees with this
conduct?
A No.
Q And specifically on the day you were arrested,
was there a reason you were—your nipples were
exposed to the public that day?
A Absolutely. I was very—I was at the beach the
day that Ginger was arrested and I was very
distressed at her arrest. And I was there in protest
and I announced to the arresting police officer that I
was acting in a protest and that I did not believe that
I could be arrested for protesting. But they arrested
me regardless. I was acting very civilly, sitting in a
chair without a top.
Q All right. And during this past year, did you
testify to the Laconia City Council regarding this
ordinance?
A Yes, I did.
Q You asked them to repeal it?
A I did. I was asked to go home.
Q All right.
A I was treated—well, I was asked to go home.

108a
Q All right. So they didn’t repeal the city ordinance,
correct?
A No, they did not. They did not hear me.
Q Okay.
A They don’t—did not listen to me.
Q All right. And were you harassing anyone during
your conduct that day?
A I don’t think I was harassing here at all.
Q All right.
A But other than Kia, nobody.
Q All right. Were—did people come up to you and
approach you?
A Not at all.
Q All right. And did you have any discussion with
the police officer that day?
A Yes.
Q And what was that discussion about?
A I told him—he asked why we didn’t do this—
where in Concord, where it would count and we said
because we had already done it in Concord where it
counted. And that it was legal in New Hampshire.
That it was only illegal in Laconia and that this is
why I was protesting in Laconia.
Q All right.
A That’s about the only real conversation.
Q Thank you.
MR. HYNES: And no further questions.

109a
THE COURT: Okay. Mr. Sawyer.
CROSS-EXAMINATION
BY MR. SAWYER:
Q You’ve seen the Laconia City ordinance, right?
A I’m sorry.
Q You’ve seen the Laconia City ordinance—
A Yes.
Q —prohibiting public nudity?
A Yes. Yes.
Q And you knew on—it was the 31st, right, was
when you were there?
A Yes.
Q And you—
A I’m not sure of the date.
Q You knew on that date that you were by your
actions, you were—your conduct, you were violating
that ordinance?
A Yes.
Q And you testified that you’ve tried to have that
ordinance changed?
A Yes.
Q You went to the city council meeting?
A Yes.
Q You could also have written letters to the editor
of papers which you have done?
A I have.

110a
Q Is that fair to say?
A Actually, no, I have not.
Q Okay. But you’ve seen letters, correct?
A Yes, I have seen.
Q And you can do that yourself, right?
A Yes, I could.
Q You could actually phone or write letters to the
city councilmen, individually?
A I have. I have.
Q You could protest or advertise your cause—
A And I’ve done such since—
Q —in various ways?
A —the arrest date. I have done such.
Q Through social media?
A Yes.
Q Through the regular media?
A Yes, sir.
Q You could stand out on the corner with signs?
A Yes, sir, I have.
Q You could stand on the beach with signs fully
clothed and—
A Yes, sir.
Q —advocate your position?
A Yes, sir.

111a
Q Without—all those things would not cause you
to violate the city ordinance; would you agree with
that?
A That’s correct.
Q So you chose to take it upon yourself to violate
the ordinance to give attention to your cause?
A That’s correct.
Q How long has the Free the Nipple movement
been in effect?
A In the State of New Hampshire?
Q Yes.
A For a little over a year. About a year and a half.
Q And you’re aware that the city ordinance was
passed in 1998?
A Yes, sir.
Q So you’re not saying that the ordinance was in
response to advocacy groups claiming discrimination?
A Absolutely not.
MR. SAWYER: I have no further questions.
THE COURT: Okay. Mr. Hynes, anything further
of Ms. Lilley?
MR. HYNES: Thank you, Your Honor.
further with this witness.

Nothing

THE COURT: Good. Thanks, Ms. Lilley. You can
step down.
MR. HYNES: Your Honor, the defense would call
Sgt. Black to the stand.

112a
THE COURT: Sure. Come on down, Sarge.
THE BAILIFF: Remain standing and raise your
right hand.
SGT. BLACK, WITNESS FOR THE DEFENDANT,
SWORN
THE BAILIFF: Have a seat.
THE WITNESS: Thank you.
THE BAILIFF: For the record, state your name
and spell your last name.
THE WITNESS: Sgt. Black, B-L-A-C-K.
DIRECT EXAMINATION
BY MR. HYNES:
Q And Sergeant, you’re a police officer with
Laconia?
A I am.
Q All right. And part of your job is to enforce city
ordinances?
A Yes, sir.
Q All right. And what is your involvement with
this case?
A On May 28th, we received several calls about a
female on Weirs Beach doing nude yoga. So I
responded with one of my officers.
Q Okay. And when you responded, did you have
contact with Ginger Pierro?
A I did.

113a
Q All right. And was her nipple exposed on that
time?
A Yes, sir.
Q All right. Did you notice any men on the beach
with their nipples exposed?
A Yes.
Q All right. Have you ever arrested any males for
having their nipples exposed in public in Laconia?
A No.
Q Okay. All right. What, if any, is the difference
between the male and the female nipple?
MR. SAWYER: Judge, I’m going to object.
THE COURT:
understand me?

Keep

the

noise

down.

You

UNIDENTIFIED SPEAKER: Yes, sir.
THE COURT: Thank you. Objection?
MR. SAWYER: I mean if he’s asking for a scientific
biological reason, I don’t think he’s qualified to
answer that.
THE COURT: I would agree.
MR. SAWYER: I think it’s common lay terms in
terms of the difference between a male and female
nipple as indicated in my pleading, Judge, in terms of
opinions from justices. There is a physiological
difference as indicated in case law. I don’t think this
witness is the appropriate witness to go into that.
THE COURT: Okay. Mr. Hynes.
MR. HYNES: I can reword it.

114a
BY MR. HYNES:
Q So you have no medical training to state that
there is a difference between a male and female
nipple, correct?
A No.
Q All right. Now, when someone has their nipple
exposed in public, what health issue does that create?
MR. SAWYER: Objection.
THE COURT: Yeah, I would think it—you better
lay a foundation that he would have the expertise to
make that determination. Otherwise, there would be
objection.
MR. HYNES: Right, well, Your Honor, part of the
State’s argument is that they passed the statute
based on safety, health, and morals. And I suggest
that the legis—or the city council can’t just broadly
state that that’s their intent. They would actually
have to show that it is actually related. So I suggest
it’s the State’s burden in that behalf. I was trying to
elicit from the officer testimony on that. Otherwise, I
suggest the record’s going to be absent on that. That
the State I would suggest would have to show not just
that the statute claims it, but that it actually occurs.
THE COURT: Mr. Sawyer.
MR. SAWYER: I believe that the case law and it’d
take me a minute to find it, but indicates you don’t
have to look behind the actual studies that were done.
I mean if there is a plausible explanation that
supports the legislative body’s determination, that’s
what it is. You don’t dig down and look for studies
that support that. As long as it’s related to that I

115a
believe. And I can find it if I could have a moment.
But I believe it’s—I don’t know if I referenced—
THE COURT: Are we going to have testimony from
city councilors that passed the ordinance to determine
that there in fact was consideration of that? I mean
that there are studies out there is one thing. It’s
another thing to say that I’m supposed to attach those
studies to the mindset of the city councilors who
passed the ordinance.
MR. SAWYER: Judge, I think it’s public health/
public safety does not mean necessarily the biological
or physiological health of—
THE COURT: I’m not suggesting that there is a
medical basis for it, but I would think that in the
conception of ordinances, that in passing it, that there
would be a legislative intent behind the act that in
some jurisdiction somewhere there may have been
studies, but I don’t think that I can impute the
knowledge of those studies directly to the city council
who passed the ordinance.
MR. SAWYER: Can I have a moment, Judge?
THE COURT: Yeah.
(Pause)
THE COURT: Mr. Sawyer, would it be fair to say,
I’m just putting this out there, would it be fair to say
that Officer Black does not have personal knowledge
of whatever safety or health issues there are? He
doesn’t have a basis of that opinion?
MR. SAWYER: Well, what I can say is he doesn’t
have—he can’t be put in the place of the city council. I
agree with that.

116a
THE COURT: Right.
MR. SAWYER: I mean I think he could come up
with—I probably can ask him the answer in terms of
the disturbance that was caused by this.
THE COURT: Well, I think that’s another issue.
MR. SAWYER: Which is a public safety issue which
is, you know, a more—
THE COURT: Which is on that day.
MR. SAWYER: Yes.
THE COURT: Whether or not, but it’s not in
regards to the conceptualization and drafting of the
ordinance per se.
MR. SAWYER: That is correct.
THE COURT: Bursae [sic] I can’t make that
connect.
MR. SAWYER: And I don’t think that is
respectfully your role in this proceeding. The burden
is on the petitioner to show that this is
unconstitutional.
THE COURT: Uh-huh.
MR. SAWYER: And is not a valid ordinance. It’s
not on the State. This ordinance was passed by
elected officials in the City of Laconia based—who are
elected by the citizens of this community.
THE COURT: What would you say to the issue of
notice to the defendants as to what is a risk to safety
or health by those actions?
MR. SAWYER: That was the—there was a purpose
and basis for the ordinance. They don’t have to be put

117a
on notice as to the basis for the ordinance. They have
to abide by the ordinance. Just like I don’t have to
know why the legislature chose to make it a
requirement that only so many milligrams of MTBE
can be in a well. They made that choice.
THE COURT: Uh-huh.
MR. SAWYER: But, you know, through the
legislative process, giving the power to DES and the
EPA to make that choice. I don’t have to know why
they made that choice. What the reasons were. I can’t
say well, they haven’t told me why that’s illegal so I’m
going to ignore that.
THE COURT: Okay.
MR. SAWYER: The fact that they passed that rule,
I have to follow. That’s what they have to know is
that there is a rule in place. And they have to follow
it.
THE COURT: Mr. Hynes.
MR. HYNES: Thank you. I can ask more direct
question related to that day.
THE COURT: Sure.
DIRECT EXAMINATION CONTINUED
BY MR. HYNES:
Q On the day you made an arrest, was there a
health issue by Ginger’s nipple being exposed in
public? There wasn’t any health—you weren’t worried
about any anyone getting sick, right?
A No.
Q Thank you. Now, did you arrest Ginger for
disorderly conduct?

118a
A No.
Q All right. So it’s fair to say she wasn’t acting
disorderly?
A We arrested Ginger for the city ordinance
violation.
Q All right.
A And she was not acting disorderly per the RSA.
Q And is it fair to say that absent this ordinance,
you wouldn’t have arrested her?
A That is correct.
Q And how do you determine the difference
between a female nipple and a male nipple?
A There are several differences. The female nipple,
you can breastfeed. There’s one of the differences
there. I’m not able to do that. And a female can. So
there’s one difference.
THE COURT: I don’t think that was the question.
BY MR. HYNES:
Q How do you decide who you’re arresting?
A If they’re in a violation of the ordinance.
Q All right. And part of that violation of the
ordinance requires the person to be a female, not a
male, correct?
A Correct.
Q So how do you make the determination that
someone’s female, not a male?
A Outwardly appearances are generally pretty
obvious.

119a
Q So you base it on their outwardly appearances?
A I can tell the difference I would say always
between a male and female.
Q Just by them not wearing a shirt and having
their nipple exposed?
A Can you restate?
Q All right. You said you can—you say always or
generally tell the difference?
A Yeah, I can tell who’s male and female. I think
most people can do that.
Q Do you base that by hair length? What are you
basing that on?
A Well, you’re asking me to tell you how I can tell
a male is a male and a female is a female?
Q Well, it’s your understanding you can arrest
someone for having their female—for a female having
their nipple exposed, but not the male having their
nipple exposed.
A Uh-huh.
Q So I’d like to know how you’re deciding who to
arrest and who not?
A Okay.
MR. SAWYER: I think he’s answered that question,
Judge.
THE COURT: Yeah, I believe he has answered that
question.
MR. HYNES: All right.
BY MR. HYNES:

120a
Q And was Ginger provoking anyone that day that
you saw?
A Provoking? We received numerous calls of pole
[sic] complaining that there was a female on the
beach doing nude yoga. Exposing her breasts and that
there were numerous children and families there.
So we were getting numerous complaints from
citizens on the beach.
Q Okay. And prior to that day, did you—were you
aware of this ordinance?
A Yes.
Q Okay. And did you respond to those people who
were making complaints?
A Yes.
Q And what, if anything, did you tell them?
A Well, I received an initial call from one person
advising that this is what was happening. I advised
him that we were sending units out. And then when I
responded to the beach, I was approached by several
groups of people saying she’s over there. There’s a
female who’s nude and I told them to remain where
they were, we would go talk to the person doing the
nude yoga and that we would address the issue with
her.
Q All right. And just to clarify, when you used the
word nude, you refer to how Laconia has defined it to
mean that a nipple is exposed? Not fully without
clothing, correct?
A That’s correct, sir.
Q Okay. So people called in their complaint because
Ginger’s nipple was exposed?

121a
A That’s correct.
Q And they didn’t indicate that Ginger was otherwise harassing them or anything like that?
A The complaint was that she was nude or with
her nipples out.
Q Okay. And you wouldn’t arrest a female if her
nipple was covered, correct?
A No.
Q So it’s not actually the female breast that
apparently is the problem. It’s the female nipple?
A Ordinance specifically speaks about the nipple
being exposed.
Q And so if someone’s—a female’s breast is exposed but her nipple is otherwise covered with tape or
something, you wouldn’t arrest that person, correct?
A No, I would not.
Q Have you ever received calls or complaints
regarding that?
A I’m sure I have over my last 12 to 13 years here.
Q All right. And you would respond to that person,
it’s not against the law, I’m not going to arrest that
person?
A That’s correct.
Q Okay. So the nipple is what’s offending people?
A They’re not—I’m going to restate.
MR. SAWYER: I’m going to object, Judge, in terms
if he’s asking the officer to speculate as to—

122a
THE COURT: I think it’s speculation on the part of
the officer unless he had direct information from a
witness as to what exactly it was that they were
concerned about.
BY MR. HYNES:
Q Do you live in Laconia?
A No.
Q All right. But you work in Laconia obviously?
A Yes, sir.
Q Are you personally offended or distraught if you
see female’s nipples?
MR. SAWYER: Objection.
THE COURT: How is that relevant?
MR. HYNES: Well, ultimately I think the State’s
going to try to show that—part of their argument was
tourism and that the city council is ultimately
representing the people. I’m just trying to show that
depending on the answer that not everyone agrees
with said position.
MR. SAWYER: I would agree with that.
MR. HYNES: That’s fine.
MR. SAWYER: Obviously, his clients don’t agree
with that, Judge.
MR. HYNES: Right.
THE COURT: Yeah.
MR. SAWYER: But that’s the purpose of the legislative process.

123a
THE COURT: But it has nothing to do with
whether or not the officer has any—
MR. SAWYER: Exactly.
THE COURT: —feelings one way or another.
MR. HYNES: All right. That’s fine.
THE COURT: I would hope it wouldn’t have anything to do with it.
MR. HYNES: Thank you, Your Honor, nothing
further.
THE COURT: Okay. Mr. Sawyer, questions for
Officer Black. Strike that. Sergeant Black.
CROSS-EXAMINATION
BY MR. SAWYER:
Q Sgt. Black, you responded on the 28th which
was a Saturday around 3:43?
A Yes, I did.
Q And that was to the phone calls about somebody
doing nude yoga on the beach?
A That is correct.
Q And how many officers responded to that?
A Myself and one other officer.
Q And who was the other officer?
A Officer Holly Callanan.
Q And could you—strike that. When did you
respond to—where’d you park? In the parking lot of
Endicott Beach or on Lakeside Avenue?
A I parked in the parking lot of Endicott Beach.

124a
Q And do you know where Officer Callanan had
parked?
A She parked right up as close to the beach as you
can.
Q And did you—you came in with your lights and
sirens blaring I’m assuming?
A No.
Q You just came in and parked the car?
A We just parked.
Q Okay.
A No lights, no sirens.
Q Okay. And you—where did you go once you
parked the car?
A We were directed to a female near the lifeguard
stand.
Q And when you were directed in that direction, I
assume you looked in that direction?
A Yes.
Q And what did you see happening in that area?
A There was numerous people, families, out on the
beach.
Q When you say families, can you define what you
mean by families?
A Adults with children, moms, dads, kids.
Q And what was happening near the lifeguard
stand?

125a
A There was a female on a beach towel sitting
down doing yoga.
Q And was there anybody else around her?
A There was also a male I believe who was with
the female who was taking photographs of her.
Q And how would you describe him taking
photographs? Was it—how—just can you paint a
picture for the Judge in terms of how the photographs
were being taken?
A Yes, he was—there was a male who was there
just taking photographs of her and just as she’s doing
her yoga poses and as we approached, I believe he
was taking photographs of us and just—
Q What kind of camera was it? Was it—
A It was a very large camera with a big lens.
Q Was there a flash attached to that camera or?
A I don’t know if there was a flash. But it was a
nice, nice camera.
Q How far away from this woman was he when he
was taking the photographs?
A Oh, five to ten feet. Not very far.
Q And was it like a photo shoot where he’s getting
different angles and moving up and down and taking
photographs or was it—
A He was moving around. I didn’t pay too much
attention to him at that point.
Q Besides the gentleman that was taking photographs, were there other people watching this
individual doing the yoga?

126a
A Yeah, there was lots of people all around that
area. It was very, very—it was a lot of people at the
beach that day.
Q Okay. But what I’m saying, I know there were a
lot of people, but were there a lot of people watching
her do the—
A Oh, yeah, there was—this is what people’s
attention was directed at.
Q So when you saw her doing yoga and is she
present in the courtroom today?
A She is.
Q Where is she?
A She’s seated here at the defendant’s table?
Q Wearing what?
A A pearl necklace and a grey shirt.
THE COURT: The record will reflect that the
officer has identified Ms. Pierro.
BY MR. SAWYER:
Q And is Ms.Pierro a male or a female as far as
you know?
A A female.
Q And did you—when you responded to—did you
refer to her in a certain way? Did you say ma’am or
miss or how did you—or say, hey, you?
A I’m sure it was either ma'am or miss. I don’t
recall which, but—
Q And was there any statement from her that
that’s not correct? I’m not—I’m a man?

127a
A No.
Q I’m a mister?
A There was nothing to that.
Q Describe your interaction with her when you
first approached her?
A Officer Callanan and I approached her and I
allowed Officer Callanan to make initial contact. She
began to speak to Ms. Pierro who began to—or who
just ignored us as we asked her to place clothing on,
advising her there was a city ordinance prohibiting
exposing herself. And she just ignored us and
continued to do yoga.
Q Okay. When you first were responding to her,
how were you talking? Was it similar to the way
you're speaking now or you had a more angry tone or
how would you describe your tone of voice when you
were talking to her or Officer—
A Just a direct tone. When I’m addressing somebody, I want them to hear me, know that I’m
speaking to them. I identify myself as an officer to
her. I was quite close to her so that she could hear
me. There was no mistake in that.
Q Okay. How close were you to her?
A Right next to her.
Q Okay. Was she—this yoga pose that she was
doing, was that—she on the ground or was she
standing in some—bent over? How would you
describe it?
A She was seated and she was reaching for—doing
some sort of stretch.

128a
Q And how were you dressed that day?
A As I am today in a short sleeve uniform.
Q And so you asked her what again?
A I advised her to cover up, that there was an
ordinance, that we had been called there because
numerous people were complaining that she was
nude.
Q And you said she ignored you?
A She ignored me.
Q Did you ask again?
A Several times.
Q And did you give any warnings to her or any
statements to her about if she did not cover up what
would happen?
A I advised her that if she did not comply, that she
would be charged and arrested.
Q Had she covered up on your first request, what
would have happened?
A That would have been it and we would have
given her a warning and she would have been able to
enjoy the rest of the day there.
Q Was she eventually placed into custody?
A She was.
Q Was she told this by you or Officer Callanan?
A Yes.
Q Who told her that she was under arrest or—
A Officer Callanan did.

129a
Q And prior to that happening, did the defendant
ever indicate that she was going to put something on
or refused? Did she say anything?
A She began to speak about case law that we were
unable to enforce the city ordinance.
Q And when she was told she was under arrest,
what happened then?
A She complied immediately.
Q And was she placed in handcuffs?
A She was.
Q And was she still fully exposed at that point in
time? Her chest?
A Her chest and nipples, everything was fully
exposed.
Q And did you do anything to try to have her
covered up?
A There was no clothing nearby, so I asked a
bystander if we could have their towel and a lady
gave me a pink towel that we wrapped around her.
Q Did anything happen as you walked back toward
the cruisers?
A Can you read [sic] that?
Q Did anything happen as you walked back
towards the police cars?
A As we began to walk her away, a bunch of people
began to clap.
Q You were asked questions by Attorney Hynes at
length about whether or not you can tell the

130a
difference between a male and a female. How old are
you, Officer Black?
A Thirty-five.
Q And are you in relationship?
A I’m married.
Q And you have children?
A I do.
Q Okay. And during your 35 years on this earth,
have you had occasion to come in contact with the
different genders?
A Yes.
Q And if I were to ask you to point to every person
in this courtroom and for the most part you could
identify whether appeared to be a male or female?
A Yes.
Q Obviously you’re not looking at their actual
genitals, right? We’re all clothed.
A Correct.
Q But you can give a good faith or a belief as to
what they are?
A Yes.
Q Have you come across a transgender individual
before?
A I have.
Q Okay. And it’s—I think that’s what Attorney
Hynes was trying to point out. There’s some occasions
where it may not be evident that the person is one

131a
gender or another. Do you have any doubt that Ms.—
the defendant is a female?
A No.
Q Had she told you afterwards that she was in fact
a man, would you have unarrested her?
A If we could—yeah, if we could say she was a man
after further investigation, yes.
MR. SAWYER: I have no further questions.
MR. HYNES: Thank you.
REDIRECT EXAMINATION
BY MR. HYNES:
Q Is the beach open to the public?
A It is.
Q All right. So both men and women could be at
the beach?
A Correct.
Q But men could be topless and women can’t? Or
have their nipples exposed but women cannot?
A Yes.
Q And this ordinance doesn’t apply just to the
beach. It’s anywhere in public in the entire City of
Laconia, correct?
A I would have to review it, but I believe that’s
how it’s written, yes.
Q All right.
MR. HYNES: Thank you. Nothing further.
THE COURT: Okay. Mr. Sawyer.

132a
MR. SAWYER: I have nothing further.
THE COURT: Sgt. Black, you may step down.
THE WITNESS: Thank you.
THE COURT: Mr. Hynes.
MR. HYNES: Your Honor, the defense has no more
witnesses on this issue.
THE COURT: State?
MR. SAWYER: State would call Sandra Smith to
the stand.
THE COURT: Ms. Smith. There’s a slight ramp
there, Ms. Smith. Just be careful.
THE BAILIFF: Remain standing and raise your
right hand. Your right hand.
SANDRA SMITH, WITNESS FOR THE STATE,
SWORN
THE BAILIFF: Have a seat. For the record, state
your name and spell your last name.
THE WITNESS: My—Sandra Smith, S-M-I-T-H.
THE COURT: Mr. Sawyer.
DIRECT EXAMINATION
BY MR. SAWYER:
Q Ms. Smith, what do you do for work?
A I work for Easter Seals.
Q And what is your job there?
A I take disabled clients out to beaches, jobsites,
and a lot more what we do.

133a
Q And on May 31st of this year, did you have
occasion to—were you working on that day?
A Yes, I was.
Q And how many clients did you have?
A I had one client and my other two staff had their
clients.
Q So there was three staff and three clients?
A Yes.
Q It’s a one to one?
A One to one.
Q And what was your outing that day?
A My outing day just enjoying—the client enjoyed
theirself on the beach and have lunch.
Q And what beach did you enjoy?
A Weir Beach.
Q Weirs Beach?
A Yep.
Q And did anything happen during your beach day
that day?
A There’s a thing happened that’s the lady came
down and walked past us with no shirt on. She
walked down to the beach, you know, and I knew it
wasn't proper and approved. And I just called the
police because I don’t think it was right. And the
police responded.
Q And when you say the woman, do you recognize
the woman that you saw?

134a
A Yes, I do.
Q Can you point to her and identify a piece of
clothing that she’s wearing?
A She’s sitting right—she’s got a black sweater on
and she’s got the red—
Q The red top?
A —top.
THE COURT: The record will reflect that Ms.
Smith has identified Ms. Kia Sinclair.
BY MR. SAWYER:
Q And Ms. Smith, I don’t mean to be impolite here,
but are you a male or female?
A I’m a female.
Q And how old are you?
A I’m 51.
Q And in your 51 years, have you been able to
determine you see somebody whether or not they are
a male or female
A Pretty much, yeah.
Q And is Ms.—was Ms. Sinclair a male or female?
A Female.
Q Were you the only one looking at or noticing Ms.
Sinclair walking topless down the beach?
A No, some of the staff I worked with saw the
same thing.
Q Okay. Besides the staff, were there other
people at the beach besides the six of you?

135a
A Oh, yeah, there was kids—yeah, they’re all
watching them walking down.
Q And when you saw Ms. Smith, which I think it’s
stipulated to, there was no covering of the nipple.
MR. HYNES: Right.
MR. SAWYER: So—
MR. HYNES: Yes.
MR. SAWYER: I’m not—that’s all I have.
THE COURT: Okay. Mr. Hynes, questions for Mrs.
Smith?
MR. HYNES: Yes, thank you.
THE COURT: Yep.
CROSS-EXAMINATION
BY MR. HYNES:
Q Your testimony was you didn’t think it was right
that she had her breasts and nipple exposed?
A No, I don’t think it was right.
Q All right.
A Not when you got kids.
Q All right. Did any kids complain about this
conduct?
A No, they just laughed because the clients I work
with, they don’t understand so they just laughed.
That’s all they did.
Q All right. And do you think it’s right for a male
to be on the beach with his nipple exposed?
A Yes, I do.

136a
Q Why is that right?
MR. SAWYER: Objection.
THE WITNESS: The—
THE COURT: The objection is?
MR. SAWYER: Her opinion is not relevant to—
THE COURT: It isn’t relevant, is it, Mr. Hynes?
MR. HYNES: Well, she’s testifying one’s right and
one’s—not the other. I’d like to know the basis of that
conclusion. I mean the State’s ultimately trying to
show why—what the statute is intended to do.
THE COURT: Well, you can change your question
then.
MR. HYNES: All right.
BY MR. HYNES:
Q I guess I’ll back up. What’s not right about the
female nipple being exposed?
MR. SAWYER: Objection, Judge. I mean the let the
question go, but it’s not relevant. The issue is
whether the—she’s not here to speak for the entire
citizenry of Laconia or New Hampshire. She’s not
here to speak for society. She has her own individual
opinion which is not relevant for the validity of the
city ordinance.
THE COURT: Mr. Hynes.
MR. HYNES: She’s purportedly the alleged victim
or I’ll back up.
BY MR. HYNES:

137a
Q Did you make the phone call to the police that
day?
A Yes, I did.
Q All right.
MR. HYNES: Your Honor, she’s the one reporting
this. The State is trying to say there’s a disturbance.
I would suggest if someone is offended, we should
know why. If the State’s going to have—
THE COURT: I’ll allow you to ask that question.
BY MR. HYNES:
Q So what don’t you think was right about a
female having her nipple exposed that—
A I don’t think it’s right. I really don’t.
Q Is that based on a religious belief?
A Yes, it is.
Q All right. Now, other than having her nipple
exposed, was she harassing you?
A Oh, no.
Q Okay. She was just there pretty much keeping
to herself?
A Yep.
Q Okay.
MR. HYNES: Thank you. Nothing further.
THE COURT: Mr. Sawyer.
REDIRECT EXAMINATION
BY MR. SAWYER:

138a
Q Besides a religious belief, were you brought up
to have modesty about your breasts and nipples?
A Uh-huh. Not to be exposed. To be covered.
MR. SAWYER: I have no further questions.
THE COURT: Mr. Hynes.
MR. HYNES: Nothing further.
THE COURT: Okay. Thanks a lot, Ms. Smith. You
can step down. Mr. Sawyer.
MR. SAWYER: The State calls Ian Davis.
THE COURT: Okay.
THE BAILIFF: Raise your right hand.
IAN DAVIS, WITNESS FOR THE STATE,
SWORN
THE BAILIFF: Have a seat. For the record state
your name and spell your last name?
THE WITNESS: Ian Davis, D-A-V-I-S.
THE COURT: Mr. Sawyer.
DIRECT EXAMINATION
BY MR. SAWYER:
Q Mr. Davis, where do you live?
A I live in Concord.
Q And on May 28th of this year at around 3:43,
where were you on that date?
A I was at Weirs Beach—
THE COURT: What’s the date—was it the 28th
we’re talking—

139a
MR. SAWYER: 28th, yep.
THE WITNESS: I was at Weirs Beach in Laconia.
BY MR. SAWYER:
Q And what were you doing there?
A I was just enjoying the day with my family.
Q Okay. Who is—what makes up your family?
A Nieces, nephews, uncles, aunts.
Q How old are your nieces and nephews?
A Anywhere from, I believe it was two months to
13.
Q Okay. How many nieces and nephews were
there?
A I believe that there is six. There’s a lot of them.
Q And your aunts and uncles, how many aunts and
uncles did you have there?
A Four.
Q And how old—approximately how old are they?
I don’t need an exact number. Forties, 50s, 60s?
A No, 20s, mid-20s to 40s.
Q Besides your family, were there other people
enjoying the beach that day?
A Yes.
Q And did you have occasion to call the police that
day?
A Yes, I did.
Q Why did you call the police that day?

140a
A I called the police because there is a woman who
was topless, with her nipples exposed, and there was
a man also taking a picture, you know, taking
pictures of her, and so I felt unsafe with their being,
you know, my nieces and nephews there, that I don’t
know what he’s taking pictures of, if he was taking
pictures of her or if it was the children. That was my
reason of calling.
Q Was this person doing yoga?
A Yes.
Q The one with the top off?
A Yes.
Q And she’s already testified that she didn’t have
anything covering her nipples.
A No.
Q Was she attracting attention by doing this?
A I believe so. I don’t know how to answer that.
Q Did you look at her?
A Yes, I did.
MR. SAWYER: I have no further questions.
THE WITNESS: Okay.
THE COURT: Questions, Mr. Hynes?
MR. HYNES: Yes. Thank you.
CROSS-EXAMINATION
BY MR. HYNES:
Q Who did you say you were at the beach that day
with?

141a
A Family, uncles, aunts, nieces, nephews.
Q All right. And what were you wearing that day?
A I was wearing a t-shirt and Board shorts.
Q All right. Have you been to the beach before and
had a shirt on?
A Yes.
Q So, ultimately, you made the choice that day to
keep your shirt on?
A Yes.
Q All right. And is it fair to say that you were more
concerned with the person actually taking the
pictures, that’s what was causing the concern?
A I was.
Q And you weren’t concerned for your safety at any
point, correct?
A Not to mine, no.
Q Were you concerned for anyone’s safety from—or
who you identified as having their nipples—being
having their nipples exposed?
THE COURT: I’m sorry. I’m not—if he can answer
the question, he’s better than I. I don’t understand
the question.
MR. HYNES: Sorry.
BY MR. HYNES:
Q So I would tell you the person you identified is
Ginger. She didn’t cause you any concern for your
safety, right?
A No.

142a
Q Thank you.
MR. HYNES: Nothing further.
THE COURT: Okay. Mr. Sawyer?
MR. SAWYER: I have nothing further.
THE COURT: Okay. Thank you.
Mr. Davis, you can step down. Thank you.
MR. SAWYER: The State calls Officer Callanan to
the stand.
Would you go the stand and raise your right hand?
HOLLY CALLANAN, WITNESS FOR THE
STATE, SWORN
MR. SAWYER: Have a seat.
THE WITNESS: Thank you.
DIRECT EXAMINATION
BY MR. SAWYER:
Q For the record, state and spell your last name,
please.
A Okay. Officer Holly Callanan. Last name is
spelled C-A-L-L-A-N-A-N.
Q Where are you employed, Officer Callanan?
A The Laconia Police Department.
Q In what capacity?
A As a patrol officer.
Q How long have you been so employed?
A A little over six years.

143a
Q How old are you?
A Twenty-nine.
Q And are you a male or female?
A I’m a female.
Q Are you able to determine—distinguish between
males and females based upon their appearance?
A Yes.
Q Even if they’re fully clothed, can you pretty
much tell the difference between a male and female?
A Usually, yes.
Q And if somebody doesn’t have a shirt on, is it
easier or more difficult to tell?
A Easier.
Q I’m going to direct your attention to May 28th of
this year, around 3:43. Were you working on that day
and time?
A I was.
Q Where were you?
A In this City of Laconia.
Q And were you dispatched to any particular
location around that time?
A I was, I was dispatched to Endicott Beach.
Q In reference to what?
A That we had received multiple complaints about
a female subject that was topless and doing yoga on
the beach.
Q And did you respond?

144a
A I did.
Q And when you arrived, what did you see?
A When I pulled in with my cruiser, I parked like
at the bottom of the hill, and as soon as I got out of
my car, there were several subjects that approached
my vehicle and complained about the female subject
that was doing topless yoga on the beach, and that
they were offended, and they wanted us to take some
kind of action.
Q So what did you do?
A Sgt. Black was there with me, so we—it was a
very crowded beach, so I asked the subjects that had
approached me to direct my attention to where this
female subject was, and they did so.
And we walked—she was closer to the waterline,
not back by the parking lot, so we walked over to her,
where she was sitting on the beach and she was
facing the water, so initially, her back was to us.
So I came around the right side of her and then
also, to the front of her, and I realized at that point
that she’s not wearing any shirt and her breasts, as
well as her nipples, were both exposed.
Q And did anybody speak to her at that time?
A I made attempts to speak to her. She—when we
first approached her, she was—she continued to do
her yoga poses, and I introduced myself, Officer
Callanan, Laconia Police, excuse me, and she was like
pretend, like avoiding me, like not making eye contact
with me, but pretending that she didn’t hear me. Sgt.
Black, the same thing. And then after about a minute
or so, she looked up and acknowledged that we were,
in fact, trying to speak to her.

145a
Q And did you have a brief conversation at that
point in time?
A I did, yes. We asked her—or I explained to her
that the reason we were making contact with her was
in reference to a Laconia City Ordinance, since her
nipples were exposed on the beach in a public place.
Q And did you ask her to do anything?
A Yes. We asked her multiple times to cover up, to
put her bathing suit top back on, or put her shirt back
on.
MR. HYNES: Your Honor, Heidi Lilley asked for a
brief recess for her to go the bathroom. I guess I—
THE COURT: Sure, go ahead. I got stuff I can work
on.
MR. HYNES: I’m sorry, I—
THE COURT: Yeah, we’ll recess. That’s fine.
MR. HYNES: Thank you.
THE COURT: Officer, you can step down.
THE WITNESS: Thank you.
(Recess at 9:35 a.m., recommencing at 9:38 a.m.)
THE COURT: Officer Callanan, I just remind you
you’re under oath.
THE WITNESS: Yes, Your Honor.
THE COURT: Go ahead.
BY MR. SAWYER:
Q So, you made—there was conversations about
whether or not she put her top back on?

146a
A That is correct.
Q And was she given warnings what would happen
if she did not?
A Yes.
Q Was she given direction as to what would
happen if she did?
A Correct.
THE COURT: So—
BY MR. SAWYER:
Q If she did, was she given direction as to what
would happen if she did put her top back on.
THE COURT: Gotcha.
THE WITNESS: Yes. We advised her that if she
covered up, if she put her bathing suit top on or her
shirt on, that she could remain at the beach without
any further issue, and there wouldn’t be any other
problems from us. We advised her that if she did not,
that we would have to take her into custody and go
from there.
BY MR. SAWYER:
Q And after those options, did she put her top back
on?
A No, she refused.
Q And so what did you do at that point in time?
A Advised her that we were taking her into
custody in reference to a violation of the city
ordinance, so she was handcuffed, walked to the
cruiser. We obtained some of her personal belongings
from the party that she was with, like her cell phone.

147a
I think her shoes, a cover-up, wallet, ID, personal
items, and then we—I put her in the rear of my
cruiser, seat-belted her in, and transported her to the
police department for booking.
Q And during the booking, did you give her a
summons?
A I did, yes.
Q And also during the booking, did you enter her
information into the computer system?
A I did.
Q And is there a place on summons and on the
booking sheet in the computer for sex or gender?
A I—honestly, I don’t think that there is an actual
tab for male or female on the summons or in IMCA. I
could be wrong.
Q If I showed you the summons, would that help
refresh your memory?
A Yes, it would. I think in IMC, there is a tab, but
on the summons, I don’t know. Oh, it does, yes, there
is a tab for their sex.
Q And on this pair of summons, you put what as to
that?
A F for female.
Q And you gave that summons to her?
A That is correct.
Q And did you have a copy of her license?
A I did.

148a
Q And what does the license indicate her gender
is?
A Female.
Q Without the license, were you able to determine
whether Ms. Pierro was a female or a male?
A Yes.
Q What—how?
A Her appearance.
Q What about her—
A Her anatomy.
Q What about her appearance?
A She—her breasts were exposed, and they
appeared to be female breasts. She was wearing a
bathing suit bottom upon contact with her, that didn’t
appear to be male genitalia. She appears to be a
woman. She has long hair, she talks like a woman,
she—I think she even talked about—I think she
might have been a mother. During—I’m just trying to
recall the booking conversation.
Q Yeah.
A I think she has a child.
Q The structure of her face or her neck?
A Correct. Her bone structure, her—it’s just so
obvious, like she is a woman, like that’s—
Q So all those things you take into account when
you make a judgment that this person is male or
female?
A That is correct.

149a
Q And some people do look more female—or more
feminine than others?
A That is correct.
Q Some males may look feminine?
A That is correct.
Q But you can make—based upon the totality, you
can make a determination whether or not?
A Correct.
MR. SAWYER: I have no further questions.
THE COURT: Okay.
Mr. Hynes?
MR. HYNES: Thank you.
CROSS-EXAMINATION
BY MR. HYNES:
Q So, in other words, sex and gender often get used
interchangeably. When you refer to gender, are you
referring to someone’s sex?
A I ask you to define the difference for me?
Q Okay. So if I said there’s generally accepted two
sexes, male and female, would you agree with that?
A Correct.
Q And if it said it’s generally accepted that not all
males classify, or would consider themselves males,
and not all females would consider themselves
females?
A That does occur, yes.

150a
Q All right. And for sake of argument, let’s just
say we consider those transgender people, would you
agree with that?
A Okay.
Q All right. So you don’t actually inquire into
anyone’s gender during this, correct? You’re basing it
solely on—or you would consider their natural born
sex, male or female?
A Their natural born sex, yes.
Q Do you only make arrests for this ordinance
after a complaint’s been made?
A That’s actually the first time I’ve ever made an
arrest for this offense, so.
Q Have you ever made one since then?
A I have not, no.
Q Is the reason you responded is because a
complaint was made?
A That’s correct.
Q Okay. Other than that day, have you observed
femalesin public in Laconia with their nipple
exposed?
A I have not, no.
Q So you would enforce the law whether you agree
with it or not?
A That’s correct.
Q Even if you think it’s unfair or unjust, you would
enforce it?

151a
A I’m required to enforce the laws of New
Hampshire, the city ordinances within the City of
Laconia.
Q And if the Court found that law unconstitutional,
you would stop enforcing it, correct?
A That is correct.
Q And your personal health or safety wasn’t
threatened at all that day, correct?
A No, I didn’t feel threatened by Ms. Pierro.
Q And Ms. Pierro wasn’t harassing or provoking
anyone?
A Her behavior caused attention to be drawn to
her, but as far as physical violence or anything of that
nature, no.
Q All right. So it was just causing attention to be
drawn to her?
A That’s correct.
Q Thank you.
MR. HYNES: Nothing further.
THE COURT: Okay.
Mr. Sawyer?
MR. SAWYER: I have nothing further.
THE COURT: Officer Callanan, you can step down.
THE WITNESS: Thank you, Your Honor.
THE COURT: Thanks.
Mr. Sawyer?
MR. SAWYER: I have no further witnesses.

152a
THE COURT: Okay.
And Mr. Hynes, anything further?
MR. SAWYER: Just brief oral argument on this
motion.
THE COURT: Go right ahead.
DEFENDANTS’ CLOSING ARGUMENT
MR. HYNES: Obviously, this is a complicated
issue with many different components of it. While I
would suggest generally it’s the defense’s burden to
show something, a statute is unconstitutional.
In this case, where it touches upon First
Amendment or equal protection issues, those are
entitled to strict scrutiny. Apparently, the burden is
on the State to meet that, and the State, in their
motion, cited, particularly, I believe in regards to
equal protection with Browns.
A lot of federal case, and federal case law is
different on this issue. The federal case law only
applies intermediate scrutiny on gender issues under
the O’Brien test, and there is difference between
intermediate and strict scrutiny. Specifically, the
difference being the least restricted means possible.
Now whatever Laconia’s goal was in this case,
there were certainly other means to do it. If the
female, Nicole, is harming people, offending people,
causing concern for people, if Laconia wants to
regulate that so much, they could do so in a gender
neutral fashion by requiring everyone to have their
nipples covered in public, Laconia chose not to do
that.

153a
In regards to the First Amendment issue, I
recognize nudity, in itself, is not likely protected
under the First Amendment, but we should look at
the underlying reason for this. So while not all nudity
might be protected in certain cases, in this case, I
would suggest it is, where people are expressing
beliefs, protesting the—the prosecutor went to some
length to show all the different ways she could have
and they did, in fact, protest. This is just one avenue,
after all the other avenues were essentially posed.
She did all the other avenues were essentially closed.
She did all the other methods, went to Concord,
testified, testified in front of the city council here.
There was no other action that she could have taken
to get the response that she wants, which is to get the
statute called unenforceable and unconstitutional.
In regards to the issue of whether the home rule
issue and whether the State even has authority for
this statute, I would suggest that they don’t based on
Your Honor’s previous decision. That was slightly
different at the Gilford statute, different than Laconia
statute, different underlying and needling provision;
but here, where Laconia is relying on health safety
and moral, I would suggest that this time it doesn’t
rise to that.
The legislature, in this case, city council, shouldn’t
just be able to broadly assert something and—I mean
they could do that with any case, and if it is the
defense’s burden to show that it didn’t meet that, I
would suggest we met that in this case. There’s been
no testimony offered that there was a health issue. I
think it’s obvious that the female nipple is not
causing a major health crisis when in public. I think
that’s just absurd.

154a
In regards to the safety issue, the conduct, itself,
was safe. The issue was people who are becoming
offended by it or otherwise engaging in ultimately the
kind of harassing that people are engaged in this
conduct. I would suggest that that’s essentially a
heckler’s veto. If the State is only arresting people
based on complaints, I would suggest that that’s
unfair, when—I mean someone could just say I don’t
like that conduct, so arrest someone.
In regards to the moral issue, we heard testimony
from one of the witnesses, that she doesn’t think it
was right based on religious belief. I would suggest
that that is an inappropriate basis to make a law. If
the State is going to rely on just broadly religious or
moral issues, it’s hard to imagine any law ever not
meeting that definition because certainly, I guess,
everyone have different moral issues.
We’ve heard in this case that not everyone was
offended, there was support for her, all three went in
this case, and I would suggest that if it’s to be read as
broad as that, this is no longer a home rule State. The
town would—or city in this case, would have just free
reign to draft any other statute, and just say there’s a
moral issue, we think it’s wrong, so we want to punish
it. That’s just that—but that’s outside of the scope of
what the State can do.
And finally, I suggest that this is pre-empted under
state statute, particularly, Your Honor, as I noted in
my brief, I forget the exact HB number. I have it in
front of me, HB 1525 Fn., and then the similar Senate
Bill, was in direct response to Your Honor’s order in
the Gilford case, and the State tried to amend it to
make it comply with home rule to give local
ordinances power to address this issue. The

155a
legislature said no, that’s not something we want to
do, and those bills were both killed at the House.
So I suggest that the legislator—legislative intent
here is clear. So even if the statute’s ambiguous, that
legislature makes it know what it wants, that under
New Hampshire law, it is legal for a woman to be in
public with her breasts and nipples exposed, just as it
is for a man, and we don’t want towns and cities to go
enforcing and treating women differently than men. I
think the legislature is very clear on what they want.
So, for those reasons, I would suggest that Your—
we would ask that Your Honor find the statute
unconstitutional, unenforceable and dismiss the
charges.
THE COURT: Okay.
MR. HYNES: Thank you.
THE COURT: Mr. Sawyer?
STATE’S CLOSING ARGUMENT
MR. SAWYER: I respectfully disagree with Mr.
Hynes on that last point. I’ll focus on this point
because that’s what he last said.
Using that same analogy, the same reasoning,
Judge, the City would not be able to prohibit wearing
spikes on a track, because there’s no State law that
prohibits wearing spikes on a track. So his logic is if
there’s no State law prohibiting it, then you must be
able to wear spikes on a track. His argument is
because there’s no State law prohibiting exposing the
breasts, then it is thereby legal for everybody and is
mandated to be legal. That is not correct.

156a
There is no express law that permits women to
expose their breasts and nipples. That would be preemption. That would be implied pre-emption in this
case because there would be a conflict with State law.
There is no conflict with State law, there is no
affirmative right for a woman to expose her breasts. I
don’t think Attorney Hynes has pointed to that.
In effect, legislation didn’t pass. You can’t use that
as a basis for the will of the people. Obviously
legislation determined that was a statute, that was
not which had criminal counties. This is an ordinance
which has this civil counties, Judge. Quite different.
In the legislature, and I don’t disagree with the
legislature for not passing that law, that would be a
bad law to paint a broad brush to determine the social
standards for every single community in this state.
We’re a small state, but there are different, you know,
the southern part of the state is very different than
Coos County in terms of their social and moral beliefs.
I think the legislature has left it open to the towns
and cities to pass ordinances that fits their social
framework.
Attorney Hynes has focused his argument on a
purpose of public health and public safety. I don’t
think you even get there, Judge. And I believe, I don’t
have a case, but – that the cite from the case, but
State versus Grant, as well as other case, and I’m just
reading from New Hampshire Practice, Local Government Law by Loughlin, under Section 914.
“The law is very clear in New Hampshire that
the presumption favors the validity of
ordinances” —

157a
And this is in my pleading, but it goes further than
what I put in my pleading.
“The validity of ordinances and regulations
adopted in the exercise of police power pursuant
to legislative authorizing.
The presumption
governs,
unless
it
is
overcome
by
unreasonableness apparent on the face,” which I
don’t think it is, “of the ordinance or by extrinsic
evidence which carries sufficient, which clearly
establish the ordinances and reasonableness.”
I’ve heard nothing presented that indicates that
ordinance is unreasonable for those safety and health
reasons, Judge.
“The presumption is based upon judicial
recognition that municipalities are prima facie,
the soul of judges of the necessity and
reasonableness of their ordinances. It is also
based upon the consequent judicial reluctance to
interfere with the decision of the municipal
legislative body as to what is necessary, wise,
reasonable, or justified.”
The legislature and the courts defer to the
legislative body as to the validity or the purpose for
the ordinances. They’re not going to look under that.
THE COURT: That was cited in Grant?
MR. SAWYER: I believe so. That’s the cite—I knew
I read it and I didn’t put it in my ordinance, but in
Grant and Ramseyer (ph.), which is not in my
pleading, but this is according to—
THE COURT: And what’s the cite?

158a
MR. SAWYER: Ramseyer is 73 NH 31, the 1904
case; Grant, which is cited in my pleading, is 107 NH
1, the first—
THE COURT: That’s right. I remember that one.
All right.
MR. SAWYER: And that’s the cite that Mr.
Loughlin uses to support his position, as well as a
Municipal Corporations Treatise, 5 E. McQuillin. It’s
a Municipal Corporations Treatise, Section 18.23. If
you have the New Hampshire Practice Series, that
cite would be there as well.
So I don’t think you get to look under or judge what
the city council did, unless it is clear by extrinsic
evidence or on its face unreasonable, and I don’t think
that’s been proven, and that’s only on just two things
that Attorney Hynes is focused on, the safety and
health.
I think, based upon the reaction of the folks that
have seen this event, it caused a disturbance, which
could have risen to potential violence if the police
didn’t respond appropriately.
If that was left to be unfettered, people are pointing
fingers, according to, I think, one of the Defendants
being—she was being physically harassed. So it has
the potential for violence, as well as, on the health
issue, there’s a potential that people in this society,
whether it’s good or bad, it’s a fact, these people in
society hold the female breasts in a sexualized
manner, as the defendants have said. People in this
society have grown up, for the large part, to be
modest about the female breast and nipple.
Those kids on that beach, who live in this society,
have those expectations, and now they are forced,

159a
they’re confronted by the defendants, and that is a
potential health issue, a mental health issue.
And so, on its face, and you don’t have to agree with
it wholeheartedly, but I don’t think it’s, on its face, it’s
unreasonable to use those as a purpose, but then you
go on to the other purposes of the statute, of the
ordinance, which is the morals and public order.
I think it’s clear that it is against the morals as
determined by the city council, and I don’t think
there’s any evidence to indicate otherwise, presented
extrinsically by the Defendants. There were some
varied opinions, but that’s a legislative process.
The purpose goes on to say, in the ordinance:
“In addition, the prohibited conduct has been
widely found and is deemed to have harmful
secondary effects in places and communities
where it takes place, including crimes of various
types, and reduction of property values.”
Okay? And I would agree that not all of these
things apply to this section that we’re dealing with
here, this ordinance deals with other things, but if
there was not this ordinance, potentially, this could
be a mecca for topless sunbathing, which may have a
negative impact on property values. People with
conservative, moral principles, which I plea this
ordinance is based upon from the city council, may
not come to Laconia for—with their tourist dollars. So
that is a valid reason for this ordinance, as
determined by the legislative body, elected by the
citizens of this city.
If the citizens disagree with the ordinance, and
they agree with the defendants, that will change.
That’s the legislative process, that’s how that is fixed.

160a
And they have the availability to advocate for their
position. Every day of the week, they can—at every
city council meeting, they can ask to be heard, they
can protest outside. They can put newspaper articles
in. They can draw attention to this. And I don’t,
personally, have any opinion on this, but it’s really a
separation of powers issue.
Does the City of Laconia have the ability to render
ordinances to protect the city’s welfare, the morals,
preserve the City’s character, to help safety, public
order? I would say it does, Judge.
In the enabling statute, I think it’s clear and it is
broad, that allows the cities to set rules for the use of
its public places. And I use analogy of the example of
the public library. The enabling clause that I refer to
is the one actually for the towns, but as indicated in
my pleading, the cities enjoy two essentially, statutes,
47-17 and 31-9 -- 31-39, which the legislation has
given cities both of those.
And with regard to 31-39, it says, “The city is
empowered to make bylaws for the care, protection,
preservation, and use of the public cemeteries, parks,
commons, libraries, and other public institutions of
the town.”
I would say commons and other public institutions
include all public property, all the roads, all the
parks, all the beaches. They are open to the public.
So the legislature has specifically given the cities
ability to set rules about their use. Without that
enabling clause, and I use the example of the library,
the library could not set rules about the opening and
closing time. There would be a public library, it would
be open at all times. There would be no rules

161a
whatsoever, you could do what you want, but
obviously, that would be anarchy.
So by this statute, 31-39, the legislature has given
them the authority to regulate it. They don’t say what
authority you have to use, as long as it’s not
repugnant to state or federal law, that’s the only
prohibition or limitation they have, which is
understandable. If it’s repugnant to federal or state
law, they have the ability to regulate the use of those
facilities.
Just like if one of the defendants went to a DARE
graduation, it’s a public building, they’re able to go to
that building, and they went topless. Absent the
enabling clause, the City could not regulate that.
Obviously, the City can regulate and ask that person
to leave, that would be inappropriate. That’s an
extreme example, and I’m not saying they would do
that, but just because they may not like that the City
regulates the beach, prohibiting the not wearing of—
or exposing their nipples, doesn’t mean it’s not valid.
It’s a pretty broad mandate that the Legislature is
giving the cities, because absent that, there would be
no rules. You could do what you want.
And if you look at the enabling statute, most, if not
all of the subsections, there’s a bunch of them and
they’re very specific. The specific ones, Judge, deal
with going into private homes, private businesses,
that’s why they’re very specific. All those about what
you can do on your own private property and they’re
very detailed. They’ve very broad when they’re
talking about public property, you know. So they give
the cities, the towns, ability to regulate their public
property. Where they want very specific is when

162a
you’re talking about private property, and that’s a
distinction.
And when you read it, well, it’s not very—it’s—
they’re not talking about anything specific about
these things for a reason, because they want the cities
to be able to say the beaches can open and close at
certain times, people can wear certain thing
swimming, people can not stand on a chair in the
middle of the children’s section of the library. And
that is a—I’m assuming it’s implicit rule, it’s not
explicit rule, but it would be upheld because the
librarian superintendent, or the librarian, Mr.
Brough, is given the authority by the city council,
through the trustees of the library to set rules of the
library. And if he says you cannot stand up on a chair
in the middle of the children’s room, you cannot do
that, but that authority is given to him by grants by
the legislature for the City to set rules and
regulations in the library.
I would argue, Judge that equal protection, as
defined by Attorney Hynes, and New Hampshire is
not strictly applicable to this case.
15 And if you look at Lapport (phonetic), which is a
case that Attorney Hynes cites, it’s a 1991 case. It
reads, and this is on page 76, “The doctrine of equal
protection demands that all persons similarly
situated, should be treated alike.”
And therefore, the first question in the equal
protection analysis is whether the state action in
question treats similarly situated persons differently.
And if you look at my pleading, Judge, there’s
replete, and in the case, also cites a U.S. Supreme
Court case, that actually cites the U.S. Supreme

163a
Court, Claire Brennan versus Claire Brennan Living
Center.
So I think New Hampshire Equal Protection
Doctrine is closer to federal than Attorney Hynes with
respect to this case, because in this case, we’re not
talking about similarly situated individuals, we’re
talking about different genders, and as I cite in my
pleadings, “Equal protection does not demand that
things that are different in fact be treated the same in
law, not that a state pretend that there is no
physiological differences between men and women.”
It’s on page 9 of my pleading. That’s citing State
versus Vogt, I don’t know how to pronounce it, V-O-GT. “Nor does the equal protection require things
which are different in fact to be treated in law as
though they were the same.”
And I think that’s what the NH Supreme Court is
saying, as well. I don’t think they would say that in
this case, they are the same. Men and woman are not
the same, they are different, society treats them
different. And as such, I don’t think it rises to that
level of strict scrutiny, as Attorney Hynes, in this
case.
If it was about men and women being able to vote;
if it was about men and women being able to use the
bus, those are—they’re used in the same situation at
that point, and they have to be treated the same,
absent strict scrutiny.
But in this case, because of the physiological
differences, they are different. And the conduct of
exposing the breasts is different for a male and
female. So it is the lesser scrutiny, as indicated in all
of the—most all of the States of the Union, Judge.

164a
And paragraph 21 of page 10 in my pleading, “The
overwhelming majority of cases, including holding
that laws being female, but not male toplessness do
not violate federal or state legal protection
guidelines.” And that again, is the Vogt case.
So the last thing that Mr. Hynes talked about is
pre-emption, Judge. And, if you—I think my pleading
is very clear on that. There’s two types of preemption, express, which is not the case. There is no
state law which expressly permits—or there’s no state
law that says that towns cannot issue laws regarding
public nudity. There’s no state law that says the state
has all authority to issue laws regarding public
immunity—public nudity. There’s no such thing. So
there’s no express pre-emption.
There’s two kinds of implied pre-emption. One is,
by the regulatory and statutory scheme, it’s apparent
that the state has determined to have the sole
decision-making on this issue if it’s complicated. This
is not a complicated decision, it’s whether a woman
can have—bear her breasts and nipples in public. It’s
not a complicated issue.
Those types of pre-emptions incur with regulatory
situations such as environmental issues, solid waste,
nuclear, I’m sure. That’s where there’s the—that
implied pre-emption, where the regulatory scheme is
so huge and complex that obviously, unless there’s an
express rant, which there are some cases that the
cities cannot pass their own laws about that.
The other is whether there is, in fact, the city
ordnance [sic] is contrary to state law, and again,
there is no state law that expressly permits the
exposing of breasts, and I use the Rochester case as
an example, where the City of Rochester initiated a

165a
ordinance which said that no vehicles can use their
sirens in the city compact, including ambulances and
fire trucks.
The state had passed regulations which basically
said if you are -- you have to transport patients as
quickly as possible and use the appropriate means to
do so, and it set requirements for uses of sirens.
So if the City of Rochester had its way, that would
be against that state mandate. It doesn’t say that
cities and towns can’t do it, but based upon the state
law at the time, that was in direction contradiction to
that state law, and therefore, that was pre-empted.
There’s no such pre-emption in this case, Judge.
So I would argue that the state has enabled the city
to pass this ordinance, that the ordinance is
reasonable for the purposes that it seeks to address
that it is constitutional, both under equal protection,
and I don’t think Attorney Hynes really talked about
the First Amendment, but I think the pleadings can
speak for themselves.
And the—also, that the last thing that he addresses
in his motion is the civil rights issue. I don’t think it
applies to cities issuing legislation, I think it applies
to employers to house, you know, to landlords and
such. It would apply to a city in an employment
situation, like a city worker that’s being
discriminated I think would fall in that civil rights
thing, but I don’t think that civil rights statute
applies to cities and acting legislation. That’s when
you get at the Equal Protection First Amendment
issues, and that’s what will decide whether legislation
is valid, not—and that civil rights also deals with
discrimination against individuals.

166a
The law was put in place, not to—and this is the
First Amendment argument, not to push down on
expression or speech, and that’s the really the litmus
test. It is not there to quiet people, it is there to
prevent conduct. It’s content mutual. In other words,
it’s not meant to seek to push down the freedom
nipple movement, that’s not what it’s there for. This
law does not prevent them from advocating their
positions among a number of different avenues.
So even if you think the civil rights statute does
apply, I don’t think this is discriminatory, and you
can look at the Equal Protection First Amendment
analysis for that.
THE COURT: Mr. Hynes?
MR. HYNES: Your Honor, may I just briefly
respond?
THE COURT: Sure.
MR. HYNES: Thank you.
In regards to the civil rights, one of the subsections
of that chapter does deal with public accommodations,
so I would suggest that that pre-empting the state’s—
or the city’s ordinance in this case. They’re treating
men and woman differently in a public
accommodation. They’re allowing men to be topless at
the beach, that they’re excluding females to be topless
at the beach. I suggest that is pre-empting.
In regards to the physical—
THE COURT: You don’t think accommodations—
are you saying public accommodations as in accommodating people or accommodations in terms of location?

167a
MR. HYNES: I believe the ordinance defines public
accommodation to include things like hotel—
anywhere the public can be, so hotel, different things
in that regard, and I would suggest that that
specifically is the one.
Additionally, one of the subchapters specifically
states some—and I don’t have the exact language in
front of me, that it’s essentially a human right and
is—and the chapter is to be interpreted as broadly as
possible.
In regards to physiological differences, I would
suggest there’s nothing inherently dangerous, it being
a safety, health, or moral issue in the female nipple or
female breasts.
Society may choose to make that difference, but I
mean that’s what our country has unfortunately done
over the course of our history. We’ve made differences
based on race, but there’s not an inherent difference.
We’ve made differences based on gender, where
there’s no inherent difference prohibiting women from
owning land, voting, have property rights, all sorts of
different things.
And ultimately, thankfully, legislature often times
does address these issues and people[’]s views do
change, but not always at the rate it should.
So the courts have stepped in over the entire course
of this country and stepped in when a constitutional
issue comes up as depriving someone based on there
rights, based on suspect investigations [sic] that’s just
race and gender, whether it be the U.S. Supreme
Court validating separate but equal—
Board versus—Brown versus Board of Education in
regards to allowing people to go to school based on—

168a
independent of race, and most recently, the same sex
marriage issue. That was an issue based on gender
and states, they were making progress on that issue.
One at a time, legislatures were coming to the
conclusion this is a right we want to have. It just
wasn’t happening quick enough. The U.S. Supreme
Court stepped in and said this is a fundamental right
and we’re going to address this issue for everyone.
So that’s why we’re here today, I’m asking the
Court to address that.
THE COURT: Okay.
Mr. Sawyer?
MR. SAWYER: Judge, there’s a concept called stare
decisis.
THE COURT: Yep.
MR. SAWYER: And I think we’re obligated to
follow those laws. It’s up to the Supreme Court of
New Hampshire and the U.S. Supreme Court to
overturn their prior rulings, and I think those rulings
stand today with all respect, that is the law of the
land and it’s not up to—it’s only up to the Supreme
Court to overturn a decision.
We have to follow that, and I—the Court has made
it clear, about the U.S. Supreme Court and other
courts around this country, that there is a difference.
And Attorney Hynes may be right, maybe they will
change their mind, but that is the law of the land and
that’s what we have to deal with.
THE COURT: Okay. Thank you, folks. The Court
will take it under advisement, issue an order, and you
will be hearing from me—

169a
MR. HYNES: Thank you.
THE COURT: —in some time.
(Proceedings concluded at 10:15 a.m.)

